                                                                             Report No. DODIG-2014-094



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J u ly 1 7 , 2 0 1 4




                     Approaches for Establishing
                     Fraud Risk Assessment Programs
                     and Conducting Fraud Audit
                     Risk Assessments Within the
                     Department of Defense




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                         dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                         Results in Brief
                                         Approaches for Establishing Fraud Risk Assessment
                                         Programs and Conducting Fraud Audit Risk Assessments
                                         Within the Department of Defense


July 17, 2014                                               What We Found (cont’d)
                                                            Fraud risk assessment approaches developed by the Marine
Objective                                                   Corps Nonappropriated Funds Audit Service; Army and Air
The objective of the review was to identify                 Force Exchange Service, Audit Division; and the Army Audit
approaches for establishing fraud risk                      Agency are highlighted within this report. Additionally,
assessment programs and conducting fraud                    entity-wide fraud risk assessment approaches developed by
risk assessments within the DoD. The review                 the DoD Investigative Organizations; Naval Exchange Service
focused on various DoD activities including                 Command, Office of Internal Audit; and the Naval Sea Systems
procurement, retail, and financial operations.              Command Office of the Inspector General are also discussed
                                                            in detail. The report also contains information on auditor and
                                                            entity-wide fraud risk assessment approaches developed by
What We Found                                               external DoD organizations.
We identified numerous innovative approaches
for conducting fraud risk assessments.                      We used documentation obtained from the subject matter
Of the 33 DoD organizations we interviewed,*                experts to develop example documents included in the report
13 were conducting entity-wide risk                         Appendixes. Example documents include audit organization
assessments, 26 were conducting fraud risk                  fraud risk assessment policies, financial statement audit
assessments when performing audit-related                   fraud interview questionnaire, and an entity-wide fraud risk
work, 23 were providing fraud awareness                     assessment report. The report also provides information on
training, and 3 were concentrating on                       auditor fraud brainstorming and interviewing techniques and
internal control evaluations.                               DoD fraud case study examples.

DoD entities are encouraged to modify
any of the described approaches to suit                     Management Comments and
their specific mission, size, and fraud                     Our Response
vulnerabilities.   The   approaches    were
                                                            We have incorporated draft report comments received from
developed through research and interviews
                                                            the Commander, Naval Sea Systems Command; Naval Audit
with     100     subject   matter    experts
                                                            Service; Defense Health Agency; Defense Information
representing DoD organizations, academic
                                                            Systems Agency, Office of the Inspector General; Air Force
institutions,    private  companies,    and
                                                            Office of Special Investigations; and Board of Regents
nonprofit organizations.
                                                            of the University System of Georgia. No further comments
                                                            are required.

	*	
      For some DoD organizations, more than one component
      participated in this review.




Visit us at www.dodig.mil


                                                                               DODIG-2014-094 (Project No. D2012-DAPOIA-0227.000) │ i
Distribution:

Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commandant of the Marine Corps
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Missile Defense Agency
Director, Tricare Management Activity
Naval Inspector General
Auditor General, Department of the Army
Auditor General, Department of Navy
Auditor General, Department of the Air Force




                                                                              DODIG-2014-094 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1

                  Successful Brainstorming for Auditors______________________________ 10
                  American Accounting Association Top Seven Brainstorming Practices___________________ 12
                  Grant Thornton, LLP, Fraud Brainstorming Approaches for Auditors_____________________ 12
                  TDoD Fraud Brainstorming Approaches_____________________________________________________ 17

                  DoD Audit Organizations’ Approaches for Performing
                  Fraud Risk Assessments_______________________________________________________ 18
                  Marine Corps Nonappropriated Funds Audit Service Fraud Risk
                     Assessment Approach_____________________________________________________________________ 18
                  Army and Air Force Exchange Service, Audit Division, Fraud Risk
                     Assessment Approach_____________________________________________________________________ 22
                  Army Audit Agency Fraud Risk Assessment Approach _____________________________________ 29
                  Summary of DoD Audit Organizations’ Approaches for Conducting Fraud
                     Risk Assessments__________________________________________________________________________ 34

                  Auditor Fraud Risk Assessment
                  Special Considerations_ ________________________________________________________ 35
                  Special Fraud Risk Considerations When Auditing Health Care Organizations __________ 35
                  Special Fraud Risk Considerations When Auditing Government Contracts_______________ 36




iv │ DODIG-2014-094
Contents (cont’d)
Approaches for Conducting Entity-Wide
Fraud Risk Assessments_______________________________________________________ 37
Fraud Risk Assessment Benefits for DoD Organizations____________________________________ 37
DoD Investigative Organizations’ Fraud Risk Assessment Approaches____________________ 39
Navy Exchange Service Command Fraud Risk Assessment Approach_____________________ 40
Naval Sea Systems Command Fraud Mitigation Framework_ ______________________________ 44
NAVSEA, Office of Inspector General, Contract Fraud Risk Assessment and
   Mitigation Branch, Fraud Risk Assessment Approach__________________________________ 47
Professional Organization Guidance on Managing the Business Risk of Fraud___________ 49
Australian National Audit Office Fraud Risk Management Process________________________ 55
Australian National Audit Office Fraud Risk Assessment Approach _______________________ 57
Association of American Medical Colleges __________________________________________________ 58
Smart Insights, LLC Fraud Risk Assessment Approach_____________________________________ 62
Texas Tech Fraud Risk Assessment Approach_______________________________________________ 63
Grant Thornton Approach for Enterprise Risk Management_______________________________ 67
Grant Thornton Fraud Risk Assessment Approach__________________________________________ 70
Summary of Entity-Wide Approaches for Conducting Fraud Risk Assessments__________ 72

Summary of DoD and External Organizations’ Fraud
Initiatives_________________________________________________________________________________ 74
DoD Entities and External Organizations’ Fraud Risk Assessment Approaches, Fraud
   Awareness Training, and Internal Control Evaluations ________________________________ 74
Department of Defense________________________________________________________________________ 77
Department of the Army_ _____________________________________________________________________ 84
Department of the Navy_______________________________________________________________________ 84
Department of the Air Force__________________________________________________________________ 88
External Organizations________________________________________________________________________ 89




                                                                                                    DODIG-2014-094 │ v
                  Contents (cont’d)
                  Appendixes
                  Appendix A. Scope and Methodology_________________________________________________________ 93
                  Appendix B. Example Naval Audit Service Performance Audit Fraud Risk Policy_ _______ 96
                  Appendix C. Example Naval Audit Service Fraud Risk Assessment Work Paper_________104
                  Appendix D. Example DoD OIG, Fraud Interview Questionnaire – Financial
                     Statement Audit_ _________________________________________________________________________108
                  Appendix E. Example IIA, AICPA, ACFE, Fraud Risk Assessment Framework____________110
                  Appendix F. Example Smart Insights Group, LLC, Internal Control
                     Evaluation Questionnaire________________________________________________________________114
                  Appendix G. Example Grant Thornton Client Report and Heat Map______________________123
                  Appendix H. Example NAVSEA, Office of the Inspector General, Contract Fraud Risk
                     Assessment and Mitigation Branch, Organization Fraud Risk Assessment Report__131
                  Appendix I. Procurement Fraud Personality Risk Profiles_________________________________138
                  Appendix J. Organization Tool for Evaluating Fraud Control Program ___________________143
                  Appendix K. Suggested Reading _____________________________________________________________146

                  Acronyms and Abbreviations_____________________________________________148




vi │ DODIG-2014-094
                                                                                            Introduction


Introduction
Objective
The objective of the review was to identify approaches for establishing fraud risk
assessment programs and conducting fraud audit risk assessments within the DoD.
The review focused on various DoD activities including procurement, retail, and
financial operations. Information in this report should be used as a resource for
DoD organizations interested in improving their current methods for assessing fraud
risk. The document also serves as a useful teaching tool to enhance auditors’
understanding of the fraud risk assessment process and educate DoD entities
about the value of entity-wide fraud risk assessment programs. Each of the risk
assessment approaches presented can be modified to suit an organizations’
mission, size and specific fraud vulnerabilities.


Background
Fraud Risk Assessments Benefits for DoD
Fraud risk assessments help to mitigate the risk of fraud occurring within DoD
programs and operations.       To assist DoD’s efforts to prevent, detect, and mitigate
fraud, we identify approaches for conducting fraud risk assessments for DoD
auditors   and    DoD    organizations.   We    also   describe   numerous   fraud   risk
assessment approaches developed by DoD organizations. The suggested approaches
were obtained through interviews with 100 subject matter experts from within
DoD, the public and private sectors, and published research (refer to Appendix A
for a list of organizations participating in this review). The technical experts
represented 45 organizations located in 16 states and the District of Columbia.
Individuals contributing to this review included auditors, forensic auditors,
investigators, attorneys, academics, and engineers. Additional information within
this document includes auditor fraud brainstorming and interviewing techniques,
example fraud risk assessment policies, and case study examples. Although we do
not endorse a specific approach, we are presenting a variety of models for
DoD organizations and auditors to consider when evaluating fraud risk.


Significant Threat of Fraud Within DoD
Fraud within the DoD presents a significant threat to the organization’s mission and
efforts to ensure warfighter safety. Because of the size and complexity of DoD
programs and operations, opportunities to commit fraud are always present.




                                                                                        DODIG-2014-094 │ 1
Introduction


                 Advances in technology, along with the ongoing development of new fraud
                 schemes, reinforces the need for DoD organizations to be continuously alert to
                 fraud, perform periodic fraud risk assessments, and provide fraud awareness
                 training to all employees.  Fraud risk assessments benefit all organizations by offering
                 a cost-effective method to evaluate fraud risks, identify entity-wide improvements,
                 educate employees about fraud, and improve internal controls. Audit organization
                 fraud risk assessments support DoD efforts to prevent and detect fraud through
                 analyzing internal controls, considering fraud schemes and indicators, and
                 developing recommendations for management to reduce the likelihood of fraud.

                 Individuals     attempting    to   defraud   DoD       include   contractors,   subcontractors,
                 civilian employees, and individual service members. Fraudulent activities range
                 from complex procurement schemes to theft in retail operations. The following
                 examples of recent fraud cases illustrate the challenges facing the Department:

                         •	 A construction company paid a $2 million fine and $1.1 million to
                               settle allegations of submitting false claims to the government.

                         •	 DoD contractors and Navy employees were sentenced to pay more than
                               $3 million for a widespread bribery and corruption scheme.

                         •	 A pharmaceutical company paid $45 million to resolve criminal and
                               civil allegations of drug misbranding.

                         •	 A former Army Major was sentenced to 18 months in prison for a bribery
                               scheme relating to DoD contracts in Kuwait.

                 When organizations do not conduct periodic fraud risk assessments, they are often
                 reactive when fraud occurs and are left to answer questions such as:

                         •	 Why did this happen?

                         •	 How did this happen?

                         •	 How significant is the damage to our reputation?

                         •	 What is the effect on the trust of the public, elected officials, and
                               key stakeholders?

                         •	 How can we prevent this from happening in the future?

                         •	 Why did the auditors not alert management to internal control
                               weaknesses and fraud vulnerabilities?




2 │ DODIG-2014-094
                                                                                                                        Introduction


Definition of Fraud
Fraud is defined in various ways. The generally accepted government auditing
standards (GAGAS) describes fraud as:

                  A type of illegal act involving the obtaining of something of value
                  through willful misrepresentation. Whether an act is, in fact, fraud is
                  a determination to be made through the judicial or other adjudicative
                  system and is beyond the auditor’s professional responsibility.


Black’s law dictionary also describes fraud as:

                  A knowing misrepresentation of the truth or concealment of a material
                  fact to induce another to act to his or her detriment. 1


Definition of Fraud Risk Assessments
It is important for DoD organization’s to understand the differences between
enterprise-wide risk assessments and fraud risk assessments. Although both
approaches contain similarities, the objectives, outcomes, and benefits to an
organization differ. Enterprise-wide risk assessments are focused on identifying
risks associated with achieving program goals, maximizing program performance,
or future risks, such as reductions in budgets or personnel. In comparison, a fraud
risk assessment is an evaluation of potential instances of fraud that could impact
an organization’s ethics and compliance standards, business practice requirements,
financial reporting integrity, and program goals and program performance.2


Auditor Responsibility for Assessing Fraud Risk
Auditors are required to assess the risk of fraud when conducting their work
in accordance with GAGAS, American Institute of Certified Public Accounts (AICPA),
and the Institute of Internal Auditors (IIA), International Professional Practices
Framework. Auditing standards also require auditors to maintain their professional
skepticism and remain alert to fraud indicators at all phases of an audit.
To maximize the benefit to DoD, fraud risk assessments should not be considered
only routine exercises, or just a way to document compliance with auditing
standards or internal policies and procedures. Instead, auditors should conduct
robust discussions about fraud indicators and schemes and in-depth analyses of
internal controls to identify weaknesses when conducting fraud risk assessments.


	1	
      Black’s Law Dictionary, 9th edition, 2009.
	2	
      Pricewaterhouse Coopers, “A practical guide to risk assessment, How principles-based risk assessment enables
      organizations to take the right risks,” 2008.




                                                                                                                     DODIG-2014-094 │ 3
Introduction


                 GAGAS
                 The December 2011 Revision of GAGAS acknowledges the auditor’s responsibility
                 to assess fraud risk when conducting performance audits:

                            In planning the audit, auditors should assess risks of fraud
                            occurring that is significant within the context of the audit
                            objectives. Audit team members should discuss among the team
                            fraud risks, including factors such as individuals’ incentives or
                            pressures to commit fraud, the opportunity for fraud to occur, and
                            rationalizations or attitudes that could allow individuals to commit
                            fraud. Auditors should gather and assess information to identify
                            risks of fraud that are significant within the scope of the audit
                            objectives or that could affect the findings and conclusions.
                            An attitude of professional skepticism in assessing these risks
                            assists auditors in assessing which factors or risks could
                            significantly affect the audit objectives.


                 For financial statement audits, GAGAS incorporates the AICPA Statements on
                 Auditing Standards. GAGAS establishes requirements for performing financial
                 audits in addition to the requirements contained within the AICPA standards.
                 Auditors should comply with these additional requirements, along with the
                 Statements on Auditing Standards guidance when citing GAGAS in their reports.


                 AICPA
                 AICPA Auditing Standard, Section 316, “Consideration of Fraud in a Financial
                 Statement Audit,” requires auditors to assess the risk of fraud. Members of the audit
                 team should discuss the potential for material misstatement due to fraud through
                 an exchange of ideas or brainstorming discussion. Additionally, when applying
                 professional judgment to assess fraud risk, the following risk attributes should
                 be considered.

                         •	 The type of risk that may exist, that is, whether it involves fraudulent
                            financial reporting or misappropriation of assets.

                         •	 The significance of the risk, that is whether it is of a magnitude that
                            could lead to result in a possible material misstatement of the
                            financial statements

                         •	 The likelihood of the risk, that is, the likelihood that it will result in a
                            material misstatement in the financial statements




4 │ DODIG-2014-094
                                                                                         Introduction


        •	 The pervasiveness of the risk, that is, whether the potential risk is
           pervasive to the financial statements as a whole or specifically related to
           a particular accounting assertion, financial statement accounts or types
           of transactions.

IIA, International Professional Practices Framework
The January 2013 version of the IIA, “International Professional Practices
Framework, Performance Standards, Risk Assessment,” Section 2120A2, states that
the internal audit (IA) activity must evaluate the potential for the occurrence of
fraud and how the organization manages fraud risk.


Federal Organization’s Responsibility for Minimizing the
Potential for Waste, Fraud, and Mismanagement
Office of Management and Budget Circular A-123, “Management’s Responsibility
for Internal Control,” December 2004, states that management has a fundamental
responsibility to develop and maintain effective internal controls. Programs must
operate and resources must be used consistent with agency missions, in compliance
with laws and regulations, and with minimal potential for waste, fraud, and
mismanagement. Managers should define the control environment and then
perform risk assessments to identify the most significant areas within that
environment in which to place or enhance internal control. The risk assessment
is a critical step in the process to determine the extent of controls. Management is
then responsible for redesigning or improving upon those controls. Management is
also responsible for communicating the objectives of internal control and ensuring
the organization is committed to sustaining an effective internal control environment.


DoD Guidance on Safeguarding Against Waste, Fraud, Abuse
and Mismanagement of Resources
DoD Instruction, 5010.40, “Managers’ Internal Control Program Procedures,”
May 2013, assigns responsibility and prescribes procedures for the execution of
the program within the DoD. This guidance requires DoD employees to determine
whether a financial reporting material weakness is a significant deficiency, or
a combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be
prevented or detected. An internal control deficiency should be considered a material
weakness if it significantly weakens established safeguards against waste, fraud,
abuse, and mismanagement of resources.




                                                                                     DODIG-2014-094 │ 5
Introduction


                 Why Fraud Happens
                 In 1950, Donald R. Cressey, a criminologist, examined why people commit fraud.
                 Donald Cressey’s work resulted in the development of the Fraud Triangle (see
                 Figure 1), which uses the elements of opportunity, motivation, and rationalization
                 to explain why people commit fraud. Organizations have limited control over
                 fraudster’s3 pressures and rationalizations. However, proactive steps can be taken
                 to significantly reduce opportunities to commit fraud.4

                 Figure 1. The Fraud Triangle




                       Opportunity:                                                             Rationalization:
                        Seizing opportunities                              Ra                   The fraud gain outweighs
                                                                  y
                                                              nit


                         to commit the fraud
                                                                              tio                 the possibility of detection
                                                                                                 Self-justiﬁcation for actions
                                                          rtu



                                                                                  na
                                                                                     liza
                                                       po
                                                    Op




                                                                                         tio
                                                                                            n

                                                                   Motive
                                         Motive:
                                          Motivation (perceived need or desire to commit
                                           the fraud, can be personal or job related)
                       Developed by Donald R. Cressey


                 Opportunity
                 Fraud is more likely to occur in organizations where
                 there is a weak system of internal controls, poor
                                                                                                              Research
                 security over assets, little fear of exposure and                                        shows that some
                 likelihood         of     detection,        or      unclear       policies             employees are totally
                 regarding          acceptable        behavior.        The      Chartered              honest, some are totally
                                                                                                         dishonest, but that
                 Institute        of     Management           Accountants,          “Fraud              many are swayed by
                 risk management, A guide to good practice,” 2008,                                       the opportunity to
                 states that, “Research shows that some employees                                          commit fraud.
                 are totally honest, some are totally dishonest, but that
                 many are swayed by the opportunity to commit fraud.”

                 	3	
                       The definition of a fraudster is a person who commits fraud. Source: Dictionary.com
                 	4	
                       Donald R. Cressey, “Other People’s Money,” Montclair: Patterson Smith 1973, and Naval Sea Systems Command, Office of
                       Inspector General, Presentation, “Acquisition Fraud Awareness Training,” not dated.



6 │ DODIG-2014-094
                                                                                                                    Introduction


There must be something to steal and a way to steal it. Anything of value is
something to steal, including both DoD tangible assets such as inventory items,
and intangible assets such as government patents and copyrights. Any weakness
in a system, for example, lack of oversight, provides opportunities to steal from DoD.
Of the three elements of the Fraud Triangle, opportunity is often the most
challenging to detect, but is fairly easy to control through improvements to
internal controls and changes to policies or procedures.


Rationalization
Many people obey the law because they believe in it and/or are afraid of being
shamed or rejected by their friends and family if they are caught. However, some
people are able to rationalize fraudulent actions as:

               •	 Necessary – especially when done for the organization,

               •	 Harmless – because the victim is large enough to absorb the impact, or

               •	 Justified – because the victim deserved it or because they were mistreated.5

There are two aspects of rationalization: One, the fraudster concludes that the gain
to be realized from fraudulent activities outweighs the possibility for detection.
Two, the fraudster needs to justify committing the fraud. Justification can relate to
job dissatisfaction or perceived entitlement, or saving one’s family, possessions, or
status. Rationalization is usually detected by observing the fraudster’s comments
or attitudes.6


Motive
In simple terms, motivation is based on either greed or need. Many people are
faced with the opportunity to commit fraud, and only a minority of the greedy or
needy do so. In general, greed is the number one cause for fraud along with
problems with debt and gambling. Personality and temperament, including how
frightened people are about the consequences of taking risks also influences
their decisions. Some people with good principles fall into negative behavior
patterns and develop tastes for the fast life, which tempts them to commit fraud.
Others are motivated only when faced with personal and professional ruin.7




	5	
       Chartered Institute of Management Accountants, “Fraud risk management, A guide to good practice,” 2008.
	6	
       Naval Sea Systems Command, OIG, Presentation, “Acquisition Fraud Awareness Training,” not dated.
	 7	
       Chartered Institute of Management Accountants, “Fraud risk management, A guide to good practice,” 2008.




                                                                                                                 DODIG-2014-094 │ 7
Introduction


                 Case study examples of DoD specific frauds are discussed in Figures 2 and 3.
                 The examples are for illustrative purposes and highlight the presence of
                 motivation, opportunity, and rationalization in each fraud scheme.

                 Figure 2. Case Study-Disclosure of Information


                                 Motivation, Opportunity and Rationalization in DoD
                                 Improper Selection of Source Selection Information

                     Case Facts – A DoD employee responsible for assisting the contracting officer
                     with funding, performance, and technical issues relating to a DoD program
                     admitted to Federal investigators that he disclosed contractor bid and source
                     selection information to a company bidding on a new contract. The employee
                     gave the company the information so they would have a competitive
                     advantage during contract biding.

                     Motivation – In exchange for the information, the company provided the
                     employee with a new car.

                     Opportunity – The contracting officer was overwhelmed with their workload
                     and paid little attention to contract awards less than $3 million.

                     Rationalization – The employee had been passed over for promotion several
                     times and believed he was mistreated and not valued by DoD.

                     Outcome – The employee was prosecuted in Federal court and received a
                     maximum sentence of 20 years in prison and a fine of $250,000.




8 │ DODIG-2014-094
                                                                                                Introduction


Figure 3. Case Study-Trafficking Counterfeit Parts and Money Laundering


              Motivation, Opportunity and Rationalization in DoD
                              Counterfeit Parts

  “I have to buy China and risk fake parts to compete. …It’s my biz.” Fraudster Instant
  Message, 2008

  Case Facts – During a 5-year period, a DoD parts supplier purchased counterfeit
  semiconductors from sources in Hong Kong and China. The individual went to
  great lengths to conceal the true origin of the parts and sold them as legitimate
  and reliable components for use in submarines and complex machinery.

  Motivation – The supplier was motivated by money. Through the sale of about
  14,000 counterfeit parts, they were paid several million dollars.

  Opportunity – Counterfeit parts are difficult to detect once they enter the DoD
  supply chain. Globalization of the supply chain has resulted in many suppliers receiving
  goods from second- and third-tier suppliers. Quality assurance tests may not detect all
  counterfeit parts because manufacturers are skilled at making parts appear authentic.

  Rationalization – Because the scheme was successful over time, the fraudster
  believed their chances of getting caught were minimal or nonexistent.

  Outcome – The fraudster was indicted on eight counts that included
  conspiring to traffic in counterfeit goods, conspiring to traffic in counterfeit
  military goods, trafficking in counterfeit goods, and conspiring to commit wire
  fraud and money laundering. When convicted, they were sentenced to 75 years
  in Federal prison.




                                                                                             DODIG-2014-094 │ 9
Successful Brainstorming for Auditors


                 Successful Brainstorming for Auditors
                 Most approaches for conducting auditor fraud risk assessments require auditors
                 to brainstorm fraud indicators and schemes associated with their audit objectives.
                 American Accounting Association8 research shows that important tangible benefits
                 are achieved through high-quality brainstorming sessions.9 In contrast, research also
                 suggests that some engagement teams will incur the cost of brainstorming without
                 receiving the intended benefits of the interaction. Quality brainstorming plays an
                 important role in improving the link between auditors, fraud risk assessments, and
                 their subsequent testing including the design of audit procedures. Figure 4 illustrates
                 a model of audit teams’ use of brainstorming in their consideration of fraud. This
                 model is based on psychology and accounting research and the AICPA Statement
                 on Auditing Standards Number 99, “Consideration of Fraud in a Financial Statement
                 Audit” framework.

                 Figure 4. Auditors’ Use of Brainstorming in the Consideration of Fraud


                                                     Brainstorming Quality



                          Attendance and                     Brainstorming                        Engagement
                          Communication                        Structure                           Team Eﬀort
                                                              and Timing



                          Fraud Risk                                                                  Fraud Risk Response
                            Factors                                                                      (Audit Testing)
                                                                Fraud Risk
                           Incentives                          Assessment                                        Nature
                         Opportunities                                                                           Staﬃng
                        Rationalizations                                                                         Timing
                                                                                                                  Extent




                 	 8	
                     The American Accounting Association is a voluntary organization of persons in accounting education and research that
                     promotes worldwide excellence in accounting education, research and practice.
                 	9	
                     American Accounting Association, “Auditors’ Use of Brainstorming in the Consideration of Fraud: Reports from the Field,”
                     Joseph F. Brazel, North Carolina State University, Tina D. Carpenter, University of Georgia, J Gregory Jenkins,
                     Virginia Polytechnic Institute and State University, 2010.




10 │ DODIG-2014-094
                                                                  Successful Brainstorming for Auditors


Brainstorming Quality
Brainstorming quality is directly affected by team members’ attendance and
communication, structure and timing of the session, and engagement team effort.
As more members of the engagement team attend and participate in the
brainstorming session, there will be greater diversity and more sharing of
information. This should improve the overall quality of the session and the
responsiveness of fraud judgments. The structure and timing of team discussions
also contributes to the quality of team judgments. Sessions held earlier in the planning
process positively influence auditors’ fraud judgments as the engagement team will
have more time to implement the ideas endorsed during the session. Engagement
team effort is another determinant of the quality of teams’ brainstorming sessions.
Auditors are encouraged to identify risks and potential audit responses prior to
brainstorming. These efforts should enhance each team member’s involvement
in the fraud audit process, augment their client-specific knowledge, and improve
their contributions to the brainstorming session.


Fraud Risk Factors, Fraud Risk Assessment, Fraud
Risk Response
AICPA Statement on Auditing Standards Number 99, “Consideration of Fraud in
a Financial Statement Audit,” provides guidance to improve the likelihood that
auditors will detect fraud using a multi-phase approach. First, auditors collect
information related to the risk of material misstatement due to fraud. Using such
information, auditors brainstorm to identify fraud risk factors (e.g., incentives,
opportunities, rationalizations), synthesize this information to develop a fraud risk
assessment, and develop a response to the risk assessments such as altering the
staffing of the engagement, or modifying the nature, timing, and extent of audit
procedures. Brainstorming sessions are intended to aid auditors in linking fraud
risk factors to risk assessments and, in turn, foster the development of appropriate
audit responses. As such, the approach depicted in Figure 4 indicates that
brainstorming should influence both phases of the fraud decision-making process
such that the relations among fraud risk factors, risk assessments, and responses
are positively moderated by the quality of the brainstorming session.




                                                                                       DODIG-2014-094│ 11
Successful Brainstorming for Auditors


                 American Accounting Association Top Seven
                 Brainstorming Practices
                 Researchers identified seven brainstorming practices that significantly improve
                 brainstorming quality.10 Most importantly, they are all controllable inputs that can
                 be easily fostered by management. Figure 5 lists the top seven brainstorming
                 practices for auditors.

                 Figure 5. Top Seven Brainstorming Practices for Auditors


                                               Seven Brainstorming Essentials for Auditors

                         •	 Sessions are led by a partner or forensic specialist.

                         •	 An information technology audit specialist attends the primary brain-
                              storming session.

                         •	 The engagement’s primary session is held pre-planning or early in planning.

                         •	 The discussion of how management might perpetrate fraud is robust.

                         •	 The discussion about audit responses to fraud risk is detailed.

                         •	 The level of manager contribution to the session is high.

                         •	 The level of partner contribution to the session is significant.



                 Grant Thornton, LLP, Fraud Brainstorming Approaches
                 for Auditors
                 The Importance of Ensuring Sufficient Rigor
                 If conducted with sufficient rigor the fraud brainstorming session is central to
                 identifying and responding to fraud risks.  Ordinarily in the first year, the meeting
                 has such rigor, but in subsequent periods, if sufficient rigor is not sustained, there is
                 a risk that it could become a routine exercise and what the audit team learns over
                 time is not brought to the discussion.




                 	10	
                        American Accounting Association, “Auditors’ Use of Brainstorming in the Consideration of Fraud: Reports from the Field,”
                        Joseph F. Brazel, North Carolina State University, Tina D. Carpenter, University of Georgia, J Gregory Jenkins,
                        Virginia Polytechnic Institute and State University, 2010.




12 │ DODIG-2014-094
                                                                                             Successful Brainstorming for Auditors



       The meeting facilitator should not arrive at the brainstorming session with a
       preconceived notion of the final outcome and a mindset that was closed to new
       ideas, and must give full consideration to the value of new ideas.
                                                                                   Partner, Grant Thornton, LLP



When conducting fraud brainstorming sessions, it is important that team members
and session leaders remain focused on the attributes discussed in Figure 6.

Figure 6. Attributes of Rigorous Brainstorming11


                                         Attributes of Sufficient Rigor

        •	 Devoting sufficient time to the fraud risk brainstorming meeting.

        •	 Ensuring         active       participation        by      partner,       manager,            and   subject
            matter experts.

        •	 Focusing on risks of material misstatement of fraud, as opposed to all
            fraud risks.

        •	 Stressing the importance of professional skepticism and the specific areas
            where it is needed.

        •	 Holding robust discussions about how the team will respond to identified
            fraud risks and tailoring the audit procedures to reflect those decisions.

        •	 Reinforcing the concept that the risk assessment process does not end
            with the meeting; and if during the course of the audit, additional fraud
            risks are identified, they should be brought to the attention of the partner,
            and the audit procedures adjusted, as necessary.




	11	
       Grant Thornton, “DoD Office of Inspector General, Conducting Fraud Risk Assessments Within DoD,
       Project No. D2012-DIP0AI-00227.000,” Grant Thornton Survey Responses, April 2013.




                                                                                                                         DODIG-2014-094│ 13
Successful Brainstorming for Auditors


                 Methods to Achieve Sufficient Rigor
                 Preparing for the Session
                 When preparing for a brainstorming session, the session facilitator should review the
                 applicable auditing standards and be familiar and able to discuss various aspects of
                 the consideration of fraud:

                           •	 The three conditions that generally accompany fraud (that are, incentive/
                                pressure, opportunity, and an attitude that permits rationalization),

                           •	 management’s unique ability to perpetrate fraud,

                           •	 the possibility of concealed fraud, and

                           •	 the potential existence of collusion.

                 A brainstorming session leader who has prepared sample responses to these prompts
                 or considered past examples of fraud is better equipped to jump-start a stalled
                 brainstorming session or keep a fraud discussion on track. Brainstorming sessions
                 conducted immediately after the engagement team kick-off meetings allow the
                 participants to use information discussed during the kick-off meeting to form
                 questions/comments regarding fraud while the understanding of the organization is
                 still fresh.


                 Devoting Sufficient Time to the Fraud Risk Brainstorming Meeting
                 When conducting brainstorming sessions, it is important to allow ample time for
                 the session. The free flow of ideas and connections among team members with
                 different perspectives can often take circuitous routes that do not result in as
                 much value-added to the process if time is too short or the process is rushed.
                 The process is designed to promote free form thinking from an unbiased perspective,
                 but the session can benefit from some level of advance preparation on the part of
                 the meeting facilitator. This advance preparation can bring sufficient focus to the
                 situation to increase the likelihood of considering the breadth of relevant factors.


                 Ensuring Active Participation
                 Active participation by audit managers, auditors, and specialists ensures that
                 team members with the most experience provide guidance and input during the
                 discussions. However, discussions are often more interactive when nonleadership




14 │ DODIG-2014-094
                                                                                    Successful Brainstorming for Auditors


                 members of the team lead the discussions. Members of the leadership of the audit
                 team should interject in the discussion when necessary. This approach allows for
                 a free exchange of information rather than a lecture type discussion.


                 Keeping the Discussion Fresh
                 It is important to keep fraud discussions fresh from year to year or engagement
                 to engagement to ensure that participants in the discussion continue to think
                 “out of the box” and consider the possibility of fraud from diverse perspectives.
                 An effective strategy for encouraging creativity and new perspectives is to rotate
                 the staff both leading and participating in the discussion. By assigning different
                 staff to lead the fraud discussion year after year, the fraud brainstorming session
                 may assume a different direction or tone, as the new staff leading the discussion may
                 have a fresh viewpoint on the auditee’s susceptibility to fraud.


                 Ranking Fraud Risks
                 Developing a risk ranking during the session is essential. The ranking of risk
                 areas requires a full understanding of how each business area functions. Based on
                 that understanding, auditors must consider the likelihood of fraud based on the
                 type of business function, the factors influencing the business environment, and
                 the controls in place. Determining the relative risk of each area requires not only a
                 thorough analysis of these factors but also professional judgment based on years
                 of experience. Materiality is an important concept in auditing, when it comes to
                 considering fraud, one must use caution as the occurrence of seemingly small fraud
                 in terms of dollar amount can have much larger implications for the organization.
                 These larger implications can include the assessment of management integrity and
                 whether management representations can be accepted, as well as the potential legal
                 and reputational implications of relatively small amounts of fraud.


                 Balancing Costs and Benefits
                 To balance the costs and benefits, the auditor must be able to estimate the level of
                 effort required to analyze an area. The level of effort determines the expected
                 cost. This expected cost must be compared to the combination of the potential
                 cost of fraud in an area and the probability of fraud occurring, as was done when
                 determining a risk ranking. This risk ranking is subjective and, again, based not only
                 on a thorough analysis but also professional judgment based on years of experience.




15 │ DODIG-2014-094                                                                                      DODIG-2014-094│ 15
Successful Brainstorming for Auditors


                 Identifying High-Risk Areas
                 Holding robust discussions on how the team will respond to identified fraud risks
                 and tailoring the audit procedures to reflect the decisions is essential. Areas of
                 heightened risks may be identified by the audit team, during the fraud risk
                 assessment process and brainstorming sessions. It is an effective practice to have
                 a team member document in writing those areas including reasons why the team
                 determined the area to be of high risk. A subsequent meeting should be held with
                 the engagement management team to decide the level of focus for each of those areas
                 and the audit response/tests that should be included within the audit programs.


                 Stressing the Importance of Professional Skepticism
                 It is critical to reinforce that the fraud risk assessment process does not end
                 with the meeting. If during the course of the audit, additional fraud risks are
                 identified, they should be brought to the attention of the audit manager and the
                 audit procedures adjusted, as necessary. During the brainstorming sessions the
                 team is reminded to maintain professional skepticism
                 during all phases of the audit. AICPA, Statement
                                                                                                          Professional
                 on Auditing              Standards         99,     “Consideration
                                                                                                     skepticism does not
                 of Fraud in a Financial Statement Audit,”                                         mean an auditor should
                 and        GAGAS        explain       the     importance          of             view every transaction as
                 exercising           professional         skepticism          while             though it is tainted by fraud
                                                                                                 or to interact with the client
                 conducting an audit. Professional skepticism                                      as though the client has
                 is an attitude that includes a questioning mind                                 fraudulently and materially
                 and a critical assessment of audit evidence.                                       misstated the financial
                                                                                                          statements.
                 Professional skepticism does not mean an auditor
                 should view every transaction as though it is tainted
                 by fraud or to interact with the client as though the client has fraudulently and
                 materially misstated the financial statements.                             The auditor should conduct the
                 engagement with a mindset that recognizes the possibility that fraud could be
                 present, regardless of any past experience with the entity and regardless of
                 the auditor’s belief about management’s honesty and integrity. Furthermore,
                 professional           skepticism        requires        an     ongoing       questioning          of    whether        the
                 information            and      evidence         obtained       suggests        that     fraud       has     occurred.12




                 	12	
                        Grant Thornton, “DoD Office of Inspector General, Conducting Fraud Risk Assessments Within DoD, Project No. D2012-
                        DIP0AI-00227.000,” Grant Thornton Survey Responses, April 2013.




16 │ DODIG-2014-094
                                                                                                       Successful Brainstorming for Auditors


DoD Fraud Brainstorming Approaches
Interviews with DoD subject matter experts disclosed that many organizations are
using brainstorming sessions when conducting fraud risk assessments and control
self-assessments (CSAs).13  Personnel providing guidance on effective brainstorming
approaches includes attorneys, auditors, investigators, and risk management
experts. Figure 7 summarizes DoD suggested fraud brainstorming approaches.

Figure 7. DoD Organizations’ Brainstorming Practices


                              DoD Organizations’ Fraud Brainstorming Tips

       Participants are asked “What is the Air Force equity that is at risk?” to
       help identify vulnerabilities. Criminal Investigator, United States Air Force,
       Office of Special Investigations

       No thought is considered bad; instead, all thoughts are considered good.
       Any ideas put forward by participants are considered. At the end of the
       sessions, all the walls in the meeting rooms are papered with ideas.
       Director, Defense Contract Management Agency, Contract Integrity Center

       The      setting        is     informal         and       the      environment             is     non-threatening.
       These        strategies         encourage           participation           from       each       team    member.
       Supervisory Auditor, Defense Commissary Agency, Office of Inspector General,
       Audit Division

       When identifying fraud risks, follow the money; where an organization
       is spending money, you will find fraud. Criminal Investigator, Defense
       Information Systems, Office of Inspector General, Investigations Division

       Before holding the fraud brainstorming session, it is important that
       people understand the session objective. Auditor, Defense Logistics Agency,
       Office of Inspector General, Audit Division

       Make sure attendees keep on time and keep on task. Deputy Director,
       Department of the Navy, Risk Management and Compliance Branch

       Have Fun! Chief Audit Executive, Navy Exchange Service Command



	13	
       CSAs help to identify fraud risks, vulnerabilities, and opportunities to improve existing controls.




                                                                                                                            DODIG-2014-094│ 17
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments



                 DoD Audit Organizations’ Approaches for
                 Performing Fraud Risk Assessments
                 DoD audit organizations developed numerous approaches for performing fraud
                 risk assessments. Auditors can modify any of the fraud risk assessments
                 examples presented in this document to suit their organization’s size, mission,
                 and structure.      In addition to discussing fraud risk assessment approaches, other
                 guidance discussed within this section includes:

                            •	 fraud interviewing approaches,

                            •	 general control environment questionnaires, and

                            •	 testing for fraud.

                 See Appendixes B and C for examples of fraud risk assessment policies and a fraud
                 risk assessment work paper developed by the Naval Audit Service.


                 Marine Corps Nonappropriated Funds Audit Service
                 Fraud Risk Assessment Approach
                 Key      steps   used     by    the   Marine     Corps       Nonappropriated   Funds    Audit
                 Service (MCNAFAS) when performing fraud risk assessments are audit team
                 brainstorming sessions to identify fraud risks and Internal Control Questionnaires.
                 For brainstorming sessions, team members review prior year work papers,
                 when available, to determine whether previously identified fraud risk factors are
                 applicable to the current audit objectives. Through team discussion, team members
                 also identify new fraud risks and vulnerabilities. The brainstorming sessions
                 reinforce the importance of professional skepticism and set the tone for
                 the engagement.


                      Networking within your organization and with your audit peers is an effective way
                      to stay current on fraud trends within your industry.
                                                                                     Audit Director, MCNAFAS




18 │ DODIG-2014-094
                                                                                                   DoD Audit Organizations’ Approaches
                                                                                                 for Performing Fraud Risk Assessments


Internal Control Questionnaires
MCNAFAS developed internal control questionnaires to gather information about
the auditee’s general control environment. Sometimes, auditors modify the
questionnaires to include information about the process being reviewed to gain
an understanding of the program or activity and assist in evaluating control
effectiveness. If the questionnaires disclose areas where controls are weak,
team         members          consider         the     area      for     additional        testing       during       fieldwork
Figure 8 provides an example of control environment questions. See Appendix D
for a DoD Office of Inspector General, (OIG),14 Office of the Deputy Inspector General
for Audit, example fraud interview questionnaire for a financial statement audit.




	14	
       In this document, the terms Inspector General (IG) or Office of Inspector General (OIG) refers to all Inspector General
       Offices, to include statutory and nonstatutory entities.




                                                                                                                                 DODIG-2014-094│ 19
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments


                 Figure 8. Auditor Questionnaire


                                        General Control Environment Questionnaire

                      1.	   Can management override a control? If yes, explain.

                      2.	   How does senior management communicate its commitment to sound
                            internal control and their expectation regarding the employees’ role?

                      3.	   Does management receive frequent and timely updates from the budget
                            function, accounting function, internal and external audits, and compliance
                            functions? If yes, explain.

                      4.	   Is the structure appropriate to manage activities and accomplish goals?
                            If no, explain.

                      5.	   Are the reporting relationships appropriately organized and periodically
                            reviewed? If no, explain.

                      6.	   Are the appropriate number of people and resources allocated to key
                            functions/activities? If no, explain.

                      7.	   Are job descriptions current, accurate, and understood? If no, explain.

                      8.	   What mechanism exists to identify any new laws or regulations or changes
                            to existing ones?

                      9.	   What has management done to effectively encourage employees to
                            communicate control breakdowns, overrides, or potential regulation or
                            policy violations?

                      10.	 Has management established a code of conduct and other policies
                            regarding acceptable business practices, conflicts of interest, and standards
                            for ethical and moral behavior?



                 Effective Fraud Interviews
                 It is helpful for auditors to remember that effective communication requires active
                 listening skills. Auditors at MCNAFAS and Grant Thornton, LLP (Grant Thornton)
                 consistently integrate employee interviews within their fraud risk assessment
                 approaches. Both organizations emphasize that interviewing techniques are
                 essential for achieving high-quality fraud interviews. Figure 9 summarizes
                 interview strategies recommended by both organizations.



20 │ DODIG-2014-094
                                                                  DoD Audit Organizations’ Approaches
                                                                for Performing Fraud Risk Assessments


Figure 9. Interviewing Techniques

                     Strategies for Effective Fraud Interviews

  Interviews with Management and Employees
  Audit team members interview both managers and employees to gather
  information about fraud risks, assist with evaluating controls, and obtain
  information about potential fraudulent activities. This strategy provides
  employees opportunities to raise any concerns they might have regarding
  management fraud. When conducting employee and management interviews,
  auditors should use care and good judgment in any discusssions about fraud
  with all personnel and not insinuate that fraud is present or imply that an
  employee or manager is under suspicion of fraud.

  Setting the Tone for Discussion
  An important consideration when preparing for a fraud interview session is to
  set the proper tone for the discussion. Because of the sensitive nature of a
  discussion of fraud and the potential for interview participants to become shy
  or refrain from voicing their opinions, it is a good idea to indicate that the
  interview session is required by AICPA, Statement on Auditing Standard 99,
  “Consideration of Fraud in a Financial Statement Audit,” and that no one is
  suspected of or being accused of fraud when conducting a financial statement audit.

  Asking Follow-Up Questions
  When conducting fraud interview sessions, it is critical to keep an open mind
  and to ask follow-up questions. Many frauds have been allowed to continue too
  long because of the failure to ask the next question. Responses to interview
  questions may be less complete than expected. If so, requests for additional
  clarification or amplification are often necessary. Other times, responses may
  be different from what was expected or about areas other than what was asked.
  In those situations, rather than continue to the next question from a
  pre-determined list, it is important to probe further. The person being
  interviewed may feel uncomfortable providing information directly that
  could lead to uncovering a potential issue. But with sufficient diligence in
  following up on responses, the auditor is more likely to fully identify suspect
  situations or irregularities. This is not possible without listening fully to
  responses and responding with relevant follow-up questions.




                                                                                        DODIG-2014-094│ 21
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments


                 Army and Air Force Exchange Service, Audit Division,
                 Fraud Risk Assessment Approach
                 The Army and Air Force Exchange Service (AAFES), Audit Division, fraud risk
                 assessment approach provides an example of a straightforward and effective method
                 for auditors to use when conducting their work. When conducting their analysis
                 of internal controls over a process or program, team members consider “What Could
                 Go Wrong?” to help identify fraud risks and assign risk rankings of high, moderate,
                 or low. When fraud risks are identified, auditors evaluate their results to
                 determine whether additional audit testing is needed for higher risk areas.


                      When conducting fraud risk assessments, auditors need to think about internal controls
                      and ask themselves:

                      What do I need to measure? And, what is the potential for fraud?

                                                                                         Audit Director, AAFES



                 AAFES Fraud Risk Assessment Overview
                 The AAFES fraud risk assessment approach is summarized in Figure 10. A key
                 concept in the approach is the importance of critical thinking when evaluating
                 controls and identifying control weaknesses. AAFES requires auditors to conduct
                 a fraud risk assessment during audit planning to ensure that auditors remain alert
                 to fraud risks throughout the audit process.




22 │ DODIG-2014-094
                                                                     DoD Audit Organizations’ Approaches
                                                                   for Performing Fraud Risk Assessments


Figure 10. AAFES Fraud Risk Assessment Approach


                      AAFES Methods for Identifying Fraud Risks

   •	 During      audit    planning,   team   members     review    relevant   policies
       and procedures.

   Auditors brainstorm and use the risk assessment template tool to:

   •	 Identify relevant risk areas

        •	 Examine the process or program flow. Team members stimulate discussion
            by considering:

        •	 Where along those processes can control breakdowns occur?

   •	 Identify internal controls

        •	 Auditors discuss – What may happen if there is a breakdown in
            internal controls?

   •	 Identify areas where fraud could occur that are significant to the
       audit objective.

   •	 Design audit procedures to address those risk areas.

   •	 Document analysis and results in the fraud risk assessment template.




AAFES Fraud Risk Assessment Example
When completing the fraud risk assessment template, auditors are required to perform
a detailed analysis of the reviewed area. This example is presented for illustrative
purposes only. Refer to Table 1 to view the assessment in its entirety.

      1.	    Document the fraud risk assessment objective.  A clear and concise
             objective statement should be developed to ensure all team members
             understand the expected outcome of the analysis.

Objective Statement. To ensure adequate reporting of sales and accurate billing.

      2.	    Document the process flow.  During this step, auditors document the
             process they are reviewing.  Team members should consider conducting
             employee and management interviews and/or reviewing the organization’s
             policies and procedures when performing this step.



                                                                                          DODIG-2014-094│ 23
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments


                 Process Flow. Student applies for free/reduced meals.

                       3.	    Analyze Process Control Points/Internal Control Over Process. For each
                              step documented in the process flow, auditors analyze and document the
                              related internal controls.  If multiple controls are developed by an
                              organization, this information should be documented on the fraud risk
                              assessment template.

                 Process Control Points/Internal Controls Over Process. Local installation or
                 community commander approves/denies application based on income guidelines set
                 by the Secretary of Agriculture.

                       4.	    Risk Details/What Could Go Wrong? During this step, team members
                              review each control and brainstorm to identify potential control
                              weaknesses by asking themselves; “What could go wrong?”  It is
                              important for the team to consider previous audit results, prior frauds,
                              and apply their education, training, and experience when performing
                              this analysis.

                 What Could Go Wrong? Student approved for incorrect meal plan and/or student
                 approved even though they were not eligible.

                       5.	    Risk Level. Auditors assign risk rankings based upon the information
                              documented in the risk details section of the template.  The AAFES
                              approach uses risk rankings of high, moderate, or low.

                 Risk Level. Low. The Exchange would still be reimbursed for meals sold regardless
                 of student eligibility.

                       6.	    Audit Procedure. The team members develop audit procedures to
                              address identified risks.  When completing this step, auditors remember
                              that additional procedures may not be necessary for lower risk areas.
                              It is important that auditors should rely on their professional judgment
                              and experience when making this determination.




24 │ DODIG-2014-094
                                                              DoD Audit Organizations’ Approaches
                                                            for Performing Fraud Risk Assessments


Audit Procedure. None required.     Risk is low.   The Exchange is not involved in
the approval process for free/reduced meals and reimbursement is not affected.

      7.	    Fraud Test. The audit team develops fraud tests for moderate or
             high-risk areas. For the AAFES fraud risk assessment approach, audit
             procedures documented in the fraud risk template are used to test
             for fraud.

Fraud Test. Review facility personnel costs and personnel cost transfers to ensure
that the desired goal for personnel costs is 50 percent below sales and that school
meal associates are being effectively used in the summer months when school
is closed.




                                                                                  DODIG-2014-094│ 25
  DoD Audit Organizations’ Approaches
  for Performing Fraud Risk Assessments


  Table 1. AAFES Fraud Risk Assessment Example
  SUBJECT AREA: School Meal Program
  OBJECTIVE: To ensure adequate reporting of sales and accurate billing.

                                   Process Control Points              Risk Details                   Risk Level
           Process Flow              (Internal Controls                                                                             Audit Procedure            Fraud Test
                                                                 (What Could Go Wrong?)       (High, Moderate, or Low)
                                       Over Process)
   Student applies for free/    Local installation or           Student approved for         Low – The Exchange would         None required. Risk is low.    None required.
   reduced meals.               community commander             incorrect meal plan          still be reimbursed for meals    The Exchange is not involved
                                approves/denies                 and/or student approved      sold regardless of student       in the approval process for
                                application based on            even though they were        eligibility.                     free/reduced meals and
                                income guidelines set by the    not eligible.                                                 reimbursement would not
                                Secretary of Agriculture.                                                                     be affected.

   Student purchases meal       Coupons issued in sets of       Students receive more than   Low – All schools are            None required. Risk is low.    None required.
   using cash, coupons, or      ten to a book. Books are        the monthly alloted number   currently using the Horizon
   Horizon FastLane Point       serial numbered and number      of coupons and hands them    System. On the occassion,
   of Sales School              controlled by each type of      out to friends.              coupons are necessary, the
   prepayment system (Horizon   coupon. Coupons are only                                     students can only be issued
   System).                     issued at one retail location                                one month of coupons
                                which is designated by the                                   at a time (2 Books). Each
                                Exchange General Manager.                                    book has a serial number
                                This is usually the Cashier's                                (and the coupons have the
                                Cage at the main store.                                      same serial number) and is
                                                                                             number controlled. Coupons
                                                                                             are only sold at one location.
                                Account in the Horizon          Student allows others to     Low – Accounts are set up        None required. Risk is low.    None required.
                                System is established           use their Horizon FastLane   by the parents. A user name      Reimbursement for meals
                                annually by the parent at the   account to charge meals.     and password are created         served would not
                                Cashier's Cage in the main                                   for logging into the system.     be affected.
                                store. Where applicable, the                                 Each students is given a PIN
                                account is set up to reflect                                 that is used when purchasing
                                free or reduced meals and                                    meals. The US Department
                                is charged accordingly in the                                of Agriculture (USDA) allows
                                Horizon System.                                              three charges to a student's
                                                                                             account. To limit excessive
                                                                                             charging, a "reminder note"
                                                                                             will be sent home when
                                                                                             the students account drops
                                                                                             below the equivalent of
                                                                                             three meals.




26 │DODIG-2014-094
                                                                                                                                   DoD Audit Organizations’ Approaches
                                                                                                                                 for Performing Fraud Risk Assessments


                                Process Control Points               Risk Details                       Risk Level
        Process Flow              (Internal Controls                                                                                Audit Procedure             Fraud Test
                                                               (What Could Go Wrong?)           (High, Moderate, or Low)
                                    Over Process)
                             Local installation or            Account set up in Horizon        Low – The Exchange             None required. Risk is low.     None required.
                             community commander              System is for the incorrect      would still be reimbursed      The Exchange is not involved
                             approves/denies                  meal plan.                       for meals sold regardless of   in the approval process for
                             application based on                                              the meal category.             free/reduced meals and
                             income guidelines set by the                                                                     reimbursement would not
                             Secretary of Agriculture.                                                                        be affected.

Daily/Monthly sales data     Daily/Monthly sales              Data entry errors. Meals         Moderate to High –             Determine the process for       Same as Audit
sent to Self Defense Force   (breakfast, lunch, and a’        misclassified resulting in the   Misclassification of           capturing and reporting sales   Procedure.
for consolidation and        la carte) are recorded in        incorrect reimbursement          meals could result in the      to Exchange Headquarters.
completion of Office of      a spreadsheet by each            rate being used.                 Exchange being over/under
Management and Budget        cafeteria. The information                                        compensated for actual
Form Number 0564-0284        from each cafeteria is sent to                                    meals served.
(USDA Food and Nutrition     the Staff Dietician at the end
Service, School Lunch/       of the month.
Breakfast/Snack Claim for
Reimbursement).
                             Staff Dietician then             Data entry errors.               Moderate to High –             Determine the process           Same as Audit
                             consolidates the information     Incorrect formulas. Meals        Misclassification of           for consolidating and           Procedure.
                             from each cafeteria into         misclassified resulting in the   meals could result in the      reporting the number
                             two spreadsheets (one for        incorrect reimbursement          Exchange being over/under      of meals served to FA.
                             Europe and one for Pacific)      rate being used.                 compensated for actual         Review sales data submitted
                             showing totals by exchange                                        meals served.                  to the consolidated
                             and for the Region.                                                                              spreadsheet created by
                                                                                                                              the Staff Dietician.
                             Staff Dietician then             Data entry errors.               Moderate to High – Entry       Compare data on                 Same as Audit
                             completes the USDA form          Incorrect formulas. Meals        errors, incorrect formulas,    consolidated spreadsheet        Procedure.
                             and sends the information to     misclassified resulting in the   and meal misclassification     to information included on
                             Family Assistance (FA).          incorrect reimbursement          could result in the            USDA form.
                                                              rate being used.                 Exchange being over/under
                                                                                               compensated for actual
                                                                                               meals served. Incorrect
                                                                                               billing could result in
                                                                                               decreased reimbursements
                                                                                               from USDA in the future.




                                                                                                                                                              DODIG-2014-094 │ 27
  DoD Audit Organizations’ Approaches
  for Performing Fraud Risk Assessments


                                     Process Control Points            Risk Details                     Risk Level
           Process Flow                (Internal Controls                                                                            Audit Procedure             Fraud Test
                                                                 (What Could Go Wrong?)         (High, Moderate, or Low)
                                         Over Process)
   USDA billed for pattern        FA completes USDA invoice     Incorrect billing amount.      Low – FA creates a monthly      Compare data sent to FA         Same as Audit
   meals served during a          based on information                                         invoice and bills USDA based    to USDA invoice completed       Procedure.
   given month.                   received from the                                            on the totals calculated by     by FA and submitted to the
                                  Staff Dietician.                                             the Staff Dietician.            USDA for reimbursement.
                                  USDA reimbursements,          Date entry errors.             Low to Moderate –               Compare USDA monthly            Same as Audit
                                  both cash and commodity,      Incorrect formulas.            USDA reimbursements             invoices to amounts included    Procedure.
                                  are entered into the                                         are calculated by the           in FA quarterly spreadsheet.
                                  FA quarterly spreadsheet.                                    Staff Dietician; however,
                                                                                               if FA enters the wrong
                                                                                               reimbursement amount into
                                                                                               their quarterly spreadsheet,
                                                                                               this will have an affect on
                                                                                               the billing to DoDEA.

   FA completes quarterly         Program sales and expenses    Date entry errors.             Low to Moderate –               Compare information             Same as Audit
   spreadsheet using              are taken from various        Incorrect formulas.            One data entry error/           obtained from various           Procedure.
   Report Management              sources and included on                                      incorrect formula could have    sources to the data
   and Distribution System,       quarterly spreadsheet.                                       a snowball effect impacting     entered into the
   Hyperion, Strawman Report,     Reimbursements from USDA                                     the total reimbursement of      quarterly spreadsheet.
   and Integrated Ledger          (both cash and commodity)                                    program operations.
   Accounting System.             are also included. The
                                  remaining balance is the
                                  program gain/shortfall.
                                                                Personnel costs inflated       High – School Meal              Review facility personnel       Same as Audit
                                                                and/or personnel costs not     Associates and the related      costs and personnel cost        Procedure.
                                                                transferred to other food      personnel costs are not         transfers to ensure the
                                                                facilities during the summer   tracked during the summer       desired goal for personnel
                                                                months.                        months to ensure these          costs is 50% below sales and
                                                                                               associates are being utilized   school meal associates are
                                                                                               when schools are closed.        being effectively utilized in
                                                                                                                               the summer months when
                                                                                                                               school is closed.

   DoD Education Activity         FA completes quarterly        Incorrect billing amount.      Low – DoDEA invoice is          Compare quarterly results       Same as Audit
   (DoDEA) billed quarterly for   invoice to DoDEA based                                       created directly from FA's      to invoices submitted to        Procedure.
   program shortfalls.            on program shortfalls after                                  quarterly spreadsheet. The      DoDEA.
                                  USDA reimbursement.                                          risk is in the completion of
                                                                                               the spreadsheet and not in
                                                                                               the creation of the invoice.




28 │DODIG-2014-094
                                                                     DoD Audit Organizations’ Approaches
                                                                   for Performing Fraud Risk Assessments


Army Audit Agency Fraud Risk Assessment Approach
The Army Audit Agency’s (AAA) fraud risk assessment methodology emphasizes
the auditor’s assessment of the fraud risk environment and the importance of
auditor brainstorming in developing audit steps to identify fraud indicators and
schemes.  Figure 11 outlines AAA’s fraud risk assessment methodology.

Figure 11. Key Steps for the AAA Fraud Risk Assessment Approach


                      AAA Key Steps of Fraud Risk Assessments

   1.	   Determining Relevant Fraud Risks within the Context of Audit Objectives

   2.	   Assessing the Fraud Risk Environment

   3.	   Identifying Potential Fraud Schemes and Prioritize Them Based on Risk

   4.	   Mapping Existing Controls to Potential Fraud Schemes and Test Controls

   5.	   Testing for Fraud




Determining the Relevant Fraud Risks Within the Context of
Audit Objectives
To identify relevant fraud risks within the context of the audit objectives, the audit
team starts the fraud risk assessment process by asking themselves whether fraud is
likely to occur within the operation or program being audited. Examples of topics
considered during the team brainstorming meeting include the potential for the
theft of cash or other assets, bribery and kickbacks, and personal financial gain.
Auditors also apply their overall knowledge of a program or operation, previous
audit results, and knowledge of current fraud trends to help identify fraud risks.

The AAA method emphasizes that not all DoD programs or operations are high-risk
areas for fraud. For example, the potential for auditors to encounter fraud when
conducting a property accountability audit is generally much higher compared to
an audit of unit training. However, auditing standards and AAA procedures require
written documentation of the auditors’ fraud risk assessment analysis in the work
paper files for both high-and low-risk areas.




                                                                                         DODIG-2014-094│ 29
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments


                 Assessing the Fraud Risk Environment
                 When assessing the fraud risk environment, it is important for auditors to consider
                 fraud risk indicators. The AAA approach assigns qualitative scores ranging from
                 high, medium, or low and requires auditors to consider the likelihood and impact of
                 each risk indicator. Figure 12 outlines heightened fraud risk factors presented in the
                 2011 Revision of GAGAS. AAA uses the Government Accountability Office examples
                 in its fraud risk analysis.

                 Figure 12. Example Fraud Risk Factors


                                        GAGAS Indicators of Heightened Fraud Risk
                      1.	   The audited entity’s operations provide opportunities to engage in fraud.

                      2.	   The entity’s financial stability, viability, or budget is threatened by
                            economic, programmatic, or entity operating conditions.

                      3.	   Management’s monitoring of compliance with policies, laws, and regulations
                            is inadequate.

                      4.	   The organizational structure is unstable or unnecessarily complex.

                      5.	   Management’s communication and/or support for ethical standards are lacking.

                      6.	   Management is willing to accept unusually high levels of risk in making
                            significant decisions.

                      7.	   The entity has a history of impropriety; such as previous issues with fraud,
                            waste, abuse, or questionable practices; or past audits or investigations with
                            findings of questionable criminal activity.

                      8.	   Operating policies and procedures are not developed or are outdated.

                      9.	   Key documentation cannot be provided or does not exist.

                      10.	 The entity’s asset accountability or safeguarding procedures are inadequate.

                      11.	 The entity has a history of improper payments.

                      12.	 Management provides false or misleading information.

                      13.	 There is a pattern of large procurements in a budget line with remaining funds
                            at year end, in order to “use up all of the funds available.”

                      14.	 There are unusual patterns or trends in contracting, procurement, acquisition,
                            and other activities of the entity or program under audit.




30 │ DODIG-2014-094
                                                                           DoD Audit Organizations’ Approaches
                                                                         for Performing Fraud Risk Assessments


Identifying Potential Fraud Schemes and Prioritizing Based
on Risk
If an auditor concludes that there is a high fraud risk environment, they are required to:

               •	 Identify potential fraud schemes. When identifying fraud schemes,
                   it is important that auditors brainstorm and remain open to all team
                   member suggestions. Researching current and past fraud trends specific
                   to a program or activity is also encouraged.

               •	 Prioritize fraud risk based on likelihood and impact. Likelihood refers
                   to the possibility of the event occurring, while impact pertains to the effect
                   on the organization. When determining impact, it is important to
                   consider both the potential for monetary losses and impact on the
                   organization’s reputation if the event occurred.

Mapping Existing Controls to Potential Fraud Schemes
Auditors identify controls to prevent fraud for each likely fraud scheme and then
perform tests of controls. When performing this step it is important to:

               •	 Apply auditor training and skills.

               •	 Review key controls in the organization’s internal control checklists.

               •	 Review applicable regulations, standard operating procedures, and system
                   user manuals to understand business operations and control processes.

               •	 If the tests of controls disclose weaknesses, the auditor expands audit
                   testing to determine impact or effect on the audit objective.

Additionally, other fraud risk assessment approaches recommend interviewing
employees and managers responsible for the program or activity.

An illustrative example of AAA’s identification of fraud schemes, fraud indicators,
and mapping of internal controls to fraud schemes is provided in Figure 13.
This example pertains to a review of the Defense Travel System (DTS) and is presented
for illustrative purposes only.15




	15	
       Army Audit Agency, “Fraud Risk Training,” not dated.




                                                                                                DODIG-2014-094│ 31
DoD Audit Organizations’ Approaches
for Performing Fraud Risk Assessments


                 Figure 13. AAA Fraud Risk Assessment Matrix
                                                                               Monetary
                                                                 Probability     Loss
                                                                                                Internal Controls
                                                                 H   M    L    H   M   L
                      Fraud Schemes
                                                                                           Separation of Duties,
                      Altering bank account to divert travel         X         X           Limit Permission Level 5
                      payments to specific bank accounts.                                  administrative power.
                      Altering routing lists to reroute travel                             Limit Permission Level 5
                                                                 X                 X
                      vouchers to inappropriate approvers.                                 administrative power.
                      Altering e-mail information to
                      screen personnel from DTS                                            Limit Permission Level 5
                                                                 X                 X
                      communications with DTS profile                                      administrative power.
                      owner and management.
                      Amending previously settled vouchers                                 Limit Permission Level
                      to increase authorized lodging                                       5 administrative power.
                                                                     X         X
                      per diem rates, in addition to adding                                Alter guidance to require
                      bogus expenses with no documentation.                                supporting documentation.
                      Creating and approving authorizations                                Limit Permission Level
                      and vouchers for temporary duty                                      5 administrative power.
                                                                     X             X
                      travel after the temporary duty travel                               Alter guidance to require
                      is complete.                                                         supporting documentation.
                      Fraud Indicators
                      Multiple stamps by the same individual
                      on a single voucher.
                      Multiple DTS users with the same bank
                      account government credit
                      card information.
                      High-dollar value travel vouchers with
                      no documentation.
                      Amendments to travel vouchers that
                      are increased by more than 25% of the
                      original cost of the voucher.
                      Amendments to travel vouchers that
                      are made more than 60 days after
                      original approval.
                      Amendments made to prior year
                      travel documents.
                      Multiple amendments to travel
                      vouchers that contain the same
                      traveler or approver.
                      Vouchers filed more than 15 days after
                      the end of the trip.
                      Manual per diem rate changes in DTS.
                      H - Indicates High
                      M - Indicates Medium
                      L - Indicates Low




32 │ DODIG-2014-094
                                                                      DoD Audit Organizations’ Approaches
                                                                    for Performing Fraud Risk Assessments


Testing for Fraud
Procedures to test for fraud will vary for each engagement. When developing tests
for fraud, it is important that auditors keep an open mind and think like a fraudster
when performing their work. With fraud, it is important to remember that anything
is possible. It is also an effective strategy to consult with forensic auditors and
subject matter experts to assist with designing and executing fraud testing
procedures. Figure 14 presents examples of audit tests to detect fraud.

Figure 14. Fraud Tests


                         Example Audit Tests to Detect Fraud

   •	 Talk to lower level operating personnel about observing any unethical or suspect
       activities occurring within the past 12-18 months

   •	 Observe operations and visit contractors’ place of business

   •	 Perform trend analysis

   •	 Identify unusual data patterns

   •	 Conduct ratio analysis

   •	 Compare prices

   •	 Evaluate justifications and approvals for sole-source acquisitions

   •	 Evaluate compliance with sole-source selection criteria

   •	 Check for document tampering or errors

   •	 Identify and analyze duplicate transactions

   •	 Compare invoiced quantities to purchased quantities

   •	 Identify transactions occurring out of logical sequence

   •	 Identify transactions furthest from the mean

   •	 Analyze e-mails




                                                                                          DODIG-2014-094│ 33
  DoD Audit Organizations’ Approaches
  for Performing Fraud Risk Assessments


  Summary of DoD Audit Organizations’ Approaches for Conducting Fraud Risk Assessments
  Table 2 summarizes fraud risk assessment approaches developed by MCNAFAS, AAFES, and AAA. The table is intended to illustrate the similarities
  and differences between the various approaches for assessing fraud risk. DoD audit organizations should consider implementing one or more of
  these methods when performing their work. Each of the suggested procedures can be modified to suit an organization’s mission, size, or audit
  specific objectives. Similarly, audit organizations are encouraged to develop other approaches for performing fraud risk assessments using
  information presented within this document as a resource.

  Table 2. Summary of DoD Audit Organizations’ Approaches for Conducting Fraud Risk Assessments

                           Team
                      Brainstorming      Standardized     Fraud Risk
        Audit                                                            Assign Risk      Assess Impact    Analyze Controls    Develop      Document
                     to Identify Fraud     Interview     Assessment
     Organization                                                         Rankings       and Probability   for Weaknesses     Fraud Tests    Results
                      Indicators and     Questionnaire    Template
                         Schemes
                                                                       Strong, Medium,
      MCNAFAS               X                 X                                                                   X               X            X
                                                                            Weak
                                                                       High, Moderate,
        AFFES               X                                 X                                                   X               X            X
                                                                             Low
                                                                       High, Medium,     High, Medium,
         AAA                X                                 X                                                   X               X            X
                                                                            Low               Low




34 │DODIG-2014-094
                                                                                                         Auditor Fraud Risk Assessment
                                                                                                                 Special Considerations


Auditor Fraud Risk Assessment
Special Considerations
Special Fraud Risk Considerations When Auditing
Health Care Organizations
Healthcare Providers
Financial audit risks relating to healthcare provider organizations16 typically revolve
around recognition of accounts receivables and revenue. In relation to accounts
receivable, audit risks include overstatement of receivables due to inadequate
assessment/reassessment of the methodology for establishing allowance for
uncollectable accounts. In addition to an overall financial statement audit risk,
revenue recognition may also be considered as an area for potential fraud as pressure
to meet established revenue goals may lead to fraudulent reporting and recording
of claims to healthcare payers. Typical schemes of provider revenue fraud include
billing for services not provided to patients, falsification of claims (billing codes,
dates, patient), incorrect collection of co-pays or deductibles, and improper use
of prescription drugs. The magnitude of these risks (both overall audit risks and
fraud risks) is assessed during the financial statement risk assessment process,
including the brainstorming session during the planning phase of the audit.


Healthcare Payer
Financial statement audit risks related to healthcare payer organizations are
often focused on estimates related to benefits due and payable. This included risks
surrounding the methodology used to develop the estimates such as significant
judgments and assumptions. In relation to fraud for healthcare payer organizations,
the majority of the risks involve fraud committed against the company/agency
from third parties (that is, applicants, beneficiaries, and healthcare providers) for
fraudulent claims or abuse. Healthcare payer organizations must have robust quality
assurance mechanisms to guard against fraudulent claims that may involve not
only the claimant or healthcare provider, but also collusion between the claimant and
the healthcare provider. The auditor should be sure to assess the impact during
the overall risk assessment and fraud brainstorming sessions.




	16	
       Grant Thornton, “DoD Office of Inspector General, Conducting Fraud Risk Assessments Within DoD,
       Project No. D2012-DIP0AI-00227.000, Grant Thornton Survey Responses,” April 2013.




                                                                                                                       DODIG-2014-094│ 35
Auditor Fraud Risk Assessment
Special Considerations


                 Special Fraud Risk Considerations When Auditing
                 Government Contracts
                 Inadequate Government contract monitoring may lead to the misuse, abuse, and
                 waste of Federal funds. During a performance audit, the auditor should determine
                 the adequacy of the organizations’ procedures to perform effective oversight,
                 evaluate internal control effectiveness, and training in contract administration because
                 these controls are fundamental in ensuring the proper and effective use of Federal
                 funds to achieve program goals. Auditors should be attuned to the different types
                 of fraud schemes that can occur during each stage of the procurement process.




36 │ DODIG-2014-094
                                                                             Approaches for Conducting
                                                                    Entity-Wide Fraud Risk Assessments


Approaches for Conducting Entity-Wide
Fraud Risk Assessments
There are numerous methods for conducting entity-wide fraud risk assessments.
Approaches developed by DoD organizations and standard-setting bodies such
as the AICPA, Association of Certified Fraud Examiners (ACFE), IIA, Australian
National Audit Office, and public and private sector entities are presented in this
section. While we are not recommending one specific approach, we are providing
a range of options for DoD entities to consider when assessing fraud risk. Report
users are also encouraged to review Appendix K, Suggested Resources, for
additional information about these methods and related resources.


Fraud Risk Assessment Benefits for DoD Organizations
Table 3 provides information about the principles, benefits, and opportunities of
conducting entity-wide fraud risk assessments. DoD organizations are encouraged to
use the information as a tool to educate employees and agency managers regarding
the benefits and opportunities of establishing fraud risk assessment programs.
Most importantly, entity-wide fraud risk assessments provide a cost-effective way
for organizations to mitigate fraud risks, identify control weaknesses, and educate
employees about fraud.


  For maximum benefit, entity-wide fraud risk assessments should not be considered
  as a check the box exercise.
                                                    Director, KPMG Forensic Practice




                                                                                       DODIG-2014-094│ 37
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Table 3. Entity-Wide Fraud Risk Assessment Principles, Benefits, and Opportunities
                                 Principles                              Benefits                         Opportunities
                      Responsibility for the fraud risk   •	 Organizational commitment              •	 Collaborate on key
                      assessment process must be             and cooperation                           risk decisions
                      clearly established                 •	 Ownership of the process and           •	 Drive consistency
                                                             output, resulting in greater              in approaches to
                                                             quality of data                           assessing fraud risks
                                                          •	 Accountability for taking risks

                      Fraud risk assessments              •	 Defined scope for fraud                •	 Identification and
                      begin and end with clearly             risk assessment                           evaluation of fraud
                      defined objectives                  •	 Accountability for the                    risks is available for
                                                             achievement of objectives                 the organization
                                                          •	 Fraud risk discussion targeted in
                                                             the context of specific objectives,
                                                             risk appetite, and tolerance

                      Fraud risk rating scales are        •	 Common basis for assessment            •	 Measure and
                      defined in relation to the             of fraud risks                            monitor the
                      organization’s risk tolerance       •	 Assessment of the impact and              organization’s ability
                                                             probability of fraud risks in             to achieve objectives
                                                             relation to stated objectives

                      The organization forms a            •	 Prioritization of the organization’s   •	 Deliver integrated
                      portfolio view of fraud risks to       most significant fraud risks              responses to multiple
                      support decision making             •	 Ability to view and manage                fraud risks
                                                             fraud risks that span multiple         •	 Identify immediate
                                                             functional areas                          and longer term
                                                          •	 Clarity on the interrelationships         improvement
                                                             between fraud risks and risk              opportunities
                                                             responses that may be required         •	 Prioritize deployment
                                                          •	 Fraud risks are not merely                of capital and
                                                             avoided but understood, and risk          measurement of
                                                             informed decisions are made to            relative performance
                                                             seize opportunities                       across various
                                                                                                       objectives or entities

                      Leading indicators are used         •	 Forward-looking analysis in            •	 Reduce instances of
                      to provide insight into                relation to the overall portfolio         fraud and associated
                      potential risks                        of fraud risks                            losses
                                                          •	 Analysis enables the detection         •	 Use relevant fraud risk
                                                             of relevant changes in the                information to guide
                                                             environment that could impact             decision making
                                                             the achievement of objectives and
                                                             prompt action as necessary

                 Adapted from Pricewaterhouse Coopers, “How principles-based risk assessment enables
                 organizations to take the right risks,” 2008.




38 │ DODIG-2014-094
                                                                                   Approaches for Conducting
                                                                          Entity-Wide Fraud Risk Assessments


DoD Investigative Organizations’ Fraud Risk
Assessment Approaches
DoD    investigative   organizations    initiate    entity-wide   fraud    risk   assessments.
Other stakeholders participating in the assessments include auditors and security
personnel. DoD investigative organizations’ approaches to identify and evaluate
fraud risks include:

         •	 Brainstorming      sessions    to      identify   fraud   schemes     that   could
           potentially threaten DoD programs. Risk rankings are assigned by
           some organizations. Example rankings range from weighted risk
           scores based upon specific criteria to rankings of high, medium, or low.

         •	 Analysis of internal and external fraud trends.

         •	 Reviews of ongoing and prior fraud cases.

         •	 Input from field office locations.

         •	 Study of reports prepared by the ACFE to pinpoint emerging fraud trends.

         •	 Installation-level fraud risk reviews designed to target risks within
           specific geographic areas.

         •	 Evaluation of expenditures to identify higher risk programs.

         •	 Analysis of programs with increased levels of congressional interest.

Once the assessments are complete, some organizations report their results to
internal stakeholders and senior managers. This approach ensures communication
of fraud trends and mission priorities throughout the organization. Additionally,
DoD Investigative organizations are proactive with increasing employee’s fraud
awareness through fraud briefings and on-line training classes.

Figure 15 summarizes benefits of DoD investigative agencies’ approaches for
conducting fraud risk assessments. DoD entities should consider using these
methods when assessing fraud risk within programs or operations. The suggested
approaches can also be modified to align with an organization’s mission, size, or
known fraud vulnerabilities.




                                                                                             DODIG-2014-094│ 39
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Figure 15. Advantages of DoD Investigative Organizations’ Fraud Risk Assessments


                                               Benefits of DoD Investigative Organizations’
                                                         Fraud Risk Assessments
                          •	 Identify high-risk areas and trends.

                          •	 Results are used to develop fraud awareness training for employees.

                          •	 Communicate to senior management high-risk areas and vulnerabilities.

                          •	 Prioritize and help to plan the use of internal resources.

                          •	 Communicated to employees – “This is why we are doing what we are doing.”

                          •	 Focus fraud efforts on areas of high Congressional interest.

                          •	 For decentralized organizations, encourage communication and participation from
                              employees working at contiguous and overseas locations.




                 Navy Exchange Service Command Fraud Risk
                 Assessment Approach
                 Navy Exchange Service Command (NEXCOM), Internal Audit representatives
                 facilitate CSAs. A CSA is a process through which internal control effectiveness
                 is examined and assessed to provide reasonable assurance that all business
                 objectives are met. Previous CSA review areas include cash and credit card
                 operations, purchase cards, and inventory controls.  At the start of each assessment,
                 Internal Audit conducts fraud awareness training. The training emphasizes a
                 range of topics that include fraud indicators and key components of internal
                 controls.17 Representatives from the review areas are also provided information
                 about the CSA, objectives, and approach.




                 	 17	
                         The Committee of Sponsoring Organizations defines internal control key components as the control environment,
                         risk assessment, control activities, information and communication, and monitoring.




40 │ DODIG-2014-094
                                                                             Approaches for Conducting
                                                                    Entity-Wide Fraud Risk Assessments


To ensure a productive CSA, facilitators emphasize the information in Figure 16 to
participants prior to discussing internal controls and identifying potential control gaps.

Figure 16. Ground Rules


                                  CSA Ground Rules

   •	 Open Communication

   •	 Involvement and Input from Everyone

   •	 No Right or Wrong Answers

   •	 Respect for Everyone’s Opinions and Ideas

   •	 Open to all Ideas – Nothing is Considered Too Outrageous

   •	 No Interrupting



When the assessments are complete, the results are reported to management of
the reviewed area. This information provides opportunities to address control gaps
prior to an audit and helps to mitigate the risk of potential frauds. However, it is
important to remember that CSAs cannot be expected to identify all existing control
gaps and/or prevent fraud from occurring.


CSA Approach for Assessing Fraud Risks
Figure 17 summarizes the CSA approach for assessing fraud risks. It is important
that DoD organizations complete the assessments in the order described to
maximize results.




                                                                                         DODIG-2014-094│ 41
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Figure 17. CSA Fraud Risk Overview


                                          CSA Approach for Assessing Fraud Risks

                      1.	   Identify management’s objectives

                      2.	   Brainstorm risks

                      3.	   Map process and controls in place to reduce risks and identify gaps
                            in controls

                      4.	   Assess risk

                      5.	   Formulate risk rankings – Significance and Likelihood of Occurrence

                      6.	   Identify potential solutions to address the most significant gaps




                 Risk Rankings
                 When assessing significance and likelihood of fraud risks, rankings of low,
                 medium, and high are used by CSA participants. A low risk is considered unlikely
                 to occur and would not materially impact the attainment of objectives. Medium risks
                 are considered somewhat likely to happen and could impact the attainment of
                 objectives. High risks are categorized as likely to occur and would significantly
                 impact the attainment of objectives.  For example, if an identified risk is likely to occur
                 and could significantly impact the attainment of an objective, then the risk is
                 considered high; therefore, controls would need to be put in place to reduce the risk.




42 │ DODIG-2014-094
                                                                                      Approaches for Conducting
                                                                             Entity-Wide Fraud Risk Assessments


Example CSA Risk Ranking
Table 4 depicts results of a CSA review of vending operations at a DoD retail operation.

Table 4. CSA Risk Ranking Template

             Risks:                         Controls:                             Gaps:
 1.	 Route drivers pilfer from   Keys                                Gap: Route driver money
      sales receipts             Supervisor retrieves keys from      bags containing vending sales
 2.	 Susceptibility of dollar    a lock box located at the Navy      receipts at the end of the day
      bill changers              Lodge’s administration for the      are not locked.
                                 vending house exterior door,
 3.	 Pilfering vending
      merchandise                office doors and the managers
                                                                     Gap: Money bag numbers
                                 lock box. The lock box contains     are not tied to a particular
 4.	 Misuse of                   master keys for routes to
      government vehicles                                            vending machine.
                                 include vending machines,
 5.	 Time and                    building doors and duplicate
      Attendance fraud           keys. Route drivers will obtain
 6.	 Inadequate key control      keys from the red lock box
                                 located in the clerk’s office for
 7.	 Inadequate inventory of                                         Gap: Lack of structured dollar
      vending machines           their respective routes.
                                                                     bill changer audits.
 8.	 Inaccurate vending          Drivers
      warehouse inventory        Drivers pull vending inventory
                                                                     Gap: Documentation of
 9.	 Inaccurate vending          merchandise for the day. The        unannounced change fund
      machine inventory          merchandise is verified by a        counts is not maintained.
 10.	 Inaccurate vending         vending clerk, supervisor or
      truck inventory            manager. Route order sheet is
 11.	 Inadequate staff to        signed by driver and verifier.      Gap: Consider outside
      support vending            Once verified, driver’s load        training for upper level
      operations                 their inventory items on            vending management.
                                 their vending route truck to
 12.	 Inadequate control         replenish truck inventory and
      over spoilage
                                 fill machines.
 13.	 Truck change funds
      not properly tracked
      and controlled




                                                                                                      DODIG-2014-094│ 43
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Guidance for Audit Organizations Facilitating CSAs
                 Audit organizations performing work in accordance
                 with    GAGAS     should      ensure   compliance     with  Audit
                 GAGAS     2011    independence    requirements         organizations
                                                                     performing work in
                 pertaining to the conduct of nonaudit services
                                                                   accordance with GAGAS
                 prior to facilitating CSAs. Auditors should     should ensure compliance
                 review    the    GAGAS    nonaudit    service        with GAGAS 2011
                 requirements to determine whether providing    independence     requirements
                                                                  pertaining to the conduct
                 the service creates a threat to independence,       of nonaudit services
                 either by itself or in the aggregate with            prior to facilitating
                 other nonaudit services provided, with respect              CSAs.
                 to     GAGAS    audits   it   performs.    Auditors   should
                 document  the  results  of  their  assessments  in  the  work  paper  files.


                 Naval Sea Systems Command Fraud
                 Mitigation Framework
                 The Naval Sea Systems Command (NAVSEA) entity-wide approach to prevent and
                 detect acquisition fraud consists of policy, training, and execution processes. Using
                 an integrated approach, risk mitigation activities are included in policies, oversight
                 and execution processes, and training efforts across the entire acquisition
                 continuum. Figure 18 illustrates NAVSEA’s fraud mitigation framework, which is
                 also referred to as “Crossfire on Risk.”




44 │ DODIG-2014-094
                                                                                                            Approaches for Conducting
                                                                                                   Entity-Wide Fraud Risk Assessments


Figure 18. NAVSEA Risk Mitigation Framework

                                           Crossﬁre on Risk

                                                           Policy:
                                                      Commitment to
                                                    Reduce Fraud Risk
                                                   Across the Enterprise
                                                      Command Task
                                                     to Instill Systems
                                                  of Accountability within
                                 Sy AVS SE Inst     NAVSEA Processes


                                                                                                        Oversight:




                                                                                 s RA ns
                                   mp E A, ruc
                                   Co sium IG G, C ns
                                    N AV




                                                                               on -F io
                                     o A O OI tio




                                                                                     M
                                                                            cti C uct
                                     mm – Ins -F
                                                                                                        NAVSEA OIG
                                       N




                                                                         tru IG, str
         Training:
                                         an Fra truc RAM




                                                                      Ins , O G In
                                                                                                      Corrective Action
                                           de ud tio
                                             r’s Fo ns




                                                                        EA OI
        NAVSEA OIG                                                                                      Oversight of




                                                                     VS EA
    Risky Behavior (Ethics)                                                                       Investigation/Inspection




                                                                   NA VS
                                                   cu




                                                                     NA
       Training Program                                                                                   Findings
                                                      s



     NAVSEA Contracts –                                                                               Partnership with
  Revised Contracting Policies                            Successful                                     Navy Law
                                                             Risk                                Enforcement & Acquisition
   NAVSEA, OIG, C-FRAM                                    Mitigation
       Fraud Awareness                                                                              Integrity Office (AIO)
            Training                                                 As ma ne a Self ion E ina   NAVSEA, OIG, C-FRAM
                                                                      Co Ho nua ifica Ex
                                         tor eh ers r n




                                                                       se nd nd As ve tio
                                      ica y B ad tte io




                                                                        m tli l

                                                                                                    Acquisition Fraud –
                                    nd sk le Le vis




                                                                         ss Ev In se ry ns
    Revised COR Training                                                   ibl a ve ss 3
                                 d i Ri ive nt er




                                                                                                     Proactive Review
                                                 ior p




                                                                              e U lua st m Y
                               an on “ cut tme /Sup




                                                                               An cert aud
                                            s” av hi




       Command Ethics
                                                    s




                                                                                 Re Fr




                                                                                 nit tion iga ent rs.  (Data Mining),
                                ng ex oi ns




                                                                                    s O & tio s
                             ini ite pp tio




           Programs                                                                    ve Re ns             Fraud
                          tra -s A ina
                                        e n




                                                                                         rsi vie
                             On O Nom




                                                                                                             Risk
                                                                                            t am




                                                                                            gh w
                                                                                              t
                                      R
                                      R




                                                                                                        Assessments
                                   CO
                                  C




                                                      Execution:
                                                   Contracting Officers
                                       Contracting Officer Representatives (COR)
                                       Properly Executed Contracting Mechanisms
                                  Contract Quality Control and Surveillance Mechanisms
                                   Program Managers & Business Finance Managers
                                                      Legal Reviews
                                                   Comptroller Reviews
                                           Deputy of Small Business Reviews
                                                 Pre-Award Peer Reviews
                                               Inspection and Acceptance


              Primary Responsibilities:
                 NAVSEA/Program Executive Oﬃces (PEO) Leadership
                 NAVSEA OIG
                 NAVSEA OIG, Contract Fraud Risk Assessment and Mitigation Branch (C-FRAM)
                 NAVSEA Contracts
                 PEO/Requirements Holders, Command Staﬀ Codes
                 NAVSEA Employees

                      Individual Personal Responsibility at All Organizarional Levels
          Risk Mitigation must be included in Policies, Oversight and Execution Processes,
                     as well as Training Across the Entire Acquisition Continuum




                                                                                                                             DODIG-2014-094│ 45
  Approaches for Conducting
  Entity-Wide Fraud Risk Assessments


  NAVSEA identifies elements of successful acquisition anti-fraud programs, based upon guidance developed by the ACFE. The model also
  emphasizes the importance of fraud risk assessments as a tool to determine if controls are sufficient to mitigate fraud, waste, and abuse
  within the organization. The model is illustrated in Figure 19.

  Figure 19. Elements of a Successful Acquisition Anti-Fraud Program

                                                       Promote honest and ethical conduct; Report internal violations of the code promptly                       Leadership
                                                       Provide full, fair, accurate, timely and understandable disclosure in reports and documents                  Legal
                                Code of Ethics         Comply with applicable laws, rules, and regulations                                                           OIG
                                                       Be accountable for adherence to the code and the sanctions to be imposed                                   C-FRAM


                                                       Specific to NAVSEA and its operations; Guide employees through complex issues                             Leadership
                                    Fraud              Establish procedures to govern the escalation of fraud allegations                                        Contracting
                                 Prevention            Service Contract Court; Tripwires; Contract Deep Dives, Procurement Surveillance Program                   C-FRAM
                                   Policies            Provide a channel (hotline) for employees or third parties to report fraud; Provide support and              OIG
                                                        protection for whistleblowers                                                                               Legal


                                                       Educate employees regarding the DON/NAVSEA’s code of ethics                                               Contracting
                               Communication           Understand and communicate the protocols for reporting suspicious activity                                  Legal
                                 & Training            Communicate the disciplinary actions that may be taken in the event of fraud                               C-FRAM
                                                       Raise awareness of fraud schemes and scenarios that are specific to command                                  OIG


                                                     Identify common fraud schemes that could occur & fraud schemes that are NAVSEA specific
                                    Fraud            Create a road map for future areas to analyze with analytics and determine if controls are sufficient        C-FRAM
                                     Risk             to mitigate fraud, waste & abuse
                                                                                                                                                                     OIG
                                 Assessment          Provide annual and real-time updates to fraud risk assessment work plan to address change in
                                                      business environment, acquisitions, current issues, etc


                                                     Rank fraud schemes identified within the risk assessment
                                                     Utilize inspection program to test internal controls throughout command; Use Procurement
                                  Controls            Surveillance Plan to test compliance and processes in contracting                                           Contracting
                                 Monitoring          Develop action plans to assess, improve, and/or monitor the controls associated with the risk identified     C-FRAM
                                                     Report the results to NAVSEA Leadership; Incorporate results from all back into Fraud Risk Assessment



                                   Fraud             Establish investigation protocols; Coordinate remediation action steps                                     NCIS, OIG, AIO
                                  Response           Develop investigation protocols for internal and external resources                                         (Investigation
                                                     Help set the tone within NAVSEA with respect to fraud                                                      Support: Legal
                                    Plan                                                                                                                            & C-FRAM)


                         C-FRAM	 –	 NAVSEA OIG, Contract Fraud Risk Assessment and Mitigation Branch
                         DON	    –	 Department of the Navy
                         NCIS	   –	 Naval Criminal Investigative Service



46 │ DODIG-2014-094
                                                                                                             Approaches for Conducting
                                                                                                    Entity-Wide Fraud Risk Assessments


NAVSEA, Office of Inspector General, Contract Fraud
Risk Assessment and Mitigation Branch, Fraud Risk
Assessment Approach
The NAVSEA organization facilitates fraud risk assessments at local commands,
leveraging Texas Tech Tech University Systems’ (Texas Tech) perception-based
fraud risks assessment model.18 However, NAVSEA does not incorporate electronic
polling within their assessments. All focus groups’ discussions are facilitated by
three NAVSEA employees that perform the roles of primary and secondary
facilitators and scribes. At the end of the discussions, scribe notes are sent to
participants to ensure accuracy.

Prior to the site visit, department managers are asked to identify a cross section
of employees to participate in the fraud risk discussions and focus groups.
Meeting topics include the acquisition process, internal control weaknessess, and
potential fraud schemes. All focus group members possess a solid understanding
of fraud indicators and schemes. Employees selected for participation are
statistically significant; however, most answers provided by participants and analyzed
by facilitators are qualitative rather than quantitative.


Example Fraud Risk Assessment Results
During one fraud risk assessment, discussions were held with 57 employees
(approximately 20 percent were civilians) to obtain information about their
perceived fraud risks. These employees were divided into four focus groups
representing all major functional areas: Contracts, Finance, and Engineering.
Additionally, team members conducted discussions with 1 composite group,
consisting of 13 employees from all major functional areas, that were not included
in the original focus group. Lastly, 14 individual interviews were completed
with employees who self-identified as wishing to discuss issues with NAVSEA
representatives and other employees from major functional areas.

Based on the information obtained from focus groups, composite groups, and
individual interviews, the site visit team found common fraud vulnerabilities and
suggested mitigation strategies for the Commanding Officer. Table 5 lists the
fraud vulnerabilities with the mitigation strategies.




	 18	
        Texas Tech’s fraud risk assessment approach is discussed on pages 63 through 66 of this report.




                                                                                                                       DODIG-2014-094│ 47
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Table 5. Fraud Vulnerabilities and Mitigation Methods
                          Common Fraud Vulnerabilities                            Mitigation Strategies
                                                                Assess Managers’ Internal Controls Program Assessable
                      Possible fraudulent schemes               Units and other processes to determine whether fraud
                                                                vulnerabilities are identified and mitigated.
                                                                Review contract surveillance plans on all current and
                      Contract management                       future contracts. Assess and establish mitigation plans.
                                                                Cross check with contracts and contracting officer’s
                      Financial review and payment system       representative to verify costs incurred and work
                                                                accomplished.
                                                                Identify and train contracting officer’s representatives
                                                                and appoint a representative for each contract per
                      Contractor oversight                      agency regulations. Timely review of invoices in the
                                                                accounting system.


                 If a fraud risk assessment discloses high-risk areas or weak internal controls,
                 NAVSEA conducts follow-up reviews. A report is sent to local command detailing
                 the results of each review. See Appendix H for an example report.


                 Advantages of the NAVSEA Fraud Risk Assessment Approach
                 Figure 20 summarizes advantages of the NAVSEA approach for assessing fraud
                 risks. DoD organizations are encouraged to consider incorporating some, or all,
                 elements of this method when assessing fraud risks. The approach can also be
                 modified to suit an entity’s mission, size, or known fraud vulnerabilities.

                 Figure 20. NAVSEA Fraud Risk Assessment Benefits


                               Advantages of the NAVSEA Fraud Risk Assessment Approach

                        •	 The use of small discussion groups encourages participation from
                            all attendees.

                        •	 The approach provides opportunities for fraud awareness training and discussion,
                            to include questions and answer sessions with NAVSEA subject matter experts.

                        •	 Cross sections of employees from key business areas provide a range of fraud
                            risk perceptions.

                        •	 Results of the assessment are provided to the command to assist with
                            mitigating potential fraud risks.




48 │ DODIG-2014-094
                                                                                                         Approaches for Conducting
                                                                                                Entity-Wide Fraud Risk Assessments


Professional Organization Guidance on Managing the
Business Risk of Fraud
The IIA, AICPA, and ACFE worked with subject matter experts in fraud risk
management and developed a guide titled, “Managing the Business Risk of Fraud:
A Practical Guide,”19 for conducting entity-wide fraud risk assessments. The
three organizations identified the following key principles for establishing an
environment to manage an organization’s fraud risk:

Principle 1:	 As part of an organization’s governance structure, a fraud risk
                      management program should be in place, including a written policy
                      (or policies) to convey the expectations of senior management
                      regarding managing fraud risk.

Principle 2:	Fraud risk exposure should be assessed periodically by the
                      organization to identify specific schemes and events that the
                      organization needs to mitigate.

Principle 3:	 Prevention techniques to avoid potential fraud risk events should
                      be established, where feasible, to mitigate possible impacts on the
                      organization.

Principle 4:	 Detection techniques should be established to uncover fraud events
                      when preventive measures fail or unmitigated risks are realized.

Principle 5:	 A reporting process should be in place to solicit input on fraud and a
                      coordinated approach to investigation and corrective action should be
                      used to help ensure potential fraud is addressed appropriately and in a
                      timely manner.


The Fraud Risk Assessment Team
The fraud risk assessment team should consist of individuals from within the
organization with different knowledge, skills, and perspectives. If expertise is not
available internally, external participants with expertise in applicable standards,
key risk indicators, anti-fraud methodology, control activities, and detection
procedures should participate. Within DoD, participation will vary depending on
the risk assessment objective. For example, fraud risk assessments that are
targeted to evaluate controls related to a procurement cycle will differ from

	19	
       IIA, AICPA, ACFE, “Managing the Business Risk of Fraud: A Practical Guide,” not dated.




                                                                                                                   DODIG-2014-094│ 49
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 participants tasked with evaluating retail operations. Figure 21 contains examples
                 of subject matter experts that should be considered when developing a fraud risk
                 assessment team.

                 Figure 21. Recruiting Team Members20


                                                       Recruiting Subject Matter Experts

                        After establishing your objective, consider recruiting experts such as:

                         •	 DoD personnel responsible for administering the Managers’ Internal
                              Control Program,

                         •	 accounting or financial personnel who are familiar with the financial
                              reporting processes and internal controls,

                         •	 nonfinancial           operations         personnel        to     leverage       their      knowledge          of
                              day-to-day operations and issues within a program or process,

                         •	 legal and compliance representatives because fraud risk assessments
                              may identify risks resulting in potential criminal, civil, and regulatory
                              liability if the fraud or misconduct were to occur,

                         •	 team members from the auditing and investigations disciplines who
                              can provide information about internal controls and fraud risks, and

                         •	 organization management to ensure their commitment to the process
                              and understanding of fraud risks within their areas of responsibility.




                 Fraud Risk Assessment Approach Exercise
                 To protect itself from fraud, an organization should understand fraud risk and
                 the specific risks that directly or indirectly apply to the organization. A structured
                 fraud risk assessment, tailored to the organization’s size, complexity, and goals,
                 should be performed and updated periodically. The assessment may be integrated
                 with an overall organizational risk assessment or performed as a stand-alone
                 exercise, but should include risk identification, risk likelihood, and significance,
                 and risk response. Organizations should develop a framework to document their
                 fraud risk assessment, refer to Table 6 for an example.

                 	20	
                        DoD OIG, Office of Audit Policy and Oversight, modified this information from IIA, AICPA, ACFE, “Managing the Business
                        Risk of Fraud: A Practical Guide,” not dated.




50 │ DODIG-2014-094
                                                                                                                 Approaches for Conducting
                                                                                                        Entity-Wide Fraud Risk Assessments


Risk Identification
Fraud risk identification includes gathering external information from regulatory
bodies, industry sources, and professional organizations. Internal sources for
identifying fraud risks should include interviews and brainstorming with personnel
representing a broad spectrum of activities within the organization, review of
whistleblower complaints, and analytical procedures. An effective fraud risk
identification process includes an assessment of the incentives, pressures, and
opportunities to commit fraud. The fraud risk assessment process should consider
the potential override of controls by management as well as areas where controls
are weak or there is a lack of segregation of duties.


Risk Likelihood and Significance
Assessing the likelihood and significance of each potential fraud risk is a
subjective process. All fraud risks are not equally likely, nor will all frauds have a
significant impact on every organization. Assessing the likelihood and significance
of identified inherent risks21 allows the organization to manage its fraud risks and
implement preventive and detective procedures. It is important to first consider
fraud risks to the organization on an inherent basis or without consideration of
known controls. By taking this approach, the fraud risk assessment team is better
able to consider all relevant fraud risks and design controls to address the risks.
After mapping fraud risks to relevant controls, certain residual risks will remain,
including the risk of management’s override of established controls. The team
must evaluate the potential significance of those residual risks and decide on the
nature and extent of the fraud preventive and detective controls and procedures
to address such risks.


Likelihood
The assessment of the likelihood of a fraud risk occurring generally includes
analyzing the following information: past instances of a specific type of fraud and
the prevalence of the fraud risk within the organization’s industry. Other related
factors that should be considered include the number of individual transactions,
the complexity of the risk, and the number of people involved in reviewing or
approving the process. Organizations can categorize the likelihood of potential
frauds occurring using any reasonable approach; however, three categories are
generally adequate: remote, reasonably possible, and probable.


	21	
       Inherent risk is the risk before considering any internal controls in place to mitigate such risks. IIA, AICPA, ACFE,
       “Managing the Business Risk of Fraud: A Practical Guide,” not dated.




                                                                                                                               DODIG-2014-094│ 51
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Significance
                 The assessment of the significance of a fraud risk should include not only
                 financial statement and monetary significance, but also significance to an
                 organization’s operations and reputation, as well as criminal, civil, and regulatory
                 liability. Organizations can categorize the significance of potential frauds in
                 as many categories as deemed reasonable, but three categories are generally
                 adequate: inconsequential, more than inconsequential, and material.


                 Incentives and Pressures
                 As part of the risk assessment process, the organization evaluates the incentives
                 and pressures on individuals and departments and should use the information
                 gained in that process to assess which individuals or departments were most likely
                 to have incentive to commit a fraudulent act and, if so, by what means. This
                 information can be summarized into the fraud risk assessment template and can
                 help the organization design appropriate risk responses, if necessary.


                 Risk Response
                 Risk tolerance varies from organization to organization. Senior management or
                 those charged with governance set the organization’s risk tolerance level taking
                 into consideration its responsibilities to all stakeholders. Some organizations want
                 only to address fraud risks that could have a material financial statement impact,
                 other organizations want to have a more robust fraud response program.
                 Many organizations will state that there is a “zero tolerance” policy with respect
                 to fraud. However, there may be certain fraud risks that an organization
                 considers   too   expensive   and   time-consuming     to   address      through   controls.
                 Consequently, the organization may decide not to put controls in place to address
                 such risks. If a fraud is discovered, zero tolerance for fraud would be applied.




52 │ DODIG-2014-094
                                                                                Approaches for Conducting
                                                                       Entity-Wide Fraud Risk Assessments


Figure 22 provides a summary of the professional organizations’ key elements of
fraud risk assessments. DoD organizations are encouraged to use this summary as
a tool to educate employees and managers about the fraud risk assessment process.

Figure 22. Key Elements of Fraud Risk Assessments


                   IIA, AICPA, ACFE, – Summary of Key Elements
                             of Fraud Risk Assessments

  1.	   Identify   inherent     fraud   risk – Gather    information       to   obtain   the
        population of fraud risks that could apply to the organization. Included
        in this process is the consideration of all types of fraud schemes and
        scenarios; incentives, pressures, and opportunities to commit fraud; and
        information technology fraud risks specific to the organization.

  2.	   Assess likelihood and significance of inherent fraud risk – Assess
        the relative likelihood and potential significance of identified fraud risks
        based on historical information, known fraud schemes, and interviews
        with staff, including process owners.

  3.	   Respond to reasonably likely and significant inherent and residual
        fraud risks – Decide what the response should be to address the
        identified risks and perform a cost-benefit analysis of fraud risks over
        which the organization wants to implement controls or specific fraud
        detection procedures.




                                                                                               DODIG-2014-094│ 53
  Approaches for Conducting
  Entity-Wide Fraud Risk Assessments


  Example Fraud Risk Assessment Framework
  Organizations should document the results of the fraud risk assessment. Table 6 illustrates how the elements of fraud risk identification,
  assessment, and response are applied. For illustrative purposes, some information in this example was developed by the DoD OIG, Office of Audit
  Policy and Oversight, and also adapted from the State of North Dakota’s, Fraud Risk Assessment Guidance.22 Appendix E contains another example
  illustrating potential revenue recognition risks within financial reporting.

  Table 6. Example Fraud Risk Assessment
       Identified                                                                                                                  Controls
                                                                   People and/or            Existing Anti-Fraud
    Fraud Risks and           Likelihood       Significance                                                                     Effectiveness           Residual Risk            Fraud Risk Response
                                                                    Department                    Controls
        Schemes                                                                                                                 Assessment
    Contract Award
    Contracts                 Probable         Material           Contracting            Multiple supervisory              Tested by                Potential for            Management monitors
    improperly                                                    Official               reviews are required for          management.              bribery or kickbacks     contract awards. Employees
    awarded                                                                              each contract award.                                       to contracting           are aware of consequences
                                                                                                                                                    employees. Bribery       of unethical behavior to
                                                                                                                                                    or kickbacks would       include termination and
                                                                                                                                                    be difficult to detect   other adverse actions.
                                                                                                                                                    during management
                                                                                                                                                    reviews.
    Unauthorized              Probable         Material           Contracting            Supervisory reviews of            Files are periodically   Adequately mitigated     Fraud risk response not
    or missing                                                    Officer                all awards are required.          reviewed by internal     by controls.             required, adequately
    approvals                                                                                                              auditors and                                      mitigated by controls.
                                                                                                                           independent staff.
    Missing or                Probable         Material           Contracting            All records are                   System controls are      Possible override        Information technology
    incomplete file                                               Officer                maintained                        in place to monitor      of system controls       department conducts routine
    documentation                                                                        electronically. System            awards.                  by contracting           checks to test for control
                                                                                         will not allow the                                         employees.               overrides.
                                                                                         contract award to
                                                                                         process until all
                                                                                         documentation is in the
                                                                                         electronic record.




  	22	
         Numerous audit organizations have also adapted this framework as a tool to assess the risk of fraud when performing their work.


54 │ DODIG-2014-094
                                                                              Approaches for Conducting
                                                                     Entity-Wide Fraud Risk Assessments


Australian National Audit Office Fraud Risk
Management Process
The Australian National Audit Office’s fraud risk assessment process involves
communicating and consulting with relevant employees at all levels within
the organization during all stages of the risk assessment. This communication
addresses issues relating to the risk itself, its causes, its impact (if known), and the
measures taken to address it. The approach ensures that those accountable
for implementing the risk management process and stakeholders understand the
basis of decision making and the reasons particular actions were required.

Establishing the context involves articulating the organization’s objectives and
the external and internal parameters to be taken into account when managing risk.
This process also establishes the scope and risk criteria for the remaining process.

Identifying fraud risks requires organizations to consider both internal and
external fraud risks. Organizations are also encouraged to consider fraud risks that
could emerge in the future, for example, fraud risks arising from a change to an
information technology system or other significant changes in business processes.
It is also important to consider fraud risks when evaluating the design of a new
system or program. Identifying fraud risks at the system and program levels assists
the organizations’ efforts to assess overall organizational risk and to reflect these
risks in their strategic planning objectives.

Because fraud is characterized by dishonesty and deception, the identification of
fraud risks requires a skeptical mindset and involves asking probing questions
during brainstorming such as:

         •	 How might a fraudster exploit weaknesses in the systems of controls?

         •	 How could a fraudster override or circumvent controls?

         •	 What could a fraudster do to conceal fraud?

Documenting and assigning ownership of the risks and controls is important.
The business area responsible for managing a particular fraud risk is identified and
the timeframe for implementing any remedial action is clearly documented in risk
management plans.

It is also important to monitor and review the fraud risk assessment regularly.
A fraud risk assessment should be performed at least every 2 years and coincide
with a review of the organization’s overall fraud control plan. When an entity


                                                                                        DODIG-2014-094│ 55
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 undergoes a substantial change in structure or function, or when there is a
                 significant transfer of responsibilities, the entity must undertake another fraud
                 risk assessment in relation to the changed functions. An organization could also
                 consider implementing an ongoing program to update the fraud risk assessment
                 more frequently.

                 Organizations should actively monitor and review their identified fraud controls.
                 Changes in the effectiveness or applicability of these fraud controls can impact
                 the organization’s fraud risk assessment to either increase or decrease fraud risk.
                 Figure     23   illustrates                  the     Australian     National    Audit                Office’s     fraud      risk
                 management process.

                 Figure 23. Australian National Audit Office Fraud Risk Management Process



                                                                      Establishing the Context




                                                                         Risk Identification        Risk Assessment
                                            Risk Assessment




                      Communication                                                                                              Monitoring
                           and                                        Establishing the context
                                                                           Risk Analysis                                           and
                       Consultation                                                                                               Review




                                                                          Risk Evaluation




                                                                          Risk Treatment




                                                                    Documented Risk Assessment



                 Source: Joint Australian/New Zealnad International Organization for Standardization,
                 Standard 3100:2009, Risk Management Principles and Guidelines


56 │ DODIG-2014-094
                                                                                           Approaches for Conducting
                                                                                  Entity-Wide Fraud Risk Assessments


Australian National Audit Office Fraud Risk
Assessment Approach
The Australian National Audit Office’s fraud risk assessment approach provides a
methodology to evaluate a program, function, or business area. Organizations begin
the process by describing a specific fraud risk.  At the end of the assessment, actions
are developed to address each risk area. When using this methodology, it is
important that organizations perform each of the steps in the sequence described in
Table 7.

Table 7. Australian National Audit Office Fraud Risk Assessment Approach

    Fraud Risk       The fraud risk is described; ensuring that both the cause and impact of the
    Description      fraud risk happening is included in the description provided.
                     The fraud risk factors are those conditions or actions which are most likely to
    Fraud Risk       cause the fraud risk to occur. This is generally a brief list of likely scenarios that
      Factors        could occur.
                     The inherent likelihood provides an indication of how often an identified risk
     Inherent        might occur in the absence of any controls. This is generally measured using a
    Likelihood       five-point scale (that is, almost certain, likely, possible, unlikely, rare).
                     The inherent risk rating provides a ranking for an identified risk once the
   Inherent Risk     likelihood and consequence of the risk has been considered in the absence of
      Rating         any controls. This is generally measured using a five-point scale (that is, severe,
                     high, medium, low, very low).
                     The key controls refer to those controls currently established within the
   Key Controls      entity to minimize the likelihood and consequence of the identified fraud risk
    Identified       from happening.
                     The residual likelihood provides an indication of how often an identified risk
     Residual        might occur when taking into consideration the effectiveness or otherwise of
    Likelihood       the existing controls. This is generally measured using a five-point scale (that
                     is, almost certain, likely, possible, unlikely, rare).
                     The residual consequence provides an indication of how serious the
                     consequences would be if an identified risk occurred when taking into
     Residual        consideration the effectiveness or otherwise of the existing controls. This is
   Consequence       generally measured using a five-point scale (that is, extreme, major, moderate,
                     minor, insignificant).
                     The residual risk rating provides a ranking for an identified risk once the
                     likelihood and consequence of the risk has been considered after taking
   Residual Risk     into consideration the effectiveness of the existing controls. This is generally
      Rating         measured using a five-point scale (that is, severe, high, medium, low,
                     very low).
    Fraud Risk       The fraud risk owner is the individual/group within the entity with
      Owner          accountability for managing the identified fraud risk.
                     The action required relates to the identification of any further actions that
  Action Required    the entity must undertake in relation to the identified fraud risk (that is, new
                     controls to be established).

“Fraud Control in Australian Government Entities, Better Practice Guide, Australian National Audit
Office and KPMG,” March 2011, pages 36, 37, and 91.




                                                                                                              DODIG-2014-094│ 57
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Association of American Medical Colleges
                 The Internal Audit Division of the Association of American Medical Colleges (AAMC)23
                 facilitates an annual enterprise-wide risk assessment, which includes an assessment
                 of fraud risk. The organization’s 35 auditable units participate in the review, which
                 includes representatives from Finance, Information Technology, and Human Resources.
                 The assessment also provides an opportunity for Internal Audit to educate other
                 employees about fraud, and increase fraud awareness within the organization.


                 Quantifiable Fraud Risk Assessment
                 Both quantifiable and qualitative approaches are used to identify and evaluate
                 fraud risks. For the quantifiable ranking, numeric values are assigned, ranging from
                 a low of one to a high of five. Participants are also required to consider impact
                 and opportunity when rating fraud risk, along with inherent and residual risks.
                 For example, fraud risk in the Finance Department would be rated higher and have
                 a more significant impact on the organization when compared to fraud risk at the
                 on-site library. All business unit representatives are required to agree on the final
                 risk rankings assigned. When the client rates the fraud risk as low (because of
                 the presence of mitigating controls), but the auditors believe that the risk may be
                 higher (for example, based on previous audits or audit experience), the auditors
                 adjust the fraud risk scores up or down, as needed, after the business units complete
                 their assessments.

                 During the fraud risk assessment discussions, Internal Audit asks business
                 unit representatives about ways that fraud could occur versus where fraud is
                 occurring. This approach helps to stimulate discussion and causes people to think
                 about fraud. Additional topics discussed include opportunities for management
                 fraud, employee fraud, unauthorized use or disclosure of sensitive information,
                 theft of assets, and other illegal acts.

                 Table 8 depicts examples of the business units and risk attributes that are
                 evaluated            during        the     assessment.           Business          units/auditable            units       with
                 interrelated functions and objectives are grouped in clusters.




                 	23	
                        The AAMC is a nonprofit group of medical schools, hospitals, and academic societies. The organization provides assistance
                        for members in the areas of education, research, and patient care.




58 │ DODIG-2014-094
                                                                                                                                                             Approaches for Conducting
                                                                                                                                                    Entity-Wide Fraud Risk Assessments


Table 8. Business Units and Risk Attributes




                                                                   Process and Operational




                                                                                                                                                                           Prior Audit Results
                                                                                                          Environmental




                                                                                                                                                            Reputational
                                                                                                                          Governance


                                                                                                                                               Compliance




                                                                                                                                                                                                                    Final Rating
                                                                                             Technology
                                           Personnel




                                                                                                                                                                                                         Adjusted
                                                       Financial




                                                                                                                                       Fraud




                                                                                                                                                                                                 Total
 Auditable
 Unit         Audit Name
 Academic Affairs & Programs (Academic Affairs)
              Academic Affairs                                                                                                                                                                    0
 Communications (Public Policy & Strategic Relations)
              Communications                                                                                                                                                                      0
 Diversity Policy & Programs
              Diversity                                                                                                                                                                           0
 Finance (Operations and Services)
              General Accounting                                                                                                                                                                  0
              Payroll                                                                                                                                                                             0
 Global Health Learning Opportunities (Operations and Services)
              Global Health                                                                                                                                                                       0
              Learning Opportunities
 Government Relations (Public Policy and Strategic Relations)
              Government Relations                                                                                                                                                                0
 Health Care Affairs
              Health Care Affairs                                                                                                                                                                 0
 Human Resources (Operations and Services)
              Benefits                                                                                                                                                                            0
              Human Resources                                                                                                                                                                     0
              Compensation                                                                                                                                                                        0
 Information Technology (Operations and Services)
              Data Integrity                                                                                                                                                                      0
              Information                                                                                                                                                                         0
              Technology Services
              Disaster Recovery                                                                                                                                                                   0
              Information Technology
              Security/General                                                                                                                                                                    0
              Computer Controls

              Reminder Sent                                                                   Response Received




                                                                                                                                                                                                                               DODIG-2014-094│ 59
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Qualitative Fraud Risk Assessment
                 The qualitative component of the fraud risk evaluation is an on-line Risk
                 Assessment Survey, which is sent to all entity-wide risk assessment participants.
                 Survey respondents have the option of identifying themselves or submitting their
                 responses anonymously. The survey approach helps fill gaps in the quantifiable
                 fraud risk assessment rankings. For example, the quantifiable assessments provide
                 Internal Audit with numeric risk rankings, while the survey method provides insight
                 regarding the thoughts behind the numbers. The survey also gives information
                 on internal control improvement opportunities within the organization.

                 Figure 24 is an example of an online Risk Assessment Survey. The survey is
                 intended for illustrative purposes only. DoD organizations are encouraged to
                 develop surveys designed to target their specific programs, operations, or
                 fraud vulnerabilities.

                 Figure 24. Survey Questions


                                    Example Fraud Risk Assessment Survey Questions

                      1.	   In your opinion, what are the top risks or potential obstacles to achieving
                            your operational objectives within your unit?

                      2.	   In your opinion, what are the top risks or potential obstacles to achieving
                            your objectives within your cluster?

                      3.	   In your opinion, what are the top risks or potential obstacles that may
                            prevent the organization from achieving our stated objectives?

                      4.	   Is there an obstacle, challenge or risk that “keeps you up at night?” If so,
                            what are they, and why do they concern you?




60 │ DODIG-2014-094
                                                                               Approaches for Conducting
                                                                      Entity-Wide Fraud Risk Assessments



         Example Fraud Risk Assessment Survey Questions (cont’d)

5.	   Generally, where do you feel your unit is in terms of maturity of the
      internal control structure?

      •	 Initial: Controls of risks are ad-hoc, not in place, not working as intended
         or are easily overlooked or overruled.

      •	 Repeatable: Process to control risks is established and repeating, and controls
         documentation is lacking.

      •	 Defined: Process to control risks is established, repeating, documentation is in
         place to support the process.

      •	 Managed: Risks are managed systemically and reviewed at the
         enterprise level.

      •	 Optimized: Controls of risk are continuously improving and managed at
         an enterprise level.

6.	   Generally, how is your unit performing in relation to your stated objectives?

      •	 Always or nearly always, achieve objectives timely and without issue.

      •	 Periodically, our objectives are met timely and without issues.

      •	 It is often difficult to achieve process objectives timely and without issue.

      •	 Rarely are our objectives able to be met timely and without issue.

7.	   If you have any comments on risk or this survey, please add them below.




                                                                                            DODIG-2014-094│ 61
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Advantages of Fraud Risk Assessment Surveys
                 Figure 25 highlights the advantages of using fraud risk assessment surveys.
                 To maximize survey benefits, DoD organizations should ensure that they are not
                 too long or time-consuming to complete. It is also important to request
                 participation from both supervisory and nonsupervisory employees in the survey
                 process. All participants should be reassured that their identities and responses
                 remain confidential.

                 Figure 25. Survey Advantages.


                                             Advantages of Fraud Risk Assessment Surveys

                        Fraud risk assessment surveys provide employees with ways to:

                         •	 Report fraud and/or fraud risks without their co-workers and supervisors in the
                              same room or meeting.

                         •	 Identify fraud and/or fraud risks that may be occurring within their
                              business units.

                         •	 Report suspect activity happening in other business units.




                 Smart Insights, LLC Fraud Risk Assessment Approach
                 The company24 uses an Internal Fraud Risk Assessment Questionnaire that is
                 intended to help identify gaps in an organization’s anti-fraud program and
                 processes. Benefits relating to this assessment approach are:

                                •	 provides an inexpensive, cost-effective means of identifying areas that are
                                    vulnerable to fraud,

                                •	 helps to proactively identify areas that are susceptible to fraud that could
                                    adversely impact an entity’s financial position and/or reputation,

                                •	 pinpoints opportunities to save money or drive operational improvements,

                                •	 detects internal controls and/or processes that need improvements, and

                                •	 increases the confidence of the organizations clients and stakeholders.

                 	24	
                        Smart Insights, LLC, is a consulting firm based in the District of Columbia. The company specializes in procurement and
                        supply chain management, human capital, and organizational risk.




62 │ DODIG-2014-094
                                                                           Approaches for Conducting
                                                                  Entity-Wide Fraud Risk Assessments


Participants are instructed to carefully review each question prior to assigning
a final score, take their time developing their response, and provide comments or
notes, as needed.

The following scoring legend is used to evaluate each question:

         •	 A score of 0 represents an entity that has not implemented any of the
           recommendations.

         •	 A score of 100 represents an entity that has designed and implemented
           processes, but has not tested them within the past twelve months.

         •	 A score of 200 is given to an entity that has designed, implemented,
           tested, and determined the processes to be operating effectively within
           the most recent 12-month period.

         •	 Any score less than 200 serves as a reminder that there is an opportunity
           for improvement.

For illustrative purposes, responses to the Internal Control Questionnaire were
prepared using information contained in Department of the Navy, Bureau of
Medicine and Surgery, Instruction 5370.04, “Navy Medicine Anti-Fraud Program,”
April 1, 2010 (see Appendix F). The scores assigned were based on fictitious
information and are not related to a specific DoD organization or program.


Texas Tech Fraud Risk Assessment Approach
Members of the Internal Audit Department oversee entity-wide fraud risk
assessments at Texas Tech locations. As facilitator’s, the auditor’s role consists
of gathering information about fraud risks and reporting the results of each
assessment to senior management. The fraud risk assessments are conducted
in accordance with the International Standards for the Professional Practice of
Internal Auditing. Related benefits are educating employees about fraud and
increasing fraud awareness at participating campuses.


The Perception-Based Fraud Risk Assessment Approach
Texas Tech’s fraud risk assessment process was developed by seasoned audit
staff.   Internal Audit named their methodology the Perception-Based Approach
for Assessing Fraud Risk. Experienced employees and subject matter experts
from each campus are selected to participate in fraud risk ranking sessions.




                                                                                     DODIG-2014-094│ 63
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 A cross-cutting methodology is used to identify employees representing a range of
                 departments that includes accounting, payroll, accounts receivable, and business
                 managers from various components.

                 During assessment planning, the audit team uses the ACFE Fraud Examiner’s Manual
                 to select fraud schemes for discussion and risk ranking for each session. This
                 information is included in a Glossary of Fraud Schemes, which is not provided
                 to participants in advance. At the start of each fraud risk assessment, fraud
                 statistics from the most recent ACFE report on occupational fraud25 are also
                 discussed. Additionally, facilitators explain each fraud scenario in the Glossary
                 of Fraud Schemes to participants. To educate employees about fraud, auditors
                 use real-life examples to demonstrate how each fraud type could occur at their
                 location and provide information about relevant fraud indicators. The employee’s
                 role in assisting with detecting and preventing fraud is also emphasized.


                 Electronic Polling Software Results
                 During one Texas Tech fraud risk assessment, the auditors initially focused on
                 schemes related to corruption, asset misappropriation, and financial statement
                 fraud. Nonfinancial fraud schemes were purposely excluded because they planned
                 to focus on this type of fraud when facilitating future assessments. Financial
                 statement fraud was also eliminated because most of the pressures and incentives
                 related to private companies and did not exist in an academic environment. Other
                 criteria used to identify the fraud schemes included:

                                •	 likelihood of occurrence

                                •	 auditors’ prior knowledge and experience with fraud at the location

                 The engagement consisted of nine risk assessment sessions where the perceptions
                 of 52 Texas Tech employees regarding the likelihood, pervasiveness, materiality,
                 and reputational risks of 24 different types of fraud schemes were polled. After each
                 fraud scheme was explained, the participants ranked the schemes using electronic
                 polling software.

                 Figure 26 depicts a heat map26 fraud risk perceptions of the Texas Tech
                 Administration employees who provided input for the fraud risk assessment.


                 	25	
                        The ACFE’s “Report to the Nations on Occupational Fraud and Abuse,” details the survey results of Certified Fraud
                        Examiners that were requested to provide information on fraud cases that met specific criteria. The data is
                        compiled in a comprehensive report and offeres insights about prevention and detection methods.
                 	26	
                        A heat map is defined as a two-dimensional representation of data in which values are represented by colors.
                        A simple heat map provides an immediate visual summary of information. Source: SearchBusinessAnalytics.com




64 │ DODIG-2014-094
                                                                                                                 Approaches for Conducting
                                                                                                        Entity-Wide Fraud Risk Assessments


       Figure 26. Example Texas Tech Heat Map




                                                           Inventory Misuse



                                                            Expense
                              High




                                                     Reimbursement
                                                           Schemes

                                                                                    Billing Schemes
Likelihood & Pervasivemenss




                                                                Inventory Larceny          Conﬂicts of Interest

                                                          Cash Larceny                   Bribery & Incentives
                                                                               Payroll
                                                                               Schemes
                                                         Check Tampering
                                                   Register
                                             Disbursements          Cash
                                                                    Skimming
                              Low




                                                          Low                                         High
                                                                   Materiality & Reputational Risk


                              u	 Red – Perceived to have high likelihood and probability as well as high materiality and
                                     reputational risk
                              u	 Yellow – Perceived to have high likelihood and probability, but a low materiality and
                                     reputational risk
                              u	 Green – Perceived to have a low likelihood and probability and a low materiality and
                                     reputational risk




                                                                                                                           DODIG-2014-094│ 65
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Advantages of the Perception-Based Fraud Risk
                 Assessment Approach
                 Figure 27 highlights the benefits of Texas Tech’s Perception-Based Approach for
                 Assessing     Fraud    Risk.    DoD      organizations   should   consider   implementing
                 electronic polling software, or comparable technology, when performing fraud
                 risk assessments. Similar to online surveys, both approaches allow anonymous
                 responses from employees.

                 Figure 27. Benefits of the Texas Tech Approach


                                       Benefits of the Perception-Based Fraud Risk
                                                  Assessment Approach
                      •	 Electronic    polling   allows    participants   to   remain   anonymous   when
                         evaluating fraud risks. Because people may not be comfortable or
                         open discussing fraud in the presence of their managers, anonymity
                         encourages more truthful responses.

                      •	 Live interaction helps facilitators gauge participants’ understanding of
                         the fraud schemes and indicators before risk rankings are submitted.

                      •	 The polling software can be embedded within Fraud Awareness Briefings
                         to obtain additional information about employee’s fraud perceptions.
                         This data can be analyzed to identify trends and compare results at
                         different business units within an entity.



                 Additionally, electronic polling enables a greater number of employees to
                 participate in the fraud risk assessment process. As a result, more information is
                 received, in less time, when compared to meetings with small groups, or one-on-one
                 discussions about fraud risks.




66 │ DODIG-2014-094
                                                                           Approaches for Conducting
                                                                  Entity-Wide Fraud Risk Assessments


Grant Thornton Approach for Enterprise
Risk Management
A fraud risk assessment is an integral part of enterprise-wide risk assessment.
It is the responsibility of management to identify, measure, and reduce fraud risks
to acceptable levels. As part of an ongoing, systematic, and recurring enterprise fraud
risk assessment, the fraud risk assessment should consider internal and external
fraud risks at all levels enterprise-wide. Additionally, it should prioritize fraud risk
by significance, likelihood, and exposure.

The following information describes the five tasks that should be performed when
developing a successful enterprise risk management program.


Task 1 – Establish a Framework
To establish the framework and governance structure the organization should
collect and review information regarding the organization, including organization
structure, roles and responsibilities, policies and procedures, audit reports,
existing enterprise risk management documentation, and other organizational
artifacts. After reviewing these materials, the agency should perform interviews
with stakeholders, focusing on key risk areas, including organizational, financial,
political, technological, market, legal, and security. Figure 28 describes the benefits
of conducting interviews with stakeholders.

Figure 28. Interview Benefits


                   Benefits of Interviews with Key Stakeholders

  Through interviews, the organization can:

   •	 Determine risk indicators.

   •	 Determine the acceptable levels of risk.

   •	 Determine the risk culture.

   •	 Identify existing risk management processes and policies.

   •	 Determine the best method to report risk.

   •	 Identify and assess the existing control environment, and

   •	 Identify who is accountable for risk management.




                                                                                       DODIG-2014-094│ 67
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Using the information collected, the organization should develop the components
                 of the framework, identify a governance structure that will complement the
                 organization   and   culture,   and   develop   the   enterprise   risk   management
                 architecture needed to support the program. Once the framework and governance
                 structure are defined, the organization should develop the risk management policy
                 and the policy for risk identification, assessment, measurement, mitigating,
                 monitoring, and reporting.


                 Task 2 – Risk Identification
                 Leveraging information gathered during stakeholder interviews in Task 1, the
                 organization should develop a methodology to identify and categorize risks across
                 the enterprise, measure the intensity of the elements that drive each risk, and assess
                 the organization’s exposure to these elements. The benefits achieved through this
                 effort will provide the organization with a shared language about its risks,
                 promoting a more risk-aware environment that is equipped to respond quickly if a
                 problem occurs.

                 Additionally, it is recommended that the Fraud Prevention Check-Up published by
                 the ACFE be used as a tool for establishing a baseline in determining how well an
                 organization understands its risk for fraud. The Fraud Prevention Check-Up is a
                 survey that asks key questions related to fraud risk oversight, ownership, assessment,
                 risk tolerance and management, anti-fraud controls, and fraud detection. The
                 Fraud Prevention Check-Up is available on the ACFE’s website at www.ACFE.com.


                 Task 3 – Risk Prioritization and Evaluation
                 The identification of risks leads to questions on how to best mitigate risks. The
                 organization should identify possible responses and actions based on its’ risk
                 aversion appetite. The organization should first develop risk prioritization and
                 evaluation policies, procedures, and business boundaries with clear objectives for
                 enterprise risk management activities. These policies and procedures are guided
                 by the risk aversion, or the extent to which management is willing to accept risk,
                 which in risk evaluation is achieved by defining individual risk tolerance.




68 │ DODIG-2014-094
                                                                                Approaches for Conducting
                                                                       Entity-Wide Fraud Risk Assessments


Task 4 – Risk Management
Effective risk management involves creating feasible corrective actions for control
deficiencies and gaps identified, as well as understanding findings in the broader
context of the organization’s strategic goals. The organization should concentrate
first on developing responses to high-frequency, high-severity events by assisting
management with creating a risk response for factors that contribute to the
risk’s occurrence, evaluating response benefits versus the long-term costs, and
defining quantifiable corrective actions that can be implemented and monitored.


Task 5 – Risk Monitoring, Reviewing and Reporting
The organization’s risk policy should contain clear objectives and guidance for
risk monitoring, review, and reporting linked to overall business strategies.
In addition, it should provide direction on communication of risks to senior
management, execution on risk mitigation decisions, and procedures for monitoring
remediation activities and the identified risks. The following should be monitored
and reported:

        •	 key risk ratings or profiles that classify and describe all risks,

        •	 key performance indicators that measure impact of risks on performance,

        •	 risk   rates   and    modeling     to   measure      risk   concentration   and
          interdependencies,

        •	 top-level key risk indicators to provide an early signal of increasing
          risk exposures, and

        •	 testing and validation results (stress testing and control testing).




                                                                                          DODIG-2014-094│ 69
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Grant Thornton Fraud Risk Assessment Approach
                 Grant Thornton’s fraud risk assessment approach consists of three phases,
                 summarized in Figure 29. It is important for DoD organizations to complete each
                 step in the sequence in Figure 29 if they elect to use the Grant Thornton
                 approach. Additionally, the approach can be modified to suit an organization’s
                 size, structure, and known fraud vulnerabilities.

                 Figure 29. Grant Thornton Fraud Risk Assessment Phases


                                              Phases of a Fraud Risk Assessment

                      Phase I

                      a.	 Understand the organization

                      b.	 Identify occupational fraud risk factors

                      c.	 Identify potential errors, accounts and/or balances, and/or disclosures that may
                          be affected

                      d.	 Identify potential fraud schemes and scenarios and note indications
                          (i.e., “red flags”) for fraud risk and classify into “fraud triangle” categories:

                          i.	   Incentives/Pressures

                          ii.	 Opportunities

                          iii.	 Rationalizations

                      e.	 Assess “significance” or “magnitude” of potential fraud risks

                      f.	 Assess “likelihood” or “probability” of fraud occurring

                      g.	 Prioritize fraud risk “exposure” or “vulnerability” (i.e., combination of “significance”
                          and “likelihood”)

                      h.	 Communicate findings




70 │ DODIG-2014-094
                                                                                    Approaches for Conducting
                                                                           Entity-Wide Fraud Risk Assessments



                    Phases of a Fraud Risk Assessment (cont’d)

  Phase II

   a.	 Understand management’s objectives related to fraud risk management, including
      tolerance for acceptable residual fraud risks

   b.	 Identify   anti-fraud    measures,     programs,      procedures,      policies   and
      internal controls

   c.	 Perform walk-throughs, as needed

   d.	 Document as requested

   e.	 Evaluate effectiveness of anti-fraud measures, programs, procedures,
      policies and internal controls to mitigate prioritized fraud risks

   f.	 Identify any “gaps” or weaknesses

   g.	 Prepare recommendations for improvements

   h.	 Communicate findings and recommendations

  Phase III

   a.	 Identify anti-fraud measures, programs, procedures, policies and internal controls
      to be tested for compliance

   b.	 Sample and test anti-fraud measures, programs, procedures, policies and
      internal controls

   c.	 Evaluate results

   d.	 Identify any “gaps” or weaknesses

   e.	 Prepare recommendations for improvements

   f.	 Communicate findings and recommendations



The fraud risk assessment documentation will generally include written reports,
documentation of procedures, recommendations, and proposed next steps. For
an example client report and illustrative heat map of fraud risks, see Appendix G.




                                                                                               DODIG-2014-094│ 71
Approaches for Conducting
Entity-Wide Fraud Risk Assessments


                 Summary of Entity-Wide Approaches for Conducting
                 Fraud Risk Assessments
                 Table 9 summarizes the key attributes, similarities, and differences of the various
                 fraud risk assessment approaches discussed within this section. As emphasized
                 throughout this report, each of the suggested approaches can be modified to suit
                 an organization’s mission, size, or specific fraud vulnerabilities. DoD organizations
                 are also encouraged to develop other approaches for performing fraud risk
                 assessments using information presented within this report as a resource.

                 Table 9. Summary of Entity-Wide Approaches for Conducting Fraud Risk Assessments

                               Organization                             Fraud Risk Assessment Attributes
                      DoD Investigative Agencies        •	 Brainstorming sessions help to identify fraud risks.
                                                        •	 Review of current fraud trends and organization expenditures
                                                           to identify high-risk areas.
                                                        •	 For decentralized organizations, request input regarding
                                                           specific trends occurring at various geographic areas.
                                                        •	 Fraud efforts are focused on areas of high
                                                           Congressional interest.
                                                        •	 Assessment results are reported to investigative employees,
                                                           senior management officials, and the Senior Executive Board.
                      Navy Exchange Service             •	 Use of CSAs to identify gaps in internal controls and potential
                      Command                              fraud risks and vulnerabilities.
                                                        •	 Fraud awareness training is provided to stimulate discussions
                                                           with employees and educate them about the CSA process
                                                           and goals.
                                                        •	 CSA results are reported to management.
                      Naval Sea Systems Command         •	 Facilitate discussions with employees to identify fraud risks.
                                                        •	 Fraud awareness training is provided during
                                                           employee discussions.
                                                        •	 Report of results prepared for management.
                      Institute of Internal Auditors,   •	 Fraud risk assessment template used to identify and rank fraud
                      American Institute of                risks.
                      Certified Public Accountants,     •	 Emphasize participation of subject matter experts in the fraud
                      Association of Certified             risk assessment process.
                      Fraud Examiners
                      Australian National               •	 Require the organization to involve relevant employees at all
                      Audit Office                         levels to participate in the fraud risk assessment process.
                                                        •	 Emphasize the importance of documenting and assigning
                                                           ownership of fraud risks and controls.
                                                        •	 Require documentation of the assessment results.
                      Association of American           •	 Online employee surveys encourage anonymous reporting of
                      Medical Colleges                     potential fraud risks or suspect activities.
                                                        •	 Interviews with managers and employees help to quantify
                                                           fraud risks.
                                                        •	 Fraud awareness training is conducted during
                                                           employee interviews.



72 │ DODIG-2014-094
                                                                           Approaches for Conducting
                                                                  Entity-Wide Fraud Risk Assessments


         Organization                   Fraud Risk Assessment Attributes
Smart Insights, LLC     •	 Internal Fraud Risk Assessment Questionnaires are used
                           to identify gaps in an organization’s anti-fraud program
                           and processes.
Texas Tech              •	 Electronic polling software is used to identify high-risk
                           areas. The approach permits employees to rate fraud risks
                           anonymously.
                        •	 A Glossary of Fraud Schemes is developed to provide
                           employee fraud awareness training during the fraud risk
                           assessment process.
                        •	 Heat Maps are prepared to illustrate assessment results
                           to management.
                        •	 Report of fraud risk assessment results is prepared
                           for management.
Grant Thornton          •	 Fraud risk assessments are considered a component of
                           enterprise risk management.
                        •	 Three-phase approach for conducting fraud risk assessments.
                           Phase one emphasizes identifying fraud schemes and
                           indicators. Phase two focuses on identifying weaknesses and
                           reporting the results to management. Phase three consists of
                           making recommendations for improvements.




                                                                                          DODIG-2014-094│ 73
Summary of DoD and External
Organizations’ Fraud Initiatives



                 Summary of DoD and External Organizations’
                 Fraud Initiatives
                 DoD Entities and External Organizations’ Fraud Risk
                 Assessment Approaches, Fraud Awareness Training,
                 and Internal Control Evaluations
                 We interviewed 82 subject matter experts from 33 DoD organizations. External
                 participants   represented   both   public   and   private   entities   and   consisted
                 of 18 subject matter experts from 12 organizations. During our review, we identified
                 effective approaches for conducting audit and entity-wide fraud risk assessments,
                 fraud awareness training activities, and internal control evaluations. We used
                 documentation obtained from subject matter experts at Naval Audit Service;
                 DoD OIG, Office of the Deputy Inspector General for Audit; AICPA; Smart Insights
                 Group, LLC; Navy Bureau of Medicine and Surgery; Grant Thornton; NAVSEA; Council
                 of the Inspectors General on Integrity and Efficiency, Training Institute (CIGIE);
                 and the Australian National Audit Office to develop example documents included
                 in Appendixes B through J.

                 During our interviews with DoD and external subject matter experts, we identified
                 numerous innovative approaches for conducting fraud risk assessments. Of the
                 33 DoD organizations we interviewed, 13 were conducting entity-wide risk
                 assessments, 26 were conducting fraud risk assessments when performing
                 audit-related work, 23 were providing fraud awareness training, and 3 were
                 concentrating on internal control evaluations. Table 10 indicates the focus of
                 each participating DoD organization.




74 │ DODIG-2014-094
                                                                                    Summary of DoD and External
                                                                                   Organizations’ Fraud Initiatives


Table 10. Focus Areas of DoD Organizations
                                                                    Fraud               Internal
                                               Fraud Risk
            DoD Organization                                      Awareness             Control
                                              Assessment           Training           Evaluations
Department of Defense
 Army and Air Force Exchange Service,              X                   X
 Audit Division
 Defense Commissary Agency, OIG,                   X
 Audit Division
 Defense Contract Management Agency,               X*                  X
 Contract Integrity Center
 Defense Contract Management Agency,               X
 Internal Review
 Defense Information Systems Agency,               X
 OIG, Audit
 Defense Information Systems Agency,               X*                  X
 OIG, Investigations
 Defense Logistics Agency, OIG,                    X
 Audit Division
 Defense Logistics Agency, OIG,                    X*                  X
 Investigations Division
 Defense Logistics Agency, Office of               X*,†
 General Counsel
 DoD OIG, Office of the Deputy Inspector           X                   X
 General for Audit
 DoD OIG, Defense Criminal                         X*                  X
 Investigative Service
DoD OIG, Office of General Counsel                                     X
 DoD OIG, Office of the Deputy Inspector                               X
 General for Policy and Oversight
Missile Defense Agency, Internal Review            X
 Missile Defense Agency, Managers’                                                         X
 Internal Control Program
 Missile Defense Agency, Quality, Safety,          X*,†                X
 and Mission Assurance
 National Geospatial Agency-Intelligence,          X*                  X
 OIG, Investigations
 Office of the Undersecretary of Defense,
 Comptroller, Financial Improvement and                                                    X
 Audit Readiness Division
	 *	The organization is performing entity-wide fraud risk assessments. Organizations that do
    not have a notation indicated that they are performing fraud risk assessments during audits,
    evaluations, or internal reviews.
	 †	Member of the DoD Counterfeit Parts Working Group.
	 ‡	Representatives from these organizations provided information about the DoD Procurement
    Fraud Working Group’s activities.




                                                                                                    DODIG-2014-094│ 75
Summary of DoD and External
Organizations’ Fraud Initiatives


                                                                                       Fraud               Internal
                                                                    Fraud Risk
                                  DoD Organization                                   Awareness             Control
                                                                   Assessment         Training           Evaluations
                      Department of Defense (cont’d)
                      Office of the Undersecretary of
                      Defense, Acquisition, Technology, and                               X
                      Logistics, Defense Procurement &
                      Acquisition Policy ‡
                      Tricare Management Activity, Program             X*                 X
                      Integrity Office
                      Department of the Army
                      Army Audit Agency                                X                   X

                      Army Criminal Investigation Command              X*                  X
                      Department of the Navy
                      OIG Marine Corps                                 X
                      Marine Corps Nonappropriated Funds               X                  X
                      Audit Service
                      Marine Corps Risk and Compliance                                                         X
                      Naval Audit Service                              X                   X
                      Naval Criminal Investigative Service             X*                  X
                      Navy Exchange Command, Office of                 X                  X
                      Internal Audit
                      Naval Sea Systems Command, OIG                   X*                  X                   X
                      Risk Management and                              X*                 X
                      Compliance Branch
                      Department of the Air Force
                      Air Force Audit Agency                           X                   X
                      Air Force Office of General Counsel ‡                                X
                      Air Force Office of Special Investigations       X*                  X
                  	 *	The organization is performing entity-wide fraud risk assessments. Organizations that do not have
                      a notation indicated that they are performing fraud risk assessments during audits, evaluations, or
                      internal reviews.
                  	 †	Member of the DoD Counterfeit Parts Working Group.
                  	 ‡	Representatives from these organizations provided information about the DoD Procurement Fraud
                      Working Group’s activities.




76 │ DODIG-2014-094
                                                                            Summary of DoD and External
                                                                           Organizations’ Fraud Initiatives


Department of Defense
Army and Air Force Exchange Service Audit Division. Seventy-five percent of
the staff members are Certified Fraud Examiners. All new hires are required to
attend the ACFE test preparation course. The Audit Division invites employees from
other AAFES disciplines to participate in the test preparation classes to include
Loss Prevention, OIG, Finance Department, and buyers for stores. This approach
helps to educate people throughout the organization about fraud. The Audit
Division also developed a fraud risk assessment template. When performing
their work, auditors are required to consider internal controls, fraud risks, and
approaches to evaluate the effectiveness of the controls. Staff members conduct
internal control audits at exchange stores, focusing on key control areas, such as
over refunds, receipts, and damaged and defective goods. The Audit Division
provides recommendations to management on ways to improve existing controls
and store operations.

Defense Commissary Agency OIG, Audit Division. All audit staff participate
in fraud brainstorming sessions. During the meetings, team members use a
whiteboard to visually map the process they are auditing. A template was
developed that requires auditors to evaluate the control risks, fraud indicators,
potential   for   control   overrides,   control   effectiveness,   and   impact   on   the
organization. The Defense Commissary Agency developed the “Front End Audit
Worksheet Information Guide” to assist senior managers’ efforts to assess
suspect financial transactions such as refunds, suspended transactions, or coupon
misuse. The Audit Division provided examples of fraud indicators that were
included in the Guide. In June 2012, the Director, Defense Commissary Agency,
sent a memorandum to all employees emphasizing the importance of fraud
prevention and discussed the role of the OIG in preventing and detecting fraud within
the organization.

Defense Contract Management Agency, Contract Integrity Center. In 2007,
the organization developed its first Strategic Plan for FY 2007-2012; the plan
was most recently revised in July 2009. The purpose of the project was to identify
fraud vulnerabilities and educate senior Defense Contract Management Agency
leadership about the mission of the organization. This project was led by the
Director, Contract Integrity Center, and participants included teams of attorneys
working at various locations throughout the United States. The process started
by examining the entity’s fraud cases and assigning risk rankings of low, medium,




                                                                                          DODIG-2014-094│ 77
Summary of DoD and External
Organizations’ Fraud Initiatives


                 or high. The Director, Contract Integrity Center, then led discussions with smaller
                 groups      of   attorneys   and   posed     the   question;     “Fraud     Happens,    Why?”
                 Brainstorming sessions were used to identify the organization’s highest fraud
                 risk activities and red, yellow, or green scores were assigned to each area. Next,
                 high-risk    areas   received   subsequent     rankings   such     as     high-risk/high-value,
                 medium-high risk, and medium high-value. This information was used to develop
                 the Contract Integrity Center Strategic Plan Goals, which included improving the
                 capability of the entity’s workforce to identify, report, and remediate fraud.

                 The organization also created a multifaceted fraud awareness training program. One of
                 the more innovative training approaches are the on-line fraud training videos, similar
                 to television soap operas, with cliffhangers at the close of each segment. Other web-
                 based fraud resources include “Focus on Fraud” newsletters, fraud brochures, and
                 fraud indicators and trends.

                 Defense Contract Management Agency, Internal Review. The Defense Contract
                 Management Agency’s Audit Manual requires auditors to be continuously alert to
                 fraud when conducting their work and also includes information about fraud
                 indicators. The Audit Team Leader coordinates discussions about fraud risk.
                 The discussions are documented in the project files. All staff members participate
                 in the Defense Contract Management Agency fraud training.

                 Defense Information Systems Agency, OIG, Audit. Auditors assess the potential
                 for fraud, waste, and abuse when developing the annual audit plan. Areas considered
                 include the amount of time since the last assessment; vulnerability to fraud, waste,
                 and abuse; and external concerns. The team assigns scores to potential audit
                 topics using the OIG Risk Assessment Tool. To evaluate the potential for fraud,
                 auditors use risk rankings from high to low. Attributes of high-risk scores include
                 assets that are easily converted to cash, high cost materials, and high potential for
                 personal misuse. Information captured in the OIG Risk Assessment Tool is shared
                 with audit staff to assist with audit planning.

                 Defense Information Systems Agency, OIG, Investigations. The organization
                 conducted an entity-wide fraud risk assessment to develop a fraud awareness
                 training program for Defense Information Systems Agency employees. Methods
                 to identify fraud risks included an analysis of internal fraud trends, reviews of
                 ongoing and previous fraud cases, and ACFE reports. Investigations staff also met




78 │ DODIG-2014-094
                                                                                        Summary of DoD and External
                                                                                       Organizations’ Fraud Initiatives


with more than 20 DoD and external organizations to obtain information about
fraud training methods. A fraud awareness training video was developed,
emphasizing procurement fraud. The video is continuously played throughout
the entity’s Headquarters, and at least 7,000 employees have seen the
training. Investigators also conduct Fraud Awareness Briefings. Using video
teleconference capabilities, briefing attendance ranges from twenty employees
to six hundred. OIG Hotline submissions significantly increased with the
organization’s renewed emphasis on fraud awareness.

Defense Logistics Agency OIG, Audit Division. The Audit Division consists of
a blend of staff members with diverse audit experiences that include other DoD
audit organizations, private industry, and public accounting. As a result, fraud
brainstorming sessions are enhanced through the team’s collective knowledge and
prior work experiences. Some offices prepare read-ahead briefing materials to
encourage team members to think about fraud schemes and indicators before
the brainstorming sessions and less senior auditors are required to review the
DoD OIG Fraud Webpage27 to enhance their fraud awareness. Types of information
included in the pre-meeting briefing materials are the Defense Logistics Agency
Management Internal Control Program, Statement of Assurance, AICPA and GAGAS
guidance, and relevant ACFE fraud indicators. To promote discussion, members
are encouraged to share their ideas, and an open forum approach is established.
A fraud risk assessment template is used to summarize topics discussed during
the brainstorming session and record ideas about potential fraud.

Defense           Logistics      Agency        OIG,     Investigations   Division.   The   organization
prepares an Annual Crime Vulnerability Assessment Plan. The plan’s development
begins with an informal meeting with Investigations senior management to
discuss fraud indicators and trends. Risk rankings of high, medium, or low are
assigned to each fraud category. The assessment results are shared with the
Defense Logistics Agency Director, Senior Executive Board, and Investigations staff
as a method to communicate priorities for the upcoming year. Investigations
works closely with OIG Audit Division when performing their work. The ongoing
partnership between the OIG components contributes to their success at detecting
and preventing fraud.




	 27	
        www.dodOIG.mil/resources/fraud/fraud_defined.html




                                                                                                      DODIG-2014-094│ 79
Summary of DoD and External
Organizations’ Fraud Initiatives


                 Defense Logistics Agency, Office of General Counsel. The Office of General Counsel
                 is an active member in the Counterfeit Parts Working Group.28 Members include
                 representatives from various DoD organizations and other Federal agencies such as
                 Customs and Border Protection. Price, item, and supply are identified as significant
                 fraud risks for counterfeit parts.                         DoD works with external vendors to develop
                 statistical models to identify high risk areas and suppliers. The Defense Logistics
                 Agency anti-fraud program has been in place for more than 20 years and includes
                 on-line mandatory counterfeit parts training for all employees.

                 DoD OIG, Office of the Deputy Inspector General for Audit. The organization
                 developed a predictive analytics pilot program using advanced data mining
                 techniques. Program benefits included:

                                 •	 increased internal and external collaboration and transparency,

                                 •	 expanded accessibility and controls,

                                 •	 verified audit and investigation outcomes, and

                                 •	 consistent methodology and analysis techniques.

                 Planned focus areas were targeted at detecting fraud indicators in contracting,
                 travel, and purchase card programs. Pilot participants included representatives
                 from numerous DoD OIG components such as Audit, Defense Criminal Investigative
                 Service, Information Systems Directorate, Hotline, and Office of General Counsel.

                 DoD OIG, Defense Criminal Investigative Service. This organization is the
                 primary investigative arm of the DoD OIG and focuses its efforts on criminal/civil
                 investigations involving the following areas: (1) procurement fraud and public
                 corruption; (2) product substitution; (3) health care fraud; (4) illegal technology
                 transfers, and (5) computer crime. From October 1, 2012 through March 31, 2013,
                 the Defense Criminal Investigative Service investigations resulted in criminal fines,
                 penalties, restitutions, and forfeitures totaling $717.8 million. Defense Criminal
                 Investigative Service representatives also participate as members of the National
                 Intellectual Property Rights Center.




                 	 28	
                         The mission of the Counterfeit Parts Working Group is to detect and mitigate the risk of counterfeit parts within the
                         DoD supply chain.




80 │ DODIG-2014-094
                                                                                Summary of DoD and External
                                                                               Organizations’ Fraud Initiatives


DoD OIG, Office of the Deputy Inspector General for Policy and Oversight.
The Investigative Policy and Oversight component was designated as the component
responsible for receiving contractor disclosures in 2008. The Contractor Disclosure
Program supports DoD’s efforts to minimize the impact of fraud and criminal
misconduct in areas such as counterfeit parts and materials, product substitution,
and labor mischarging by:

        •	 affording contractors a means of reporting certain violations of
              criminal law and violations of the civil False Claims Act and
              suspected counterfeit/nonconforming parts discovered during self-
              policing activities;

        •	 providing a framework for government verification of matters disclosed; and

        •	 providing an additional means for a coordinated evaluation of
              administrative, civil, and criminal actions appropriate to the situation.

During FY 2012 and 2013, 451 disclosures were received.

DoD OIG, Office of General Counsel. The organization supports the Defense
Criminal Investigative Services’ fraud investigative mission. Additionally, attorneys
serve as liaison between DoD law enforcement agencies and fraud counsel at other
DoD organizations including the Army and the Defense Logistics Agency. Staff
members teach a variety of topics at the Defense Investigative Services’ Special Agent
Basic Training such as ethics, Freedom of Information Act, and subpoenas.
The organization also played a role in developing suspension and debarment training
for DoD law enforcement personnel.

DoD Procurement Fraud Working Group. The DoD Procurement Fraud Working
Group is an ad hoc group composed of more than 30 members from various
DoD organizations including; the four Defense Criminal Investigative Organizations,
the   three     military   service      audit   organizations,   the   four  DoD  Suspension
and Debarment offices, the Defense Contract Management Agency, Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics, and the
Defense Contract Management Agency. In addition, representatives from the
following non-DoD entities attend, Central Intelligence Agency, OIG, National
Aeronautics      and    Space        Administration,   OIG,   Intelligence   Community     OIG,
Department of Justice – Criminal Division and Civil Division, and the U.S. Coast
Guard. Monthly meeting focus on a wide range of procurement related topics,
including proposed/new legislation, as well as emerging fraud trends. Until the




                                                                                              DODIG-2014-094│ 81
Summary of DoD and External
Organizations’ Fraud Initiatives


                 recent budgetary crisis, the Group had hosted an annual, week long fraud seminar
                 that routinely attracted between 150 and 200 attendees that included detailed
                 discussions of fraud and risk assessment related topics.

                 Missile Defense Agency, Mangers’ Internal Control Program. The Accounting
                 Division oversees the Managers’ Internal Control Program. A Risk/Control
                 Assessment     Template     is   designed     to   assist   manager’s    evaluation   and
                 documentation of inherent risks and controls to mitigate the risks. The risk review
                 also includes an assessment of fraud risks. The Missile Defense Agency contracted
                 with an external vendor and developed online training to educate employees about
                 risks, controls, and the Template.

                 Missile Defense Agency, Internal Review. Eighty percent of the auditors are
                 Certified Fraud Examiners and hold certificates of forensic accounting. Staff
                 holding Certified Fraud Examiner designations are required to receive annual
                 fraud training to maintain their certifications. When Internal Review initiates
                 an audit, team leads review Government Accountability Office, DoD OIG, and other
                 Federal Office of Inspectors General reports to identify any fraudulent activity
                 pertaining to the audit topic. Team leads are responsible for reviewing Missile
                 Defense Agency Hotline inquiries and discussing case backgrounds with Internal
                 Review senior management during audit planning.             When instances of fraud or
                 potential fraud are identified, auditors document the information in the project files.
                 All audit programs contain specific steps to test for potential fraud.

                 Missile Defense Agency, Quality, Safety, and Mission Assurance. For counterfeit
                 parts, engineers conduct risk assessments in the form of on-site reviews. Recently,
                 10 Missile Defense Agency contractors and 3 electronic parts distributors were
                 evaluated for counterfeit risk.      For on-site assessments of contractors, a detailed
                 checklist is used to score the contractor’s ability to avoid, detect, contain, and
                 report counterfeit parts and train personnel. Industry best practices were used
                 to develop the checklist categories that included procedures for supplier approval
                 and selection. Answers to checklist questions help the Missile Defense Agency
                 determine the risk of exposure of the agency to counterfeit parts.           The Missile
                 Defense Agency developed counterfeit parts training based upon the results of the
                 assessments and meetings with stakeholders to identify vulnerabilities. The training
                 includes information about the critical impact of counterfeit parts, counterfeit part
                 types, procedures to detect and report suspect irregularities, and Missile Defense
                 Agency and DoD requirements and expectations. .




82 │ DODIG-2014-094
                                                                    Summary of DoD and External
                                                                   Organizations’ Fraud Initiatives


National Geospatial Agency-Intelligence, OIG, Investigations. The Forensic
Analysis Support Team completes an annual risk assessment that emphasizes
the identification of fraud risks. The risk ranking approach begins with a team
brainstorming session designed to generate ideas about vulnerabilities within the
organization. Identified topics are ranked using the following criteria: potential
dollars recovered, project completion time, and impact on fraud deterrence.
Proposed projects are assigned a numeric ranking ranging from a high of five to a
low of one. A weighted score is then assigned to each proposed project. The results
of the fraud risk assessment are used to identify forensic audit projects for the
upcoming year.

Office of the Undersecretary of Defense, Comptroller, Financial Improvement
and Audit Readiness Division. The organization focuses on preparing DoD
entities for financial audits of the Statement of Budgetary Resources. As part of
this effort, personnel make site visits to DoD entities to educate nonfinancial
employees about the importance of internal controls. Another area emphasized is
ensuring that employees document internal control verifications to assist with
audit preparedness.

Tricare Management Activity, Program Integrity Office. The organization is
responsible for all worldwide anti-fraud activities for the Defense Health Program.
About 100 contractor and government subject matter experts including healthcare,
data analytics, and investigative representatives work to identify fraud schemes
and trends. These proactive activities generate numerous referrals to law
enforcement agencies. The organization publishes a newsletter for contractors
to promote early identification of fraud schemes and minimize the loss of
government dollars.   Recognizing the importance of sharing information with the
DoD investigative community, Program Integrity Office representatives attend
and present information at task force meetings and healthcare fraud information
sharing meetings. These meetings foster collaborative anti-fraud efforts across
Government agencies and private organizations.




                                                                                  DODIG-2014-094│ 83
Summary of DoD and External
Organizations’ Fraud Initiatives


                 Department of the Army
                 Army    Audit     Agency.   The   audit   organization     updated   the   Detecting   and
                 Investigating Fraud Course to include training for auditors on conducting fraud
                 risk assessments. The assessment methodology consists of the following steps:

                         •	 Determining relevant fraud risks within the context of audit objectives,

                         •	 Assessing the fraud risk environment,

                         •	 Identifying potential fraud schemes and methods to prioritize based
                            on risk,

                         •	 Mapping existing controls to potential fraud schemes and testing
                            controls, and

                         •	 Testing for fraud.

                 Additional training topics include approaches for working with DoD investigators
                 and prosecutors, and fraud detection tools for auditors.

                 Army Criminal Investigation Command. As part of their training and education
                 efforts, all Army Criminal Investigation Command offices conduct fraud awareness
                 briefings. In FY 2011 and 2012 a total of 665 briefings were completed.
                 The organization recently produced its first anti-fraud commercial, which aired on
                 both the Pentagon Channel and the American Forces Network.  For about 25 years,
                 all 32 Army Criminal Investigations Command offices, including Germany, Korea,
                 and Southwest Asia coordinated annual economic crime threat assessments.
                 These assessments help each office develop approaches to target fraud and also
                 identify high risks for specific geographic areas. Other stakeholders participating
                 in the assessments include AAA, Army Internal Review, and Army Office of Security.
                 Army Criminal Investigative Command Headquarters and field offices worked
                 closely with AAA on numerous Southwest Asia anti-fraud efforts.


                 Department of the Navy
                 Inspector General of the Marine Corps. The purpose of the Risk and
                 Opportunity Assessment is to provide the Marine Corps’ input to the Navy
                 Oversight Planning Board. The Board identifies and develops major risk categories
                 within the Department of the Navy. The overarching risks are the susceptibility to
                 fraud, waste, abuse, inefficiency, mismanagement, and statutory and regulatory




84 │ DODIG-2014-094
                                                                               Summary of DoD and External
                                                                              Organizations’ Fraud Initiatives


noncompliance. Direction for the assessment is provided by the Naval Audit
Service and Naval OIG. The IG of the Marine Corps’ input is based on the input
of subordinate units. The organization also performs assessments of Marine
Corps activities with multidisciplinary teams including representatives from the
Readiness Division, IG of the Marine Corps, Counsel’s Office, and Naval Audit Service.

Marine    Corps    Nonappropriated       Funds      Audit    Service.   The    organization’s
auditors remain current on fraud trends through office subscriptions to ACFE,
AICPA, and IIA publications. Auditors have access to software that allows them
to view cashier activity and identify fraud indicators such as unusual refunds
or purchases. Detailed fraud risk assessments, which include analysis of prior
audit results, interviews with management, and internal control evaluations are
performed    during    all   audit   engagements.    Audit    Directors   from     MCNAFAS,
AAFES, and NEXCOM meet annually to discuss emerging fraud trends and
significant events occurring within their organizations.

Marine Corps Risk and Compliance. The effectiveness of the Marine Corps
Managers’ Internal Control Program contributes to its success at audit
preparedness. The Program requires resources to be used in compliance
with laws and regulations, and with minimal potential for waste, fraud, and
mismanagement.        Effective   internal   controls   provide    reasonable      assurance
that significant weaknesses in the design of program processes or inherent
program weakness can be prevented or detected in a timely manner.

Naval Audit Service. Approximately 10 years ago, the Auditor General, Naval
Audit Service, created the Internal Control, Contracting, and Investigative Audits
Division. This team was established to blend the unique skills of the Naval
Audit Service and Naval Criminal Investigative Service to deter, detect, and prevent
fraud within the Department of the Navy. The Naval Audit Service devotes about
20 percent of its resources to support Naval Criminal Investigative Service
Investigations annually.

The fraud risk assessment approach consists of brainstorming sessions and reviews
of the internal control framework. Auditors identify internal control weaknesses to
determine whether controls are in place to detect or prevent fraud. When a team’s
brainstorming session indicates that the potential for fraud is significant, they
obtain additional technical guidance from the Assistant Auditor General, Internal
Control, Contracting, and Investigative Support Audits Division. Auditors and




                                                                                             DODIG-2014-094│ 85
Summary of DoD and External
Organizations’ Fraud Initiatives


                 Executive Assistants are required to complete a Fraud Risk Assessment Checklist
                 for all audits. This checklist is designed to ensure that auditors consider fraud
                 risks and documented the results of their work during each engagement.

                 Naval Criminal Investigative Service. During FY 2011 and 2012, the Naval
                 Criminal Investigative Service provided fraud awareness briefings to more than
                 42,000 individuals. Within the past year and a half, the organization developed
                 its Text a Tip program. This program enables people to submit anonymous fraud
                 tips through text messaging. Tipsters submit information to a service provider,
                 which then forwards the text message to a Naval Criminal Investigative Service
                 representative. The technology enables tipsters to communicate directly with the
                 law enforcement agency, in real time, without revealing their identities. The entity’s
                 approach to assessing fraud risk is broadly based on information received from
                 personnel at contiguous United States and overseas locations.

                 Naval Sea Systems Command. NAVSEA OIG’s entity-wide fraud program is based
                 on guidance developed by the ACFE. The integrated approach consists of
                 policies, oversight, training, and execution. The following topics are emphasized
                 in the NAVSEA OIG anti-fraud acquisition program:

                         •	 Code of Ethics

                         •	 Fraud Prevention Policies

                         •	 Communication and Training

                         •	 Fraud Risk Assessment

                         •	 Controls Monitoring

                         •	 Fraud Response Team

                 Representatives from the Contract Fraud Risk Assessment and Mitigation Branch
                 facilitate fraud risk assessments at local commands. During the meetings, contract
                 processes, internal control weaknesses, and fraud schemes are identified through
                 discussions with process owners. The fraud risk assessments help to educate
                 participants about fraud risk and increase their awareness of fraud. Reports
                 documenting the identified vulnerabilities are sent to each command.




86 │ DODIG-2014-094
                                                                             Summary of DoD and External
                                                                            Organizations’ Fraud Initiatives


Navy Exchange Service Command. Within the past 4 years, the Office of Internal
Audit has facilitated about 30 CSAs at contiguous United States and overseas
locations.   CSAs help to identify fraud risks, vulnerabilities, and opportunities to
improve existing controls. During the assessments, the following goals are achieved:

         •	 identify management’s objectives,

         •	 brainstorm risks to include discussions about what could go wrong,

         •	 map processes and controls in place to reduce risks and identify gaps,

         •	 assess risk,

         •	 formulate risk rankings, and

         •	 identify potential solutions to identified vulnerabilities.

The CSA process helps in mitigating the risk of potential fraud and educates
employees about the importance of internal controls.

Navy Risk Management and Compliance Branch. As required by the DoD
Managers’ Internal Control Program, the Risk Management and Compliance Branch
facilitates a fraud risk assessment of the Navy’s Statement of Budgetary Resources.
Participants consist of employees from diverse disciplines with a wide range of
knowledge about Navy operations. A top-down approach, consisting of both
qualitative and quantitative measures, is used to identify fraud vulnerabilities.
Brainstorming sessions are conducted to discuss business operations, internal
control vulnerabilities, and potential fraud schemes. A risk scoring model is used
to evaluate the likelihood of potential fraud and develop approaches for internal
control testing. The Risk and Compliance Branch conducts about 10 fraud risk
briefings annually. Fraud briefings are tailored to address each business unit’s
unique   fraud   vulnerabilities.   The    Department     of   the   Navy   developed    the
Commander’s Checklist for Audit Readiness to assist with educating employees
about the importance of internal controls in mitigating fraud.




                                                                                           DODIG-2014-094│ 87
Summary of DoD and External
Organizations’ Fraud Initiatives


                 Department of the Air Force
                 Air Force Audit Agency. Air Force Audit Agency developed a 2-hour, internet-based
                 fraud risk assessment training course.                               The course is accessible on Defense
                 Connect Online.29 The course includes information for auditors about requirements
                 for conducting and documenting fraud risk assessments.                                       Air Force Audit Agency
                 also provides staff fraud training to include guidance on ways to support Air Force
                 Office of Special Investigations during an investigation.

                 Air Force Office of Special Investigations. Air Force Office of Special
                 Investigations            completed           an     entity-wide          threat       assessment          during        2013.
                 A       second        assessment          will     be     conducted         during        2014.  The           purpose        of
                 the        assessment           was      to      provide       senior        management            information           about
                 vulnerabilities and risks to the organization.  Areas analyzed during the review
                 were a 5-year trend analysis of fraud cases, identification of all program offices and
                 their related products, consideration of schemes that could potentially threaten
                 a program, and total expenditures for each program.  In the future, other DoD
                 organizations with differing areas of expertise will be invited to participate in the
                 threat assessment.  The organization is developing an on line fraud training course,
                 which will be a mandatory requirement for all employees.  Additionally, the
                 Air Force Office of Special Investigations has historically conducted regional
                 economic crime threat assessments, and has developed strong partnerships
                 with both the Air Force acquisition community and legal community.  The Air
                 Force acquisition, legal, and law enforcement components have worked together
                 to provide fraud training for acquisition officers.

                 At Joint Base Elmendorf, Richardson, Alaska, the Air Force Office of Special
                 Investigations, implemented the Fraud Installation Working Group. Participating
                 members include law enforcement representatives, Air Force Audit Agency,
                 Air Force OIG, attorneys, nonappropriated fund accountants, contracting officials,
                 and representatives from AAFES and the Defense Commissary Agency. The group
                 holds quarterly meetings to discuss emerging fraud trends at contiguous
                 United States and overseas locations. Brainstorming sessions are conducted to
                 generate ideas about where and how fraud could occur at the Base.  Similar
                 working groups are also active at                          other locations within the United States and
                 overseas locations that include Germany and the United Kingdom.  A variety of
                 subject matter expers are recruited                            to serve as members at each location to
                 assist in preventing and detecting fraud throughout the Air Force.

                 	29	
                        Defense Connect Online is a DoD collaborative tool that includes web conferencing, video application, and desktop sharing.




88 │ DODIG-2014-094
                                                                             Summary of DoD and External
                                                                            Organizations’ Fraud Initiatives


External Organizations
American Institute of Certified Public Accountants. The AICPA Internal Audit
and Security Directorate completes an annual fraud risk assessment. Team members
meet with high-level stakeholders and discuss their perceived risks and future
trends. During the meetings, auditor’s questions focus on the effectiveness of
internal controls and the control environment to identify potential fraud risks.
Interviewees are also asked to provide information about perceived fraud risks
within other components. This information is then compared to the AICPA’s
strategic plan to identify situations when management’s goals do not align with
the organization’s overall business objectives.

Association of American Medical Colleges. AAMC auditors use the annual
entity-wide risk assessment as a method to teach employees about fraud and
increase fraud awareness. The annual risk assessment includes both quantitative
and qualitative assessments of fraud risks. During the quantitative assessment,
business unit representatives are asked to consider whether fraud could occur
within their areas. This approach helps to stimulate discussion and get employees
thinking    about     fraud.   Participants   are   also   required   to   consider   impact
and opportunity when rating fraud risks. The qualitative component of the risk
assessment consists of an on-line Risk Assessment Survey which is sent to all risk
assessment participants. Survey participants are able to respond anonymously
and report suspected fraud or fraud risks. The survey tool also provides information
about internal control improvement opportunities within the organization.

Council of the Inspectors General on Integrity and Efficiency Training Institute.
The CIGIE Training Institute provides specialized training to a cross-section of the
OIG community and auditors, inspectors, criminal and administrative investigators,
Hotline operators, attorneys, and others from CIGIE affiliated agencies. Several of
the Training Institute’s programs contain blocks of instruction specifically dedicated
to procurement fraud, its anatomy, uniqueness, risk to the Government, and
detection methods. The Training Institute also provides assistance at several
Federal government seminars and conferences where procurement fraud and its
risk are discussed.

Grant Thornton. The Grant Thornton approach for conducting fraud risk
assessments consists of specific procedures such as:

           •	 Conducting brainstorming sessions during audit planning to discuss
             ways in which fraud might occur.         Participants vary depending on the



                                                                                           DODIG-2014-094│ 89
Summary of DoD and External
Organizations’ Fraud Initiatives


                              audit objectives and include experts in the areas of forensic auditing,
                              information technology, economists, and actuaries.

                            •	 Asking management, those charged with governance, internal auditors,
                              and others within the organization for information about potential fraud
                              and fraud risks.

                            •	 Documenting an understanding of internal controls designed to prevent
                              or detect fraud.

                            •	 Testing to include making relevant inquiries about management override
                              of controls.

                 KPMG Forensic Practice. KPMG Forensic Practice developed “Fraud Risk
                 Management, Developing Strategies for Prevention, Detection, and Response” as
                 a guide for conducting organization-wide fraud risk assessments. KPMG includes
                 forensic    specialists     on   all   Federal   financial   statement   audit   engagements.
                 During organization risk assessments, clients are asked to provide information
                 about perceived risks by answering the question; “What keeps you up at night?”
                 For clients that have undergone prior audits, forensic reviews are tailored to
                 include perceived fraud risks and past audit results. To ensure productive audit
                 fraud brainstorming sessions, partners emphasize the importance of professional
                 skepticism and require participation from an individual with fraud experience.

                 Smart Insights Group, LLC. The organization’s approach to fraud prevention
                 and detection is summarized with the acronym EATTing, which stands for
                 Education, Awareness, Testing, and Training. During fraud training, scenarios are
                 performed live by staff and participants are asked to describe the fraud indicators
                 they observed. An end-to-end assessment of the procurement lifecycle is used to
                 assess the risk of fraud. When evaluating the overall impact that fraud has within
                 an organization, the following areas are considered:

                            •	 fraud scheme classification,

                            •	 fraudster profile,

                            •	 median loss to the business, and

                            •	 duration of scheme.

                 State of Florida, OIG. The Chief OIG used electronic polling software to determine
                 the effectiveness of the state’s ethics program. The Florida State OIGs and Agency
                 managers conducted an entity-wide risk assessment to determine the auditability of
                 state programs. During the review, OIGs were paired with agency managers, based


90 │ DODIG-2014-094
                                                                           Summary of DoD and External
                                                                          Organizations’ Fraud Initiatives


on their subject matter expertise, to conduct brainstorming sessions about fraud
risks. The teams considered the results of the ethics poll, past fraud findings, and
prior investigations during the sessions. The entity-wide risk assessment identified
high-risk programs and audit topics that would improve state agency operations.

State of North Dakota, Office of the State Auditor. Fraud risk assessments
are conducted about every 2 years by 80 state agencies. The fraud risk
assessment program is administrated by the State of North Dakota, Office of
Management and Budget, and mandatory participation by each division and/or
function is required. Participants include personnel from Finance and Accounting,
Human    Resources     Management    (payroll),   Purchasing     and   Contracting,   and
Information Technology. The Office of the State Auditor reviews each assessment
and makes recommendations for improvements, as needed. The assessments
consist of a standardized fraud risk assessment template and questionnaires
designed to evaluate an agency’s control environment and computer security policies
and procedures.

Texas   Tech      University   System.   Auditors   at   Texas     Tech   developed    an
organization-wide fraud risk assessment approach called the Perception-Based
Approach for Assessing Fraud Risk. Auditors act as facilitators during each fraud
risk assessment session. Experienced employees and subject matter experts at
each campus are invited to participate and share their perceptions about fraud
risks. Auditors develop a Glossary of Fraud Schemes based on the ACFE’s Fraud
Examiner’s Manual. During the meetings, auditors explain each scheme to
participants and describe how fraud could occur at their campus. Participants
use electronic polling software to anonymously rank the fraud schemes using
attributes such as materiality and likelihood. The auditors report the results
of the assessments to Texas Tech management. Findings from the fraud risk
assessments are used to develop fraud awareness training for employees.

University System of Georgia, Board of Regents. The audit organization
maintains a list of past frauds occurring at all University locations. When
performing an audit in a related area, team members frequently duplicate past
procedures to increase the likelihood of detecting fraud. Auditors that worked on
prior fraud cases often participate in the current fraud risk assessment to promote
transfer of talent among staff. Team members also consider the number and
frequency of human resources complaints because they previously observed a
high correlation between complaints and increased risk of fraud.




                                                                                         DODIG-2014-094│ 91
Summary of DoD and External
Organizations’ Fraud Initiatives


                 University of Georgia, Terry College of Business. The University partnered with
                 the American Accounting Association and conducted extensive research to identify
                 best practices for conducting auditor fraud brainstorming sessions. Studies showed
                 that several factors enhanced the effectiveness of auditor brainstorming sessions
                 such as whether the session was led by a partner or forensic specialist, the extent of
                 discussions about how management might perpetrate fraud, and discussions about
                 audit responses to fraud risk. Research revealed that the use of numeric risk
                 rankings is more effective when compared to the frequently used risk rankings of
                 high, medium, or low.30

                 Yale New Haven Health System. Yale New Haven Health System outsourced its
                 Internal Audit Function to Deloitte, LLP. The entity completes an annual entity-wide
                 risk assessment, which includes an evaluation of fraud risk.                                        Internal Audit also
                 performs an annual risk assessment which includes interviews with executives to
                 assess fraud risk. Based on the results of the interviews and identification of fraud
                 risks, Internal Audit develops a survey. The survey is sent to all employees, and
                 anonymous responses are permitted. Demographic queries such as department,
                 supervisory or nonsupervisory employees, are documented to assist with analyzing
                 responses. Follow-up interviews are then conducted, which focus on higher fraud
                 risk areas and activities.




                 	30	
                        American Accounting Association, “Auditors’ Use of Brainstorming in the Consideration of Fraud: Reports from the Field,”
                        Joseph F. Brazel, North Carolina State University, Tina D. Carpenter, University of Georgia, J Gregory Jenkins,
                        Virginia Polytechnic Institute and State University, 2010.




92 │ DODIG-2014-094
                                                                                           Appendixes


Appendix A
Scope and Methodology
This review was self-initiated. We conducted 100 interviews with subject matter
experts, representing 45 organizations from the public and private sectors to
identify approaches for assessing fraud risk, developing fraud awareness training
programs, and obtaining information about fraud indicators and schemes. Subject
matter experts included auditors, forensic auditors, investigators, attorneys,
academics, and engineers. Interview question responses were evaluated to identify
the most effective approaches for establishing fraud risk assessment programs
and conducting fraud risk assessments for auditors. Additionally, we conducted
background research to identify established approaches for both public and private
sector organizations. The following organizations participated in the review:


Department of Defense
        •	 Army and Air Force Exchange Service, Audit Division

        •	 Defense Commissary Agency, OIG, Audit Division

        •	 Defense Contract Management Agency, Contract Integrity Center

        •	 Defense Contract Management Agency, Internal Review

        •	 Defense Information Systems Agency, OIG, Audit

        •	 Defense Information Systems Agency, OIG, Investigations

        •	 Defense Logistics Agency, OIG, Audit Division

        •	 Defense Logistics Agency, OIG, Investigations Division

        •	 Defense Logistics Agency, Office of General Counsel

        •	 DoD OIG, Office of the Deputy Inspector General for Audit

        •	 DoD OIG, Office of the Deputy Inspector General for Policy and Oversight

        •	 DoD OIG, Office of General Counsel

        •	 DoD OIG, Defense Criminal Investigative Service

        •	 Missile Defense Agency, Managers’ Internal Control Program




                                                                                      DODIG-2014-094 │ 93
Appendixes


                       •	 Missile Defense Agency, Internal Review

                       •	 Missile Defense Agency, Quality, Safety, and Mission Assurance

                       •	 National Geospatial Agency-Intelligence, OIG, Investigations

                       •	 Office of the Under Secretary of Defense, Comptroller, Financial
                         Improvement and Audit Readiness

                       •	 Office of the Under Secretary of Defense, Acquisition, Technology, and
                         Logistics, Defense Procurement and Acquisition Policy

                       •	 Tricare Management Activity, Program Integrity Office

                 Department of the Army
                       •	 Army Audit Agency

                       •	 Army Criminal Investigation Command

                 Department of the Navy
                       •	 Office of Inspector General Marine Corps

                       •	 Marine Corps Nonappropriated Funds Audit Service

                       •	 Marine Corps Risk and Compliance

                       •	 Naval Audit Service

                       •	 Naval Criminal Investigative Service

                       •	 Naval Sea Systems Command, Office of the Inspector General

                       •	 Navy Exchange Service Command, Office of Internal Audit

                       •	 Risk Management and Compliance Branch

                 Department of the Air Force
                       •	 Air Force Audit Agency

                       •	 Air Force Office of General Counsel

                       •	 Air Force Office of Special Investigations




94 │ DODIG-2014-094
                                                                                            Appendixes


Other Organizations
     •	 American Institute of Certified Public Accountants

     •	 Association of American Medical Colleges

     •	 Council of the Inspectors General on Integrity and Efficiency, Training Institute

     •	 Grant Thornton

     •	 KPMG Forensic Practice

     •	 Smart Insights Group, LLC

     •	 State of Florida, OIG

     •	 State of North Dakota, Office of the State Auditor

     •	 Texas Tech University System

     •	 University of Georgia, Board of Regents

     •	 University of Georgia, Terry College of Business

     •	 Yale New Haven Health System




                                                                                       DODIG-2014-094 │ 95
Appendixes


                 Appendix B
                 Example Naval Audit Service Performance Audit Fraud
                 Risk Policy
                      1.	   Areas Susceptible to Fraud

                            a.	 GAGAS requires that in planning performance audits, auditors should
                               assess risks of fraud occurring that are significant within the context
                               of the audit objectives.

                               •	 Audit team members should discuss, among the team, fraud
                                  risks, including factors such as individuals’ incentives or pressures
                                  to commit fraud, the opportunity for fraud to occur, and
                                  rationalizations or attitudes that could allow individuals to
                                  commit fraud.

                               •	 Auditors should gather and assess information to identify risks of
                                  fraud that are significant within the scope of the audit objectives or
                                  that could affect the findings and conclusions. For example,
                                  auditors may obtain information through discussions with officials
                                  of the audited entity, or through other means to determine the
                                  susceptibility of the program to fraud, the status of internal
                                  controls the entity has established to detect and prevent fraud or
                                  the risk that officials of the audited entity could override internal
                                  controls. An attitude of professional skepticism in assessing these
                                  risks assists auditors in assessing which factors or risks could
                                  significantly affect the audit objectives.

                               •	 When auditors identified factors or risks related to fraud that
                                  has occurred, or is likely to have occurred, that they believe are
                                  significant within the context of the audit objectives, they should
                                  design procedures to provide reasonable assurance of detecting
                                  such fraud. Assessing the risk of fraud is an ongoing process
                                  throughout the audit and related not only to planning the audit
                                  but also to evaluating evidence obtained during the audit.




96 │ DODIG-2014-094
                                                                            Appendixes


   •	 When information comes to the auditors’ attention that indicates
     that fraud significant within the context of the audit objectives
     may have occurred, auditors should extend the audit steps and
     procedures, as necessary, to determine whether fraud has likely
     occurred and if so, determine its effect on the audit findings.
     The audit managers should inform senior audit management of
     the potential fraud before extending their audit steps and
     procedures, and use their professional judgment in determining
     the nature and extent of additional audit steps and procedures
     to be performed. Each audit is unique, and any additional
     procedures performed should be determined on a case-by-case
     basis. As determined necessary, audit managers should also
     consider consulting with the agency Fraud Monitor for guidance.

   •	 If the fraud that may have occurred is not significant within the
     context of the audit objectives, the auditors should immediately
     make their chain of command aware of the potential fraud. Audit
     management will decide whether to address the potential fraud
     as part of the ongoing effort, or as a spin off audit effort by the
     same or another audit team. With senior audit management
     approval, a decision may be made to refer the matter to other
     parties with oversight responsibility or jurisdiction.

b.	 Auditors should never conclude that because an activity has good
   internal controls, it is unlikely that fraud exists. In any audited
   program, seemingly good internal controls can fail, (e.g., management
   and employees can inappropriately bypass or override internal
   controls, and a changing environment or collusion can cause
   internal controls to be ineffective in preventing fraud). Auditors
   need to consider in advance of site visits potential fraud schemes
   that could apply, and be aware of red flags that could be indicative
   that fraud may have occurred. Auditors must complete the Fraud
   Risk Matrix when performing their work.

c.	 When auditors identify factors or risks related to fraud that has
   occurred, or is likely to occur, that they believe are significant
   within the context of the audit objectives, they should design
   procedures to provide reasonable assurance of detecting such fraud.




                                                                       DODIG-2014-094 │ 97
Appendixes


                         If subsequent to the completion of the fraud risk assessment,
                         information comes to the auditors’ attention that fraud may have
                         occurred that is significant within the context of the audit
                         objectives, auditors should extend the audit steps and procedures, as
                         necessary, to determine whether the fraud has likely occurred, and
                         if so, determine its effect on the audit findings.

                      d.	 As part of the fraud risk assessment, the audit team should
                         identify those aspects of the planned work that involve potential
                         fraud that could significantly impact the results of the audit.
                         The team should prepare a work paper documenting the
                         completion of the fraud risk assessment, including the results
                         of the fraud risk assessment, and the impact of fraud risks on the
                         nature, timing, and extent of audit procedures.

                      e.	Monitoring       Fraud   Risk    Assessments.        In   order   to   ensure
                         documentation of compliance with GAGAS and agency standards
                         for fraud risk assessments, Executive Assistants are required
                         to monitor fraud risk assessments for each audit and work with
                         auditors as needed to ensure that the audit team understands
                         the requirements in the fraud risk assessment process.

                         (1)	 A Fraud Risk Assessment Checklist has been developed to
                              ensure completeness and consistency for conducting fraud
                              risk assessments. The checklist is to be completed by both the
                              audit teams and the Executive Assistants.

                              •	 The audit team will complete the work paper reference
                                 column in order to assist Executive Assistants in their review
                                 of fraud risk assessments. Audit teams are encouraged to
                                 complete the checklist and send it to their Executive Assistant
                                 for review as early in the audit process as possible to avoid
                                 a delay in issuing the report.

                              •	 Executive Assistants will review the referenced documentation
                                 and place a checkmark in the appropriate column for each
                                 audit,   verifying    whether     the   referenced    work     paper
                                 documentation supports completion of the corresponding
                                 GAGAS requirement.




98 │ DODIG-2014-094
                                                                                          Appendixes


      (2)	 Special Concerns for Surveys of Major Procurement and Contract
           Administration Functions

           During     the   survey   phase   of   major   procurement   and   contract
           administration audits, auditors should determine the existence and
           consider the impact of audits issued by the Defense Contract Audit
           Agency. Such reports should be available at the command under review.
           If not, copies should be requested. Auditors should also determine
           during the survey phase whether any related contracts are administered
           by organizations other than the Department of the Navy, such as:
           Defense Contract Management Agency, Department of the Army, or
           Department of the Air Force.

Fraud Risk Assessment Checklist
Monitoring Fraud Risk Assessments
To ensure documentation of compliance with GAGAS and internal standards for fraud
risk assessments, Executive Assistants, or other audit organization designees, are
required to monitor the fraud risk assessment for each audit and work with
auditors as needed to ensure that the audit team understands the requirements
in the fraud risk assessment process. All Executive Assistants must complete the
Fraud Risk Assessment Checklist for each audit and certify completion of this
requirement on the Referencing Certification form. All questions are to be answered
by going to source work papers (not summary work papers).

The first three items on the checklist are mandatory for every audit. The audit
team should complete the Work Paper Reference column, and the reviewer must
indicate “Yes” or “No” as applicable. The last two questions are applicable to the
Executive Assistant only if fraud risk indicators were identified. If the team did
not identify any fraud risk indicators, they should list “N/ A” in the Work Paper
Reference column for those questions.

Questions that initially result in a “No” require the Project Manager to take
appropriate action.     If corrective action is taken by the Project Manager, the
Executive Assistant should then change the ”No” to ”Yes.” All unresolved issues
must be elevated to the Assistant Auditor General.




                                                                                     DODIG-2014-094 │ 99
Appendixes


                 Table B-1. Auditor Fraud Checklist

                                                                                  Workpaper
                                            Question                                          Yes   No
                                                                                  Reference
                   1.	 In planning the audit, did the audit team assess
                       risks of fraud occurring that is significant within the
                       context of the audit objectives? (GAGAS 6.30)
                   2.	 Did the auditors document the discussion of fraud
                       risks among the team members? (GAGAS 6.30)
                   3.	 Did the team thoroughly document the fraud risk
                       assessment, including audit procedures performed
                       evidence obtained, and conclusions reached that
                       support the auditors' conclusion on fraud risk?
                       (GAGAS 6.79)
                   4.	 If auditors identified factors or risks related to fraud
                       that has occurred or likely to have occurred that
                       they believe are significant within the context of the
                       audit objectives, did the team design procedures to
                       provide reasonable assurance of detecting fraud?
                       (GAGAS 6.31)
                   5.	 If there are indications that fraud that is significant
                       within the context of the audit objectives may have
                       occurred, did the auditor extend the audit steps and
                       procedures to: (1) determine whether fraud has
                       likely occurred, and (2) if so, determine its effect on
                       the audit findings? (GAGAS 6.32)
                 Note: Boxes Highlighted in Yellow Must be Completed


                 Example Draft and Final Report Cross-Referencing and
                 Referencing Certification
                 Prior to release or issuance of the draft report, I completed the Fraud Risk
                 Assessment Checklist to ensure the fraud risk assessment has been completed and
                 that it contains documentation of compliance with GAGAS and agency policies
                 and procedures.

                 Signature:

                 Executive Assistant, or

                 Other Organization Designee Signature:


                 Performance Audit Tool: Fraud Risk Matrix – Considering Whether Fraud is
                 Significant to Performance Audit Objectives
                 The team should answer the following questions as part of their consideration of
                 the risks due to fraud that could significantly affect their audit objectives and the
                 results of their audit. When responding to the questions below, consider that
                 some activities are more susceptible to fraud than others. For example, if the



100 │ DODIG-2014-094
                                                                                                             Appendixes


audit objective focuses on the authorized use of purchase cards, fraud could be
significant to the audit objectives if the program lacked adequate internal controls
over the possession and use of purchase cards.

Table B-2. Auditor Fraud Risk Matrix

                                                                                    If “Y(es),” the
                                                                                    risk of fraud is
                                                                                     relevant and
                      Consideration of Risk Due to Fraud                              potentially
                                                                                  significant to the
                                                                                  audit objectives
 1.	 In the team’s judgment, was the program or activity covered by the audit
     objectives susceptible to a significant risk of fraud from:
     •	 Misappropriation or misuse of program assets; or
     •	 Misstatement or misrepresentation of program information or
        results in order to obtain or continue receiving government funding
        or benefits?
 2.	 Did the team identify conditions, such as the following, that might
     indicate a heightened risk of fraud?
     •	 The entity’s financial stability, viability, or budget is threatened by
        economic, programmatic, or entity operating conditions;
     •	 The nature of the audited entity’s operations provided opportunities to
        engage in fraud;
     •	 Poorly designed internal controls that provide the opportunity for
        fraud to occur and not be identified by existing management and
        oversight processes;
     •	 Weak management that fails to enforce existing internal controls or
        provide adequate oversight over the control process;
     •	 Inadequate separation of duties, especially those that relate to
        controlling and safeguarding resources;
     •	 Inadequate monitoring by management for compliance with policies,
        laws, and regulations;
     •	 The organizational structure is unstable or unnecessarily complex;
     •	 Transactions that are out of the ordinary and are not satisfactorily
        explained, such as unexplained adjustments in performance or
        financial information;
     •	 Repeated use of sole-source contracting;
     •	 Instances when employees of the audited entity refused to take
        vacations or accept promotions;
     •	 Lack of communication and/or support for ethical standards
        by management;
     •	 Management has a willingness to accept unusually high levels of
        risk in making significant decisions;
     •	 A history of impropriety, such as previous issues with fraud, waste,
        abuse, or questionable practices, or past audits or Investigations
        with findings of questionable or criminal activity;
     •	 Operating policies and procedures have not been developed or
        are outdated;
     •	 Key documentation is lacking, altered, does not exist, or there are
        unexplained delays in providing information;




                                                                                                       DODIG-2014-094 │ 101
Appendixes


                                                                                                     If “Y(es),” the
                                                                                                     risk of fraud is
                                                                                                      relevant and
                                        Consideration of Risk Due to Fraud                             potentially
                                                                                                   significant to the
                                                                                                   audit objectives
                       •	 Lack of asset accountability or safeguarding procedures;
                       •	 Improper payments;
                       •	 False or misleading information;
                       •	 A pattern of large procurements in any budget line with remaining
                          funds at year end, in order to “use up all of the funds available”; or
                       •	 Unusual patterns and trends in contracting, procurement, acquisition,
                          and other activities of the entity or program under audit.
                   3.	 Had the team identified indications of potential fraud in areas that fall
                       outside the audit objectives that could have a significant impact on
                       program or function operations or reputation? (Use the same indicators
                       discussed in question 2 in making this assessment.)
                   4.	 Had the team identified strong indications that potential fraud occurred,
                       regardless of significance to the audit objectives, that could pose a
                       reputation risk to the Department of the Navy if exposed to
                       the public?


                 Procedures for Coordinating with Other Organizations
                 The audit team should determine whether the OIG for the activity being audited
                 has identified through investigations or other means any questionable or criminal
                 activity in the program that is significant to the audit objectives and whether there
                 have been any Hotline or other complaints related to the audit objective. This
                 may be accomplished through inquiry and/or a review of any applicable Hotline
                 complaints, published investigation reports, or other written documents. The
                 audit team should coordinate with their chain of command to determine if they
                 have received copies of any Hotline complaints or referrals that are significant
                 either to the audit objectives or that identify potential fraud, and are outside the
                 potential objectives. Auditors must include a slide in the 90-day survey briefing for
                 senior audit management that discusses the results of the fraud risk assessment.


                 Actions Required if There Are Indications of Fraud
                 If the auditors answered “Yes” to question 1, 2, 3, or 4 in Table B-2, or if the
                 auditors identified other indications of fraud during coordination with the activity
                 OIG, Fraud Monitor, or any other individual they should inform senior audit
                 management. The Fraud Monitor will be available (as requested) to meet with the
                 Project Manager and/or Audit Director to discuss any potential fraud issues.




102 │ DODIG-2014-094
                                                                                         Appendixes


Additional Audit Program Requirements
When the auditors identified factors or risks related to fraud that has occurred,
or is likely to have occurred, that they believe are significant within the context
of the audit objectives, they should design procedures to provide reasonable
assurance of detecting such fraud. If subsequent to the completion of the fraud risk
assessment, information comes to the auditors’ attention that fraud may have
occurred that is significant within the context of the audit objectives, the auditors
should extend the audit steps and procedures, as necessary, to determine whether
the fraud has likely occurred, and if so, determine its effect on the audit findings.


Documenting the Impact of Fraud on Audit Planning
As part of the fraud risk assessment, the audit team should identify those aspects
of the planned work that involve potential fraud that could significantly impact the
results of the audit. The team should prepare a work paper documenting the
completion of the fraud risk assessment, including the results of the fraud risk
assessment, and the impact of fraud risks on the nature, timing, and extent of
audit procedures.




                                                                                   DODIG-2014-094 │ 103
Appendixes


                 Appendix C
                 Example Naval Audit Service Fraud Risk Assessment
                 Work Paper
                 Work Paper Title: Planning
                 Step Title: Fraud Risk Assessment
                 Prepared By: Auditor, Date
                 Reviewed By: Audit Manager, Date

                 Purpose: Discuss with audit team members, and the auditee, potential fraud
                 risks, considering fraud factors such as individuals’ incentives or pressures to
                 commit fraud, the opportunity for fraud to occur, and rationalizations or attitudes
                 that could allow individuals to commit fraud;

                          •	 Gather and assess information necessary to identify fraud risks that are
                             within the scope of the audit objectives, or could affect the results of
                             their audit.

                          •	 Complete the Fraud Risk Matrix and the Fraud Assessment Checklist and
                             attach to this audit step.

                 Criteria: GAGAS December 2011 Revision, paragraph 6.30, states that in planning
                 audits, auditors should consider risks due to fraud that could significantly affect
                 their audit objectives and the results of their audit.

                 Source: Audit Program (Additional detail should be provided for source as deemed
                 appropriate for conducting the fraud risk assessment.)

                 Audit Personnel: List engagement personnel

                 Scope/Methodology: The team discussed the Fraud Risk Matrix and the
                 environment with the auditee to determine if the potential for fraud existed and to
                 ensure that the audit objectives captured any areas of risk.

                 Results: After discussing considerations outlined in the Fraud Risk Matrix, the
                 team determined that the potential risk of fraud for the auditee is significant to the
                 audit objectives. Box 1 of the Fraud Risk Matrix states, “In the team’s judgment,
                 is the program or activity covered by the audit objectives susceptible to a




104 │ DODIG-2014-094
                                                                                               Appendixes


significant risk of fraud from, 1) misappropriation or misuse of program assets; or
2) misstatement or misrepresentation of program information or results in order
to obtain or continue receiving government funding or benefits.” The audit team
felt that the auditee was susceptible to both of these risks based on information
obtained thus far. The information obtained showed that the organization received
money through multiple funding streams. To date, the organization was not able
to present team members with an acceptable audit trail and supporting
documentation regarding how the funds were received and disbursed.

Box 2 of the Fraud Risk Matrix states, “Did the team identify conditions, such as the
following, that might indicate a heightened risk of fraud?” Below are some of the
main points team members discussed regarding fraud risks:

        •	 “The nature of the audited entity’s operations provides opportunities
           to engage in fraud.” The audit team felt that this was a fraud risk because
           the organization’s mission requires employees to travel extensively.
           During some of the preliminary analysis, the audit team noticed that
           the internal controls over the travel process may be weak (missing
           receipts, lack of proper scrutiny, and excess expenses claimed). Therefore,
           we believe the extensive travel paired with the weak internal controls
           provide an opportunity for fraud to occur.

        •	 “The organizational structure is unstable or unnecessarily complex.”
           The positions at the audited entity are constantly changing. The audit
           team was told by employees of the auditee that they are unsure of
           their position titles because the organizational structure has frequently
           changed. The audit team noted that some employees’ titles differ from
           what is listed on their position descriptions and the job functions they
           are performing.

        •	 “A   history   of   impropriety,   such   as   previous   issues   with   fraud,
           waste, abuse, or questionable practices, or past audits or investigations
           with findings of questionable or criminal activity.” The audit team
           obtained two  investigations that were conducted at the organization,
           one  completed in 2000 and the other in 2011; both of these
           investigations contained similar findings. The investigations mentioned
           the possibility of inappropriate use of funds, i.e. funds not being used
           for their intended purpose. The investigations also mentioned possible




                                                                                         DODIG-2014-094 │ 105
Appendixes


                         abuse of travel within the organization.      Although we have not proven
                         any of the accusations detailed in the investigation at this time, we
                         believe that the potential risk of fraud was higher, based on the results
                         of the prior investigations.

                       •	 “Operating policies and procedures have not been developed or are
                         outdated.” The audit team reviewed the hiring practices of the
                         organization. The review disclosed that the auditee was lacking policies
                         or procedures related to hiring new employees. As a result, we feel that
                         the lack of official guidance provides opportunities to circumvent
                         Federal hiring laws and regulations.

                       •	 “Improper Payments.” The audit team has documented several instances
                         of excessive mileage claimed on traveler’s vouchers. The excess mileage
                         was sometimes double what it should have been, resulting in
                         over payments to the travelers. The audit team also encountered
                         questionable items on traveler’s vouchers that did not contain receipts
                         or supporting documentation, i.e. cancelled airfare claimed on a voucher.

                       •	 “False or misleading information.” The audit team interviewed the
                         Travel Manager and were told that there are no Self-Approving Officials.
                         Upon further investigation, the team identified one traveler (the Travel
                         Manager) listed in DTS as a Self-Approving Official.

                       •	 Box 3 of the Fraud Risk Matrix stated, “Has the team identify indications
                         of potential fraud in areas that fall outside the audit objectives that could
                         have a significant impact on program or function operations or
                         reputation?” The audit team answered no to this question. However, we
                         identified high-risk areas that fall outside the audit objectives that could
                         have a significant impact on the program, function, operations, and
                         reputation. Our opinion is based on a procurement audit that is currently
                         being performed by another Federal audit organization (in response to
                         the 2011 investigation). Additionally, the auditee employs a large number
                         of contractors, in comparison to the number of Government employees.
                         This situation could potentially lead to contractors performing inherently
                         governmental tasks.




106 │ DODIG-2014-094
                                                                                          Appendixes


Fraud – Results:
Box 4 of the Fraud Risk Matrix stated, “Has the team identify strong indications
that potential fraud actually occurred, regardless of significance to the audit
objectives, that could pose a reputation risk to the Department of the Navy if exposed
to the public?” The audit team answered yes to this question based on our analysis
of travel vouchers.       We observed excess mileage claims, missing receipts for
airfare and lodging, and one voucher that claimed reimbursement for a cancelled
airfare ticket.

The Fraud Risk Matrix includes a requirement for auditors to coordinate with
their chain of command to determine if there were any Hotline complaints or
referrals that are significant either to the audit objectives or that identify
potential fraud that were outside the objectives. The Fraud Risk Matrix stated that
the Fraud Risk Monitor would be available (as requested) to meet with audit
management to discuss any potential fraud issues. Based on the audit team’s
assessment of the Fraud Risk Matrix, we determined that a meeting should be
requested with the Fraud Monitor.

The team also completed the fraud assessment checklist and referenced the
applicable work papers.

Conclusion:
The audit team developed audit objectives to detect fraud and reduce fraud risk
based on the results of the Fraud Risk Matrix.




                                                                                    DODIG-2014-094 │ 107
Appendixes


                 Appendix D
                 Example DoD OIG, Fraud Interview Questionnaire –
                 Financial Statement Audit
                                  AICPA, Statement on Auditing Standards 99, Consideration of Fraud
                                       in a Financial Statement Audit Interview Questionnaire
                   Interviewee:
                   Interviewee Title:
                   External Audit Organization Interviewers:
                   OIG representative(s):
                   Date of interview:


                 I.	    Business Risks Faced

                        1.	   Without regard to fraud and abuse, what are the key business risks that
                              you face in carrying out your office’s responsibilities?

                        2.	   Did these business risks affect other offices outside your span of control?

                        3.	   What have you done to address these business risks as it relates to
                              instituting/strengthening internal controls and revising processes?

                 II.	   Fraud Awareness

                        1.	   How long have you been in this position?

                        2.	   How long have you been with the organization?

                        3.	   Do you have any knowledge of any fraud that has been perpetrated, or any
                              alleged or suspected fraud perpetrated against the organization?

                        4.	   Do you have any knowledge of allegations or actual fraudulent
                              reporting, that is to say, knowledge that raw data or reports are being or
                              have been manipulated to present reported results which differ from the
                              actual results?

                        5.	   Do you have any knowledge of misstated balances that were knowingly
                              reported at the end of a period, hoping that those balances would correct
                              themselves in the subsequent reporting period?




108 │ DODIG-2014-094
                                                                                           Appendixes


      6.	   Do you have any knowledge of allegations or actual misappropriation
            of assets by individuals at the organization, or knowledge of individuals
            inappropriately incurring obligations for which the entity will be
            responsible for settling?

      7.	   Do you have any knowledge of anyone within the organization’s
            management team overriding or subverting internal controls, or concerns
            of any potential opportunities for such overrides to be perpetrated?

      8.	   Are you aware of any pressures or incentives at any level of management
            that might contribute to fraudulent activities?

      9.	   Are your annual performance ratings tied to any benchmarks for financial
            performance and/or reporting metrics?

      10.	 Do you perceive the risks of fraud to exist within your office, and what
            controls did you rely upon to mitigate the risks of fraud?

      11.	 Do you feel that agency management was honest and forthright, and
            do you feel comfortable approaching management if you had any issues
            or concerns?

      12.	 Do you feel that agency management and staff receive the proper training
            and supervision to perform their duties?

      13.	 If you were to become aware of, or suspect, an act of fraud or other
            illegal activity, what steps would you take to address it, and who would
            you notify?

      14.	 Are you aware of any additional offices for which a risk of fraud may be
            more likely to exist than others, or are of specific concern to you? .

      15.	 Do you believe that there are any members of internal or external
            senior management who are unfit to perform their assigned duties, or
            should not hold a position of authority?

III.	Conclusion

Given what we have discussed today, is there anything else that you would like to
bring to our attention?




                                                                                     DODIG-2014-094 │ 109
  Appendixes


  Appendix E
  Example IIA, AICPA, ACFE, Fraud Risk Assessment Framework
  Table E is for illustrative purposes and focuses solely on potential revenue recognition risks within financial reporting.31 A full fraud risk assessment
  would consider fraudulent financial reporting in other areas relevant to the organization, such as accounts subject to estimation, related-party
  transactions, and inventory accounting. In addition, the risk of misappropriation of assets, corruption, and other misconduct would be assessed in the
  same manner.

  Table E. Example Financial Reporting Fraud Risk Assessment
                                                                                                                                                 Controls
          Identified Fraud                                                         People and/or                                              Effectiveness                        Fraud Risk
         Risks and Schemes              Likelihood            Significance          Department          Existing Anti-fraud Controls          Assessment       Residual Risks      Response
                 (1)                        (2)                    (3)                  (4)                          (5)                            (6)             (7)                (8)
    Financial Reporting              Reasonably             Material              Sales            Controlled contract                      Tested by IA       N/A              Periodic
    Revenue recognition              possible                                     personnel        administration system                                                        testing
    Backdating                                                                                                                                                                  by IA
    agreements
    Holding books open               Reasonably             Material              Accounting       1.	 Standard monthly close process       1.	 Tested by IA   Risk of          Testing of late
                                     possible                                                      2.	 Reconciliation of invoice register   2.	 Tested by      management       journal entries
                                                                                                       to general ledger                        management     override
                                                                                                                                                                                Cut off testing
                                                                                                   3.	 Established procedures for           3.	 Tested by IA                    by IA
                                                                                                       shipping, invoicing, and revenue     4.	 Tested by IA
                                                                                                       recognition
                                                                                                   4.	 Established process for
                                                                                                       consolidation




  	31	
         IIA, AICPA, ACFE, “Managing the Business Risk of Fraud: A Practical Guide,” not dated.



110 │ DODIG-2014-094
                                                                                                                                                          Appendixes


                                                                                                                     Controls
  Identified Fraud                                     People and/or                                              Effectiveness                        Fraud Risk
 Risks and Schemes        Likelihood    Significance    Department            Existing Anti-fraud Controls        Assessment       Residual Risks      Response
         (1)                  (2)            (3)            (4)                            (5)                          (6)             (7)                (8)
Late shipments          Reasonably     Significant     Shipping dept.   1.	 Integrated shipping system,         1.	 Test by IA     Risk of          Cut off
                        possible                                            linked to invoicing and sales       2.	 Tested by      management       testing
                                                                            register                                management     override         by IA
                                                                        2.	 Daily reconciliation of shipping    3.	 Tested by IA
                                                                            log to invoice register
                                                                        3.	 Required management approval
                                                                            of manual invoices
Side letters/           Probable       Material        Sales            1.	 Annual training of sales and        1.	 Tested by      Risk of          Disaggregated
agreements                                             personnel            finance personnel on revenue            management     override         analysis of sales,
                                                                            recognition practices               2.	 Tested by                       sales returns,
                                                                        2.	 Quarterly signed attestation of         management                      and adjustments
                                                                            sales personnel concerning extra                                        by salesperson
                                                                            contractual agreements
                                                                        3.	 Internal audit confirming with
                                                                            customers that there are no
                                                                            other agreements, written or
                                                                            oral, that would modify the terms
                                                                            of the written agreement
Inappropriate journal   Reasonably     Material        Accounting       1.	 Established process for             1.	 Tested by IA   1.	 Risk of      Data mining of
entries                 possible                       & Finance            consolidation                       2.	 Tested by IA       override     journal entry
                                                                        2.	 Established, systematic access                         2.	 N/A          population by
                                                                                                                3.	 Tested by                       IA for:
                                                                            controls to the general ledger          management     3.	 N/A
                                                                        3.	 Standard monthly and quarterly                                          •	 Unusual
                                                                            journal entry log maintained.                                              Debit/Credit
                                                                            Review process in place                                                    combinations
                                                                            for standard entries, and                                               •	 Late entries
                                                                            nonstandard entries subject to                                             to accounts
                                                                            two levels of review                                                       subject to
                                                                                                                                                       estimation

Roundtrip               Remote         Insignificant   N/A              N/A                                     N/A                N/A              N/A
transactions
Manipulation            Remote         Insignificant   N/A              N/A                                     N/A                N/A              N/A
of bill and hold
arrangements




                                                                                                                                                    DODIG-2014-094 │ 111
  Appendixes


                                                                                                                              Controls
     Identified Fraud                                        People and/or                                                 Effectiveness                           Fraud Risk
    Risks and Schemes         Likelihood    Significance      Department          Existing Anti-fraud Controls             Assessment           Residual Risks     Response
            (1)                   (2)            (3)              (4)                          (5)                               (6)                 (7)               (8)
   Early delivery           Reasonably     Significant       Sales and       Systematic matching of sales order to     Tested by                Adequately       N/A
   of product               possible                         shipping        shipping documentation; exception         management               mitigated by
                                                                             reports generated                                                  control
   Partial shipments        Reasonably     Significant       Sales and       1.	 Systematic shipping documents         Tested by                Adequately       N/A
                            possible                         Shipping            manually checked against every        management               mitigated by
                                                                                 shipment.                                                      control
                                                                             2.	 Systematic matching of sales
                                                                                 order to shipping documentation;
                                                                                 exception reports generated.
                                                                             3.	 Customer approval of partial
                                                                                 shipment required prior to
                                                                                 revenue recognition
   Additional                                                                Systematic shipping documents
   revenue risks                                                             manually checked against every
                                                                             shipment



         (1)	 Identified Fraud Risks and Schemes: This column should include a full list of the potential fraud risks and schemes that
               may face the organization. This list will be different for different organizations and should be based on industry research,
               interviews     of   employees    and      other   stakeholders,   brainstorming       sessions,       and    activity       on    the   whistleblower     hotline.

         (2)	 Likelihood of Occurrence: To design an efficient fraud risk management program, it is important to assess the likelihood of the
               identified fraud risks so that the organization establishes proper anti-fraud controls for the risks that are deemed most likely. For
               purposes of the assessment, it should be adequate to evaluate the likelihood of risks as remote, reasonably possible, and probable.

         (3)	 Significance to the Organization: Quantitative and qualitative factors should be considered when assessing the significance of
               fraud risks to an organization. For example, certain fraud risks may only pose an immaterial direct financial risk to the organization,
               but could greatly impact its reputation, and therefore, would be deemed to be a more significant risk to the organization. For
               purposes of the assessment, it should be adequate to evaluate the significance of risks as immaterial, significant, and material.




112 │ DODIG-2014-094
                                                                                         Appendixes


(4)	 People and/or Department Subject to the Risk: As fraud risks are
     identified and assessed, it is important to evaluate which people inside
     and outside the organization are subject to the risk. This knowledge will
     assist the organization in tailoring its fraud risk response, including
     establishing appropriate segregation of duties, proper review and
     approval chains of authority, and proactive fraud auditing procedures.

(5)	 Existing Anti-fraud Internal Controls: Map pre-existing controls to the
     relevant fraud risks identified. This activity occurs after fraud risks are
     identified and assessed for likelihood and significance. By progressing in
     this order, this framework intends for the organization to assess
     identified fraud risks on an inherent basis, without consideration of
     internal controls.

(6)	 Assessment of Internal Controls Effectiveness: The organization
     should have a process in place to evaluate whether the identified controls
     are operating effectively and mitigating fraud risks. Companies subject
     to the provisions of The U.S. Sarbanes-Oxley Act of 2002 Section 404,
     will have a process such as this in place. Organizations not subject to
     Sarbanes-Oxley should consider what review and monitoring procedures
     would be appropriate to implement to gain assurance that their internal
     control structure is operating as intended.

(7)	 Residual Risks: After consideration of the internal control structure,
     it may be determined that certain fraud risks may not be mitigated
     adequately due to several factors, including properly designed controls
     are not in place to address certain fraud risks or controls identified
     are not operating effectively. These residual risks should be evaluated by
     the organization during the development of the fraud risk response.

(8)	 Fraud Risk Response: Residual risks should be evaluated by the
     organization and fraud risk responses should be designed to address
     remaining    risk.   The   fraud   risk   response   could   be   one.   or   a
     combination of implementing additional controls, designing proactive
     fraud auditing techniques, and/or reducing the risk by exiting the activity.




                                                                                   DODIG-2014-094 │ 113
  Appendixes


  Appendix F
  Example Smart Insights Group, LLC, Internal Control Evaluation Questionnaire
        Question Title                         Description                             Points        Score                      Comments/Notes
   Oversight             To what extent has the overall agency established a        0-20        20           DoD Instruction, XYZ, directed all business units to
                         process and resources responsible for the identification                            establish safeguards to prevent, detect, and report
                         and oversight of fraud risks?                                                       fraud at all Medical Treatment Facilities.
   Ownership             To what extent has the agency created ownership            0-20        20           All senior officers were required to develop and
                         of fraud risks by assigning a member of its senior                                  maintain effective internal controls across their areas
                         management team with responsibility for:                                            of responsibility. Each senior officer was required to
                         1.	 Managing fraud risks within the organization; and                               document their anti-fraud efforts to include:
                         2.	 Communicating to agency personnel about                                         •	 Designation of an Anti-Fraud Program Manager.
                              the topic of fraud and their responsibilities for                              •	 A high level statement outlining the responsibility
                              reporting incidents?                                                              of all personnel to monitor against fraud and
                                                                                                                prevent fraud.
                                                                                                             •	 The process for monitoring, reporting, and
                                                                                                                investigating fraud, with clearly defined roles and
                                                                                                                responsibilities.
                                                                                                             •	 Appropriate anti-fraud training.
                                                                                                             •	 Process to promote fraud awareness among staff and
                                                                                                                outside parties (including vendors, patients, etc.).
                                                                                                             •	 Identification of available remedial actions
                                                                                                                when fraud occurs (e.g., criminal, civil, and
                                                                                                                administrative penalties.)
                                                                                                             •	 Regular and active involvement of senior leadership
                                                                                                                on fraud issues and corrective actions.




114 │ DODIG-2014-094
                                                                                                                                                           Appendixes


    Question Title                             Description                             Points        Score                       Comments/Notes
Assessment               To what extent has the agency implemented an ongoing       0-20        20           Periodically, but at a minimum, annually, each business
                         process to identify and evaluate changing fraud risks?                              unit must assess and document fraud risks. The
                                                                                                             assessment must address the following topics:
                                                                                                             •	 Overall incentives, opportunities, and pressures to
                                                                                                                commit fraud.
                                                                                                             •	 Programs where ineffective or nonexistent internal
                                                                                                                controls create opportunities for fraud.
                                                                                                             •	 Likelihood and impact of fraud within
                                                                                                                those programs.
                                                                                                             •	 A final report, summarizing the assessment results
                                                                                                                and planned corrective actions, must be sent to
                                                                                                                senior leadership prior to December 31.
                                                                                                             Information for the assessment can come from:
                                                                                                             •	 OIG Inspections and Hotline reports.
                                                                                                             •	 Managers’ Internal Control Program and other
                                                                                                                internal reviews.
                                                                                                             •	 External audits, reports, and studies.
                                                                                                             •	 Management observations and judgment.
Risk Management          To what extent has the agency implemented a                0-30        30           DoD Instruction, XYZ, established the organization’s
Policy                   fraud policy?                                                                       fraud policy. This policy outlined the responsibilities of
                                                                                                             employees regarding the organization’s fraud program
                         The policy should identify the individual/team, within                              to include military and civilian personnel. Anti-Fraud
                         the agency, that will be responsible for managing fraud                             Program Manager, General Counsel, Comptrollers,
                         risks, and the associated activities to be undertaken to                            Contracting Officers.
                         manage the fraud risks.
Anti-Fraud Controls      To what extent has the agency implemented process          0-20        10           The organization identified preventive and detective
                         level controls and/or activities that are designed to                               controls as part of the annual fraud risk assessment.
                         prevent, deter and/or detect the fraud risks identified                             However, the organization would benefit by
                         through the agencies risk assessment?                                               implementing additional detective controls.
Process Re-engineering   To what extent has the agency implemented measures         0-20        0            The organization did not consider process
                         to eliminate or reduce, through process re-engineering,                             re-engineering as an approach to address fraud risks.
                         the fraud risks identified through the agencies risk
                         assessment?




                                                                                                                                                      DODIG-2014-094 │ 115
  Appendixes


        Question Title                          Description                              Points        Score                        Comments/Notes
   Workplace Culture     Preventing major frauds requires a strong emphasis on creating a workplace environment that promotes ethical behavior, deters wrongdoing, and
                         encourages all employees to communicate any known or suspected wrongdoing to the appropriate person.
                         To what extent has the organization implemented a process to promote ethical behavior, deter wrongdoing and facilitate two-way communication
                         on ethical issues?
                         Is there an identified Senior Member of the                  0-10        5               Yes, the organization is required to have an Anti-Fraud
                         management team that has been singularly tasked with                                     Program Manager. However, because of the size of the
                         the responsibility for ensuring the agency’s processes                                   program and increased fraud risks, the duties should be
                         promote ethical behavior, deter wrongdoing and                                           shared with another employee.
                         report matters of misconduct in a timely manner (i.e., a
                         designated Ethics Officer)?
                         A code of conduct for employees, which gives clear           0-10        10              The organization does have a code of conduct and also
                         guidance as to what behavior is permitted/prohibited.                                    requires annual ethics training. Information about
                                                                                                                  communicating potential wrongdoing is documented in
                         The code of conduct should identify how employees:                                       DoD Instruction, XYZ.
                         1.	 Seek additional advice when faced with uncertain
                             ethical dilemma;
                         2.	 Communicate concerns about known or
                             potential wrongdoing.
                         Regular fraud training is available for all new hires as     0-10        3               Annual fraud training is required for all employees,
                         well as all on-board FTEs and contractors.                                               to including contracting officers. However, current
                                                                                                                  training has not been updated within the past five years
                                                                                                                  and contractors are not required to participate in
                                                                                                                  the training.
                         Multiple communication methods are available to              0-10        4               The organization maintained fully staffed and
                         employees, contractors, and vendors to seek advice                                       experienced Hotline personnel at various contiguous
                         prior to making difficult ethical decisions and to express                               United States locations.
                         concern about known potential wrongdoing.
                                                                                                                  Anonymous reporting is allowed.
                         •	 Agency communication methods should
                            include an ethics/compliance hotline or e-mail                                        Awareness of Whistleblower protections could be
                            address that is actively monitored by ethics or                                       improved when the annual fraud training is updated.
                            compliance personnel.
                         •	 Provision should be made to enable communications
                            to be made anonymously.
                         •	 Emphasis should also be placed upon the
                            Whistleblower provisions, which are intended to
                            protect individuals from retribution.




116 │ DODIG-2014-094
                                                                                                                                                        Appendixes


     Question Title                             Description                          Points        Score                      Comments/Notes
 Workplace Culture       Monitoring of compliance with the code of conduct        0-10        4            The organization has yet to implement a process
 (cont’d)                and participation in required training (i.e. requiring                            that ensures that all employees completed annual
                         an annual employee attestation of understanding,                                  fraud training. The current process requires a self-
                         compliance and completion of training and auditing                                certification without documentation (i.e. Certificate
                         of such attestations to confirm their completeness                                of Training, etc.)
                         and accuracy
 Proactive Detection     To what extent has the agency established a process      0-20        10           The organization performs manual fraud detection
 Methods                 to proactively detect incidents of potential fraud                                tests quarterly. However, there are no automated
                         •	 Develop and perform fraud detection tests?                                     transaction flags to detect suspicious transactions or
                                                                                                           activities.
                         •	 Implement embedded transaction ‘flags’ (manual
                            or automated) to target suspicious transactions
                            or activity.



Excerpts from Department of the Navy Bureau of Medicine and Surgery Instruction 5370.4, April 1, 2010
From: Chief, Bureau of Medicine and Surgery

Subject: NAVY MEDICINE ANTI-FRAUD PROGRAM

      1.	   Purpose. To direct Navy Medicine commands to establish safeguards to prevent, detect, and report fraud. This instruction documents
            existing anti-fraud efforts and initiates new and enhanced efforts to implement fraud programs at Navy Medicine Medical Treatment Facilities.

      2.	   Applicability. Applies to all Navy Medicine commands.

      3.	   Background.

            a.	 Fraud is any willful means of taking or attempting to take unfair advantage of the government, including but not limited to:

                (1)	 The offer, payment, or acceptance of bribes or gratuities.

                (2)	 Making of false statements, submission of false claims, or use of false weights or measures.

                (3)	 Evasion or corruption of inspectors and other officials.




                                                                                                                                                   DODIG-2014-094 │ 117
Appendixes


                                 (4)	 Deceit by suppression of the truth or misrepresentation of a
                                     material fact.

                                 (5)	 Adulteration or substitution of material.

                                 (6)	 Falsification of records or accounts.

                                 (7)	 Arrangements for secret profits, kickbacks, or commissions.

                                 (8)	 Cases of conflict of interest, criminal irregularities, and
                                     unauthorized disclosure of official information connected
                                     with acquisition and disposal matters.

                                 (9)	 Conspiracy to use any of these devices.

                             b.	 Navy Medicine is susceptible to fraud committed by government
                                personnel (civilian and military), contractors, vendors, patients, or other
                                outside parties.

                       4.	   Policy. Fraud directly threatens our core mission of providing
                             high-quality, economical health care to eligible beneficiaries. As such,
                             all personnel within Navy Medicine must maintain constant vigilance to
                             identify and report suspected fraud. Commanders, commanding officers,
                             and officers in charge must establish a tone across their area of
                             responsibility that fraud, regardless of magnitude, will not be tolerated.
                             Accordingly, each command in Navy Medicine must develop an
                             anti-fraud program that includes the following elements:

                             a. 	 Fraud Risk Management Program. Each command must formally
                                document its anti-fraud assets and efforts, including

                                 (1)	 A high-level command statement outlining the responsibility of
                                     all personnel to monitor against and prevent fraud (e.g., code of
                                     conduct, command policy, commander’s note).

                                 (2)	 The process for monitoring, reporting, and investigating fraud,
                                     with clearly defined roles and responsibilities.

                                 (3)	 An anti-fraud program manager, appointed by the commander.




118 │ DODIG-2014-094
                                                                             Appendixes


   (4)	 Appropriate anti-fraud training.

   (5)	 Processes to promote fraud awareness among staff and outside
       parties (including vendors, patients, etc.).

   (6)	 Identification of available remedial actions when fraud occurs
       (e.g., criminal, civil and administrative penalties).

   (7)	 Regular and active involvement of command senior leadership,
       including the Executive Steering Committee on fraud issues and
       corrective actions.

b.	 Periodic Fraud Risk Assessment. A command’s mission, size,
   complexity, organizational structure, and resources help determine
   its vulnerability to fraud.     These factors differ at each command
   and vary over time. Periodically, but at least annually, each Navy
   Medicine command must assess and document its own fraud risk.
   Assessing fraud risk allows commands to focus internal control
   efforts where the likelihood and/or impact of fraud is greatest. Since
   prevention of fraud is one of the key objectives of internal controls,
   the fraud risk assessment should be a subset of a comprehensive
   internal control risk assessment.

   (1)	 Information for this assessment can come from:

       (a)	 OIG inspections and Hotline reports.

       (b)	 Managers’ Internal Control Program assessments.

       (c)	 Command Evaluation Program and other internal reviews.

       (d)	 External audits, reports, and studies.

       (e)	 Commanders and/or management observations and judgment.




                                                                       DODIG-2014-094 │ 119
Appendixes


                           (2)	 The assessment should identify the:

                               (a)	 Overall   incentives,    opportunities,      and   pressures   to
                                    commit fraud.

                               (b)	 Programs where ineffective or nonexistent internal controls
                                    create opportunities for fraud.

                               (c)	 Likelihood and impact of fraud within those programs.

                       c.	 Prevention Techniques. An effective system of internal controls is
                          the best means to prevent fraud. Although fraud of any magnitude
                          negatively impacts mission accomplishment, each command must
                          determine an acceptable level of risk and develop internal controls
                          accordingly. Preventative controls must be focused on areas where
                          the likelihood and/or impact of fraud are the highest. Preventative
                          controls can include policies, procedures, training, and communication.

                       d.	 Detection Techniques. For certain types of fraud, it is more effective
                          to detect and address fraud after it occurs rather than trying to prevent
                          it before it occurs. Detective controls are most effective for areas
                          where the likelihood of fraud is low but potential impact is severe.
                          They can also help assess the effectiveness of preventative controls.
                          Detective controls are often clandestine in nature, to ensure they are
                          not easily circumvented.

                           (1)	 Examples of detective controls include:

                               (a)	 Unannounced inventory inspections.

                               (b)	 Reconciling     accounting    transactions    with    supporting
                                    documentation at random intervals.

                               (c)	 Ad hoc audits and analyses.

                               (d)	 Data mining.

                               (e)	 Automated system flags (e.g., disbursements over a
                                    certain dollar amount, excessive number of purchase card
                                    transactions to a single vendor).




120 │ DODIG-2014-094
                                                                                      Appendixes


          (2)	 Potential fraud may also be detected during the course of
              internal reviews (including the command evaluation program) and
              external audits (e.g., OIG inspections, Naval Audit Service audits).

      e. 	 Reporting, Investigative, and Corrective Action Process

          (1)	 Navy Medicine personnel will report all suspected fraud for further
              analysis and investigation. If there is any doubt on whether or
              not something constitutes fraud, the incident should be reported.

5.	   Responsibilities

      a. 	 Commanders will:

          (1)	 Formally establish and document a culture across their area
              of responsibility that fosters constant vigilance against fraud,
              protects those who report fraud, and demands appropriate
              corrective action when fraud occurs.

          (2) 	 Implement a system of effective internal controls to detect and
              prevent fraud across the programs with the highest level of risk.

          (3) 	 Ensure full cooperation with all fraud Investigations.

          (4) 	 Develop a comprehensive remedies plan, with appropriate
              corrective and disciplinary action, for all substantive fraud cases
              within their area of responsibility.

          (5)	 Review substantive cases of fraud for systemic internal control
              deficiencies and report, as appropriate, in the annual Managers’
              Internal Control Program, Statement of Assurance.

          (6)	 Appoint an Anti-Fraud Program Manager, from within the
              command’s OIG staff, to advise the command on anti-fraud matters.

          (7)	 Ensure personnel complete mandatory annual anti-fraud training.

          (8)	 Ensure full compliance with this instruction within their area
              of responsibility.




                                                                                DODIG-2014-094 │ 121
Appendixes


                       b. 	 All Navy Medicine Personnel (military and civilian) will:

                           (1)	 Exercise due diligence in monitoring for fraud.

                           (2)	 Report suspected fraud per this instruction.

                           (3)	 Complete mandatory annual anti-fraud training.

                       c.	 The Anti-Fraud Program Manager will:

                           (1)	 Serve as senior advisor to management on fraud issues.

                           (2)	 Develop and implement initiatives to promote awareness across
                               the AOR of means to detect, prevent, and report fraud.

                           (3)	 Provide periodic updates to the Executive Steering Committee
                               (or equivalent) on fraud issues within the area of responsibility.

                           (4)	 Provide anti-fraud course content requirements for inclusion in
                               the contracting office representative training course.

                           (5)	 Develop anti-fraud training for all Navy Medicine personnel.
                               Anti-fraud training should include, at a minimum:

                               (a)	 Legal definition of fraud.

                               (b)	 Areas of greatest fraud vulnerability within Navy Medicine.

                               (c)	 Responsibility of all personnel to monitor for and report
                                    suspected fraud.

                               (d)	 Signs of fraud.

                               (e)	 Ways to detect and prevent fraud.

                               (f)	 Ways to report suspected fraud.

                               (g)	 Potential criminal, civil, and administrative consequences
                                    of fraud.




122 │ DODIG-2014-094
                                                                                         Appendixes


Appendix G
Example Grant Thornton Client Report and Heat Map
Confidential

Date

Client Name

Re: Fraud Risk Assessment Preliminary Report

Dear (Auditee Name),

At your request, we have performed certain procedures under your direction to
assess fraud risk. This report concludes Phase I of our work as described in our
engagement letter dated XX. On (date) we visited the organization to interview select
personnel and gather documentation. We describe below the procedures performed,
our findings, and recommendations for additional steps.

Procedures Performed
This engagement was designed to include the following four distinct phases:

       I.	     Overall risk assessment/project organization

       II.	    Assess existing compliance systems, practices and procedures

       III.	   Develop findings and recommendations

       IV.	    Prepare report with recommendations

In this phase, Phase I, we performed an overall assessment of your current anti-fraud
and governance policies and procedures. The objective of this phase was to obtain
enough of an understanding of the control structure and potential risks at the
organization to allow us to finalize the scope for the remainder of the project.

The primary procedures performed during the risk assessment included:

        1.	    Review of the current code of conduct and anti-fraud policies
               and procedures.




                                                                                   DODIG-2014-094 │ 123
Appendixes


                       2.	   Review of relevant background information including prior internal
                             audit reports, employee handbooks, and various policies and procedures.

                       3.	   Interviews with select personnel, including:

                             i.	    Controller

                             ii.	   Business Administrator

                             iii.	 Human Resources Manager

                             iv.	   Information Technology Manager

                       4.	   Identified high-risk areas.

                 Findings and Observations
                 Based on the procedures listed above, as well as discussions with personnel, we
                 identified the following observations and recommendations:

                       1.	   Department X currently does not have formal anti-fraud policies and
                             procedures. The organization should document and implement fraud
                             specific policies and procedures that describe fraudulent conduct,
                             punishment for engaging in fraudulent conduct, and procedures to report
                             the fraudulent conduct. These policies should be disseminated to all
                             employees through e-mail communications, training programs, or other
                             intercompany communication methods.

                       2.	   Organization policies state that complaints can be made anonymously,
                             but it does not provide instructions on how to make an anonymous
                             complaint. A “hotline” does not exist. Clarifying the policy and
                             implementing an anonymous whistleblower hotline would provide
                             a channel for employees to anonymously voice concerns regarding
                             irregularities in the company’s accounting methods, internal controls, or
                             auditing matters, without fear of repercussions from individuals within
                             the organization.

                       3.	   Controls over the set up and maintenance of vendors are lacking. Vendors
                             are added on an ad hoc basis without conducting background checks,
                             or vendor due diligence. Implementing a vendor approval process,
                             including using background checks and vendor due diligence to screen
                             vendors will reduce the risk that unauthorized vendors are added to




124 │ DODIG-2014-094
                                                                                             Appendixes


      the system. In addition, to prevent the appearance of favoritism or
      conflict of interest, vendors should be periodically rotated, where it
      makes business sense.

4.	   Department X should establish a standard vendor contract that
      includes a right to audit clause. Large vendors that transact frequently
      with the Department X should be required to execute the standard
      vendor contract.

5.	   Department X does not monitor external employment of its employees.
      Based on our discussions, we learned that some employees may have
      additional external employment. To preclude potential conflicts of
      interest, Department X should require employees to complete a
      disclosure document that includes external employment and business
      ownership.    This document should be reviewed to identify potential
      conflicts of interest and the information should be kept in a log by
      Human Resources.

6.	   During the course of our interviews, we were informed that several
      managers and officers were not completely familiar with the contents
      of   the   employee    handbook.     To    effectively   manage     and     monitor
      employee performance, managers and officers should be aware of the
      standards that apply to employees.

7.	   The organization does not have a formal training program. It is
      recommended that the organization implement formal training for
      all employees. Areas that should be addressed include: new hire
      training, periodic training for managers and officers on the employee
      handbook, and specific training covering ethics and anti-fraud policies
      of the entity. Employees should be required to sign a document
      acknowledging      participation   in     such   training.   This   helps    create
      awareness and responsibility throughout the organization.

8.	   Employees are not required to take vacations. It would be advisable to
      implement a mechanism to monitor vacation balances of key employees
      and encourage employees who have accrued maximum allowed vacation
      days to take vacations. Many internal frauds require manual intervention,
      and are, therefore, discovered when the perpetrator is absent from their
      duties for a period of time. The enforcement of mandatory vacations
      can reduce the risk that frauds are not detected.




                                                                                       DODIG-2014-094 │ 125
Appendixes


                       9.	   During the course of our interviews, we inquired about previous
                             instances of fraud. Three of the interviewees stated that they could recall
                             only one instance of fraud. Each cited an incident that was different from
                             that cited by the other interviewees. As such, we were made aware of
                             three separate incidents of fraud that had occurred over the last
                             three to five years. We also learned that a consolidated fraud incident
                             list is not maintained. Maintaining a list of fraud incidents can serve as
                             an educational tool to increase awareness and improve controls within
                             the organization.

                       10.	 Department X receives checks and cash by mail. Mail is sorted and
                             employees believed by mail room personnel to contain checks and/or
                             cash are delivered to the finance department. This mail sorting function
                             is not supervised.  A surveillance camera to monitor activity in the mailroom
                             can reduce the risk of theft of funds received by mail. Rotating personnel
                             performing the mail sorting function could limit the risk of checks or
                             cash being intercepted prior to delivery to the finance department.

                       11.	 We were informed that employees perceived differences in perquisites
                             between officers and non-officer employees. For example, an officer may
                             be permitted to bring a child into the office during the work day, while
                             this is prohibited for non-officer employees. The differences perceived
                             by employees could negatively impact employee morale.

                       12.	 The controller is the lone approver for user rights within the accounting
                             software. This would potentially allow the controller to request a change
                             to his rights to circumvent current controls within the finance function.
                             At a minimum, the Business Administrator should review and approve
                             requests for changes to the controller’s access rights. This would allow
                             the controller to continue to review and approve changes to the accounting
                             staff’s rights.

                       13.	 Computers do not automatically lock users out after a period of inactivity
                             and screensavers are not password protected. This would allow a passerby
                             to access an individual’s computer and potentially access sensitive
                             information or circumvent internal controls within the finance function.

                       14.	 Currently, the system allows multiple simultaneous log-ins using the same
                             user identification and password. The organization should implement
                             a procedure that would prohibit use of a user identification to log in
                             simultaneously on multiple computers.



126 │ DODIG-2014-094
                                                                                         Appendixes


     15.	 Computers are not currently encrypted. It was mentioned during our
           interviews, that the organization would be implementing encryption on
           the computers within Finance, Human Resources, and Information
           Technology Management. However, as it currently stands, the lack
           of encryption potentially exposes sensitive organizational data if the
           computers were stolen.

     16.	 Although the capability exists to monitor failed access attempts, the
           Information Technology Department does not currently monitor the log.
           Periodic monitoring would help to detect hackers attempting to gain access
           to sensitive data.

Proposed Phase II Tasks
As indicated in our proposal, we have used results and findings of the Phase I
assessment as the basis to design Phase II of the project. We have identified
areas where we believe it would be beneficial to conduct additional procedures.
We propose performing the following more detailed procedures:

     1.	   Vendor and payment procedures. Grant Thornton can perform an in-depth
           analysis of vendors and payments including:

           a.	 Analysis of vendor maintenance procedures.

           b.	 Vendor master file and employee master file matching,

           c.	 Vendor master file analysis (same/similar addresses, PO Boxes,
                 no addresses).

           d.	 Vendor usage by department.

           e.	 Vendor usage by type of expense.

           f.	 Above average payments to a vendor.

           g.	 Above average voided vouchers per vendor.

           h.	 Duplicate payment testing.

           i.	   Accounts payable credits and voided voucher matching.

           j.	   Vendor selection approval and bid review process.




                                                                                   DODIG-2014-094 │ 127
Appendixes


                       2.	   Cash and check receipting procedures. Grant Thornton can perform a
                             thorough walk-through of the cash and check receipting procedures to
                             determine proper controls surrounding the process from the moment
                             a check/cash enters the facility to its deposit in the bank and recording
                             of the receipt in the accounting books. This review will also include
                             testing controls around petty cash, wire transfers and payroll.

                       3.	   Vacation activity. Grant Thornton can conduct a historical review of
                             vacation activity of key employees to determine if any employees have
                             not taken vacation days.

                       4.	   Policies and procedures. Grant Thornton can perform tests in certain
                             areas to ascertain whether practice conforms to written policies and
                             procedures. Examples of areas we could examine include:

                             a.	 Investment monitoring – perform a basic review of the investment
                                policy to verify management of investment accounts conform to
                                stated investment policy. We understand the last in-depth external
                                analysis of investment policy compliance was performed in 2007.

                             b.	 Hiring/termination of employees – verify that Human Resources
                                conducts background checks prior to making an offer of employment
                                to new hires. Verify that Human Resources follows the steps outlined
                                in the terminations/resignations policies and procedures.

                             c.	 Information Technology – verify compliance with policies and
                                procedures providing access to key systems and programs by
                                testing selected authorization documentation. Key systems and
                                programs would include: (Insert Names).

                             d.	 Finance and accounting – verify that proper invoice approval is
                                obtained from department heads prior to payment.




128 │ DODIG-2014-094
                                                                                        Appendixes


Restrictions of this Report
This preliminary report is prepared solely for the internal use of the organization.
Our services were provided in accordance with the statement of standards for
consulting services promulgated by the AICPA and, accordingly, did not constitute
a rendering by Grant Thornton LLP or its partners or staff of any legal advice,
nor do they include the compilation, review, or audit of financial statements.
Grant  Thornton makes no representations regarding questions of legal sufficiency.
We performed the procedures within the agreed upon scope. Had we performed
other procedures, we may have identified other information that would have been
included in this report. If additional information that may change our findings is
found, we reserve the right to supplement this report accordingly.

We appreciate the opportunity to serve you in this matter. If we could assist you
by explaining our work in more detail, please do not hesitate to contact us.

Sincerely,

Name/Title




                                                                                  DODIG-2014-094 │ 129
                                                                                                                                                                           [Insert    [Insert    [Insert    [Insert    [Insert
                                                                                                                                                                          Relevant   Relevant   Relevant   Relevant   Relevant




                                                                                                                                                                                                                                                 Unit/
                                                                                                                                                                                                                                                Region
                                                                                                                                                                                                                                                Entity/
                                                                                                                                                                           Entity]    Entity]    Entity]    Entity]    Entity]

                                                                                                                                                                                                                                    "Local Accounting System
                                                                                                                                                                                                                                                                                                                                                Appendixes




                                                                                                                                                                            Yes
                                                                                                                                                                                       Yes
                                                                                                                                                                                                  Yes
                                                                                                                                                                                                             Yes
                                                                                                                                                                                                                        Yes
                                                                                                                                                                                                                                        Fully Integrated"




130 │ DODIG-2014-094
                                                                                                                                                                                                                                       Accounting Function




                                                                                                                                                                            Yes
                                                                                                                                                                                       Yes
                                                                                                                                                                                                  Yes
                                                                                                                                                                                                             Yes
                                                                                                                                                                                                                        Yes
                                                                                                                                                                                                                                   Co-Located within geography

                                                                                                                                                                                                                                   Revenue and Balance Sheet




                                                                                                                                                                            Yes
                                                                                                                                                                                       Yes
                                                                                                                                                                                                  Yes
                                                                                                                                                                                                             Yes
                                                                                                                                                                                                                        Yes
                                                                                                                                                                                                                                    Balances Typically Above
                                                                                                                                                                                                                                          Materiality

                                                                                                                                                                                                                                     Local Operations Solely a




                                                                                                                                                                            No
                                                                                                                                                                                       No
                                                                                                                                                                                                  No
                                                                                                                                                                                                             No
                                                                                                                                                                                                                        No
                                                                                                                                                                                                                                        Support Function
                                                                                                                                                                                                                                                                    Structure Risk Factors




                                                                                                                                                                                                                                 % of Revenue Generated by Third




                                                                                                                                                                            0%
                                                                                                                                                                                       2%
                                                                                                                                                                                                  4%
                                                                                                                                                                                                             0%
                                                                                                                                                                                                                        4%
                                                                                                                                                                                                                                 Party Business Development in FY
                                                                                                                                                                                                                                                                                                        TABLE G. Example Grant Thornton Client Heat Map




                                                                                                                                                                                                                                       2011 – Three Quarters




                                                                                                                                                                            3
                                                                                                                                                                                       3
                                                                                                                                                                                                  3
                                                                                                                                                                                                             3
                                                                                                                                                                                                                        3
                                                                                                                                                                                                                                         Structure Score




                                                                                                                                                                            No
                                                                                                                                                                                                  No
                                                                                                                                                                                                             No




                                                                                                                                                                                       Yes
                                                                                                                                                                                                                        Yes



                                                                                                                                                                                                                                   Prior Investigation Conducted


                                                                                                                                                                                                                                      Number of Ethics Line




                                                                                                                                                                            0
                                                                                                                                                                                       0
                                                                                                                                                                                                  0
                                                                                                                                                                                                             0
                                                                                                                                                                                                                        3




                                                                                                                                                                                                                                         Reports for FY


                                                                                                                                                                                                                                    Years of Service – Finance
                                                                                                                                                                                                  3




                                                                                                                                                                            1.42
                                                                                                                                                                                       6.25
                                                                                                                                                                                                             9.58
                                                                                                                                                                                                                        2.33




                                                                                                                                                                                                                                             Manager


                                                                                                                                                                                                                                    Years of Service – Country
                                                                                                                                                                                                             0




                                                                                                                                                                                                  1.5




                                                                                                                                                                            1.25
                                                                                                                                                                                       1.42
                                                                                                                                                                                                                        2.25




                                                                                                                                                                                                                                             Manager
                                                                                                                                                                                                                                                                    Alignment to Headquarters Factors




                                                                                                                                                                            2
                                                                                                                                                                                                             2




                                                                                                                                                                                       0
                                                                                                                                                                                                  2
                                                                                                                                                                                                                        -2




                                                                                                                                                                                                                                     Fraud & Corruption Score


                                                                                                                                                                                                                                    Fiscal Year of Last External
                                                                                                                                                                            2009
                                                                                                                                                                                                             2011




                                                                                                                                                                                       2011
                                                                                                                                                                                                  2010
                                                                                                                                                                                                                        2011




                                                                                                                                                                                                                                             Audit Visit


                                                                                                                                                                                                                                  Entity Below Scoping Threshold
                                                                                                                                                                                                                        No




                                                                                                                                                                            Yes
                                                                                                                                                                                                             Yes




                                                                                                                                                                                       Yes
                                                                                                                                                                                                  Yes




                                                                                                                                                                                                                                      for External Audit (20%)


                                                                                                                                                                                                                                    Fiscal Year of Last Internal
                       The following weights were used to develop the Heat Map’s weights: Structure Risk Factors 33%, Alignment to Headquarters Factors 33%, Audit 33%.
                                                                                                                                                                            2009
                                                                                                                                                                                                             2011
                                                                                                                                                                                                                        2011




                                                                                                                                                                                       2011
                                                                                                                                                                                                  2010
                                                                                                                                                                                                                                                                    Audit




                                                                                                                                                                                                                                             Audit Visit


                                                                                                                                                                                                                                  Entity Below Scoping Threshold
                                                                                                                                                                                                                        No




                                                                                                                                                                            Yes
                                                                                                                                                                                       Yes
                                                                                                                                                                                                  Yes
                                                                                                                                                                                                             Yes




                                                                                                                                                                                                                                      for Internal Audit (10%)
                                                                                                                                                                            0
                                                                                                                                                                                       0
                                                                                                                                                                                                  0
                                                                                                                                                                                                             0
                                                                                                                                                                                                                        4




                                                                                                                                                                                                                                       Audit Structure Score
                                                                                                                                                                            1.7
                                                                                                                                                                                                             1.7
                                                                                                                                                                                                                        1.7




                                                                                                                                                                                       1.0
                                                                                                                                                                                                  1.7
                                                                                                                                                                                                                                                 Risk
                                                                                                                                                                                                                                                Total

                                                                                                                                                                                                                                                Score
                                                                                       Appendixes


Appendix H
Example NAVSEA, Office of the Inspector General,
Contract Fraud Risk Assessment and Mitigation Branch,
Organization Fraud Risk Assessment Report
Risk Area
Contract Fraud Risk Assessment


Prepared by
Contract Fraud Risk Mitigation (C-FRAM) Team


Risk Concern
Command’s (CMD’s) efforts to mitigate the risk of contract fraud, waste, abuse,
and mismanagement.


Methodology
Our objective is to assess the CMD’s tone from the top, internal controls, and
ongoing monitoring efforts related to mitigating the risk of contract fraud, waste,
abuse, and mismanagement. At the CMD, the C-FRAM Team met with CMD
Contract Department leadership and discussed management’s tone from the top
regarding fraud, waste and abuse. The C-FRAM team also conducted a COR focus
group and randomly selected 2, out of 13, CORs for further interviews. The team
interviewed these CORs and examined their COR files to assess the methods the
CORs used to detect and deter fraud, waste, abuse, and mismanagement. The team
also conducted a focus group with the contracting officers. Our findings are
described in detail below.


Tone from the Top
A positive control environment is the foundation for all other standards.
It provides discipline and structure as well as the climate which influences the
quality of internal control. Several key factors affect the control environment.
One factor is the integrity and ethical values maintained and demonstrated
by management and staff. Agency management plays a key role in providing
leadership in this area, especially in setting and maintaining the organization’s




                                                                                 DODIG-2014-094 │ 131
Appendixes


                 ethical tone, providing guidance for proper behavior, removing temptations for
                 unethical behavior, and providing discipline when appropriate.32

                 During the COR focus groups and follow-up interviews the team inquired whether
                 the CORs were familiar with the CMD’s code of ethics. The CORs stated that they
                 all      took     the     annual      ethics      training      in   the     Total     Workforce           Management
                 System (TWMS). The CORs also stated that they received quality support from the
                 command counsel.                The CORs also stated that the CMD’s code of ethics was not
                 discussed on a regular and recurring basis and most could not remember the last
                 time the Commanding Officer expressed his opinion on the subject. The CORs also
                 stated they discussed some questionable ethical situations with their department
                 heads. The Commanding Officer acknowledged that in a command of roughly
                 11,000 people, reaching the staff a challenge.

                 NAVSEA Instruction (NAVSEAINST) 4200.17E, “Contracting Officer’s Representative,”
                 May13, 2013, pg. 9, para b (2) states “The COR Supervisor is required to provide
                 oversight and monitor the performance of the CORs duties and responsibilities as
                 well as seek performance feedback from the respective contracting officers. The
                 COR supervisors shall ensure that adequate time and resources are available for
                 performance of the COR responsibilities. The COR supervisor MUST establish a
                 performance objective for the employee reflecting the COR’s assigned duties. The COR
                 Supervisor shall include a separate critical performance element, either on single
                 contract or multiple contracts, reflecting COR duties assigned.”

                 During the COR focus group, several focus group members stated they were
                 overwhelmed and rarely had time to complete their COR responsibilities.
                 The C-FRAM Team requested copies of each CORs’ performance objectives.
                 Of the three performance objectives reviewed, none had a separate performance
                 element reflecting COR duties assigned. Failing to ensure COR performance plans
                 include a separate critical element describing COR responsibilities, increases
                 the risk that this important oversight function will be undervalued and
                 underperformed,              and      violates      NAVSEAINST           4200.17E,        “Contracting        Officer’s
                 Representative,” May 13, 2013




                 	32	
                        GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999:
                        Washington D.C.), pg. 8.




132 │ DODIG-2014-094
                                                                                                   Appendixes


The C-FRAM Team was informed that Code 400 annually assesses COR files.
These assessments take place between April and June.                    COR supervisors provide
performance feedback in either March or October, depending on the CORs’
pay plan.           Therefore, the official performance feedback provided to CORs is on
a 3-month to 11-month lapse from the time of performance.


Conclusion
The team assessed CMD’s tone from the top as marginally ineffective. A majority
of the focus group members could not recall the last time the Commanding
Officer discussed ethical behavior nor could they state the Commanding Officer’s
opinion on fraud, waste, abuse, and mismanagement. Further, failing to ensure
that employees are properly rated on their oversight functions, such as COR
responsibilities, indicates that this function is not valued by management.
These factors, taken as a whole, imply a negative tone from the top on oversight.


Control Activities
Cost mischarging is a fraud scheme in which a contractor intentionally submits
false or inflated invoices to the government. Cost mischarging is differentiated from
erroneous billing by the fact that inappropriate charges for cost mischarging are
intentional. Proper cost monitoring and COR surveillance mitigates both the risk
of cost mischarging and erroneous billing.

NAVSEA Office of the Inspector General reviewed the CMD’s service contracting
process, to include Professional Support33 and Multi-Ship / Multi-Option (MSMO)
contract processes. CMD contracting staff and Shipbuilding Specialists stated that
the bulk of CMD’s contracting is done via MSMO contracts.                   MSMO contracts use
an incentive fee to ensure taxpayers receive good value for dollars allocated to the
contract. The incentive fee awards the contractor for completing work under the
agreed estimate of costs.                   For the incentive fee methodology to work properly,
the government must ensure the contractor does not over-inflate its estimates.
Over-inflated contractor estimates increase NAVSEA’s risk of cost mischarging
schemes and erroneous billings.




	33	
       CMD’s support service contracts are under other CMD’s warrant.




                                                                                             DODIG-2014-094 │ 133
Appendixes


                 During our review, the C-FRAM Team discussed the CMD’s processes for ensuring
                 that proper work estimates are provided in a timely manner. The members of the
                 contract specialist/officer focus group unanimously stated that the Independent
                 Government Estimates (IGE) were unusable because they lacked any detail or
                 substantiation. The Technical Assessment Review (TAR) Team echoed these
                 concerns and stated that the IGE is sometimes numbers without any explanation.
                 Further, the TAR Team stated that the Fleet would frequently either change or
                 add new work at the last minute, which gives the TAR group insufficient time
                 to ensure that the contractor estimate is not over-inflated and is otherwise
                 accurate.   For example, one contractor Variance Analysis Worksheet explained
                 a 75  hour underrun by stating “Resources allocated for the beginning of the job
                 overestimated the level of effort required based upon historical risk analysis.
                 Based on current work progress, expect full utilization of remaining resources
                 to provide oversight as work pace increases.” The Worksheet went on to explain
                 “Resource loading in the schedule will be adjusted to reflect where level of effort
                 will be needed.” So, the contractor overestimated the number of hours needed
                 to do the job, and the government did not catch the overestimation.

                 Another Variance Analysis Worksheet explained a 35% variance with the following:

                         “Reasons for schedule variance are as follows:

                         •	 Work stopped while the contractor considered subcontracting this work
                             item out.    When work resumed by the contractor, a Quality Control
                             inspection of the door found a failed chalk test, and work was
                             stopped again.

                         •	 Unplanned costs for repairing the door and frame of about 200 hours
                             are starting to impact the estimate at completion cost.

                         •	 Slow and poor workmanship has impacted the hours of this work item.”

                 Yet another Variance Analysis Report explained a 305.11% variance, totaling 1,481.5
                 additional hours. Of the 1,481.5 hours, approximately 500 hours were due to
                 “The Contractor Shipyards welder and shipfitter inefficiencies.” These Variance
                 Analysis Worksheets indicate the contractor cost control incentives built into
                 this contract are not working. Further, the vague and non-descriptive explanations
                 limit the government’s ability to improve its estimation process; or identify
                 potential fraud, waste, abuse, and mismanagement.




134 │ DODIG-2014-094
                                                                                                                 Appendixes


Conclusion
The team assessed the CMD’s fraud, waste, abuse, and mismanagement control
activities as ineffective.             By failing to ensure the contractor has not overinflated
its estimates and that the contractor provided detailed explanations for cost
variances, the CMD increased NAVSEA’s risk of cost mischarging, fraud, waste,
abuse, and mismanagement.


Monitoring
Internal control should generally be designed to ensure that ongoing monitoring
occurs in the course of normal operations. It is performed continually and is
ingrained in the agency’s operations. It includes regular management and
supervisory activities, comparisons, reconciliations, and other actions people take in
performing their duties.34

During our contracting specialist/officer focus group, the C-FRAM Team was
informed that the number one factor affecting their ability to ensure good value
for the taxpayer dollar was the fact that the work packages continued to change
throughout the contract negotiation process. According to the Joint Fleet Forces
Maintenance (JFFM) Schedule, changes are supposed to stop at a certain date to
give the TAR group sufficient time to analyze the requirements and to give the
contracting specialist/officer sufficient time to properly negotiate with the
contractor. But according to the focus group members this schedule is not being
respected. During the meeting, the C-FRAM Team requested data supporting these
claims.        Further, the C-FRAM Team interviewed the TAR group and the Contract
Department management asking about metrics on these claims. We were informed
that no such metrics exist.

The CMD uses several other contracting commands to obtain services and materials.
During the review the C-FRAM Team was informed that the CMD Contracting
Department has little to no visibility over the money put on these contracts and
the work performed by these contractors. As these contracts are not let on
a NAVSEA warrant, they are not the CMD Contracting Department’s responsibility.
However, if the CMD does not have an internal control to ensure a Statement
of Work (SOW) to SOW comparison, then the CMD is at risk for contract-shop




	34	
       GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999:
       Washington D.C.), pg 20.




                                                                                                           DODIG-2014-094 │ 135
Appendixes


                 shopping,35 duplicative services fraud schemes,36 and waste. The CMD does not
                 have regular and recurring command metrics on CMD funds transferred to other
                 commands for contractual services. The C-FRAM Team asked the CMD Finance
                 Department about funds going to other contracting shops, specifically, the CMD
                 Contracting Department. The CMD Finance Department provided a “50/50” report
                 that listed, amongst other things, amounts obligated by the Contracting Department
                 to other commercial shipyards.

                 During our focus groups and follow-up interviews, the team noted the CMD COR
                 workload was unevenly distributed, especially, at another detachment. The vast
                 majority of the CORs we interviewed at the CMD Headquarters were COR on one
                 or two contracts; however, the CORs at CMD detachments were COR on up to
                 eight contracts. Most concerning was an individual that was COR on seven cost-plus
                 type contracts and one fixed price contract. This same individual was also the
                 project manager on multiple availabilities. We followed up with the COR
                 Certification Manager (CCM) to determine the root cause of the uneven
                 distribution in workload. The CCM stated (1) that he was new to the seat and
                 working to get a previously semi-dormant program back up to full speed; and
                 (2) there are limited CORs available at the detachments.


                 Conclusion
                 The team assessed the CMD’s monitoring efforts as marginally ineffective.
                 The CMD’s ineffective distribution of COR workload, increases the risk these
                 oversight functions will not be performed and increases the risk of fraud, waste,
                 abuse, and mismanagement.


                 Recommendations
                 To address our finding that the CMD could improve its tone from the top, the team
                 recommends that the CMD:

                            1.	     Develop a means to communicate the Commanding Officer’s message on
                                    fraud, waste, abuse, and mismanagement to CMD contract oversight
                                    personnel, which includes but is not limited to, CORs, contract specialists,
                                    and contracting officers.

                 	35	
                        ther contract CMDs do not require the stringent COR oversight described under NAVSEAINST 4200.17, “Contracting
                        Officer’s Representative,” May 13, 2013
                 	36	
                        A duplicative services fraud scheme occurs when an individual contracts with the first contractor to actually do the work
                        and then contracts with a second contractor that bills the government for the same work. The individual then receives
                        some kickback from the second contractor.




136 │ DODIG-2014-094
                                                                                                    Appendixes


To address our finding that the CMD failed to follow NAVSEAINST 4200.17E,
“Contracting Officer’s Representative,” May 13, 2013, the CMD is required to:

      2.	     Ensure that all CORs have separate performance objectives describing
              their COR responsibilities.

To address our finding that the CMD’s internal controls were ineffective, the team
recommends that the CMD:

      3.	     Ensure that IGEs contain sufficient detail to give contracting officers and
              specialists the information they need to effectively negotiate with the
              contractor; and

      4.	     Develop a means to get meaningful explanations for contractor
              cost variances.

To address our finding that the CMD could improve its methods for monitoring
internal controls, the team recommends the CMD:

      5.	     Develop metrics that track (1) the timeliness of work changes on
              scheduled availabilities; and (2) the true cost of those changes, which
              includes but is not limited to, dollars spent on planning work that is
              descoped and price differences for new work added late in the process;

      6.	     Develop a process that ensures the CMD Contracting Department is given a
              “right of first refusal” for all contracts funded by the CMD; and

      7.	     Evenly distribute COR workload at the CMD and all detachments.

C-FRAM’s assessment of the organization’s tone at the top, control activities and
ongoing monitoring efforts related to mitigating the risk of contract fraud, waste,
abuse, and mismanagement are illustrated in Table H.               Ratings of ineffective or
effective are applied to summarize the review results.

Table H. C-FRAM’s Assessment of the Reviewed Organization

                           Ineffective                                            Effective

 Tone from the Top
                                            ü
 Control Activities
                                ü
 Monitoring
                                            ü

                                                                                              DODIG-2014-094 │ 137
Appendixes


                 Appendix I
                 Procurement Fraud Personality Risk Profiles
                 Similar to the Fraud Triangle model, specific personality risk profiles37 were developed
                 to describe procurement fraudsters. These six personality risk profiles can be
                 placed into three categories: the Procurement Fraudsters, the Procurement Abusers,
                 and Procurement Non-Compliance Employees. Each one of the six personalities
                 created a different risk or vulnerability to organizations. The six personality risk
                 profiles are:

                                 •	 Situational Fraudster

                                 •	 Deviant Fraudster

                                 •	 Business Abuser

                                 •	 Multi-Interest Abuser

                                 •	 Well-Intentioned Noncompliance Employee

                                 •	 Disengaged Noncompliance Employee

                 While the Fraudsters and Abusers of the procurement process create a direct
                 financial           loss,     or     damage          the     organization’s           reputation,          or     cause       media
                 embarrassment, the Noncompliance employees create unnecessary exposure to
                 fraud, litigation, and wasted resources and funds. However, the most concerning
                 is that the Noncompliance employees open the door and create new opportunities
                 for fraudsters, which is why the vulnerabilities they create need to be taken seriously.

                 Situational Fraudster
                 The Situational Fraudster is very similar to the traditional fraudster. This
                 employee appears to be frustrated at work; has rationalized their right to an illegal
                 enrichment; and perpetrates the fraud scheme when the right occasion occurs,
                 usually because of weak internal controls. When the Situational Fraudster is caught,
                 other employees are not surprised that the individual was involved in the fraud.




                 	 37	
                         Tom Caulfield, Executive Director, CIGIE, Training Institute, “Procurement Integrity’s Integrated Controls vs. the Fraudster,”
                         May 2013, to be published at a future date.




138 │ DODIG-2014-094
                                                                                         Appendixes


Deviant Fraudster
The Deviant Fraudster is the most serious threat to the organization because they
cause the most damage. They are always proactive in their search for opportunities
to commit fraud; possibly perceived as one of the company’s hardest workers or
best contractors; and carry the “veil of trust” from others within the organization.
This employee has a strong group of advocates who deny assertions that the
fraudster is involved with any wrongdoing. The Deviant Fraudster, when internal
to an organization, was also the employee that took only a few days of leave each
year and seems to have their hand in every process within their business unit.
This person is sometimes described as a “wheeler-dealer.”

When comparing the Situational Fraudster and the Deviant Fraudster, the
Situational Fraudster is far more prevalent in any contract, but the losses are
much less; normally under a hundred thousand dollars. However, if the Deviant
Fraudster successfully bribes an official to allow fraudulent billing submissions
with a promise of kickbacks, or a contractor implements a fraudulent cost
accounting scheme, the losses could be in the millions of dollars.

Business Abuser
Most published articles or classes on procurement fraud discuss the Situational or
Deviant Fraudsters, however, additional vulnerabilities are created by other
personality types. For example, the Business Abuser is the person that committed
an inappropriate act that on its face seems to benefit the organization and not
themselves. However, in reality, the Business Abuser commits the fraud to increase
their standing within the organization, as someone that could continuously increase
business and generate revenues. In general, this employee is looking to enhance
their financial position in yearly bonuses, awards, or incentive pay.

The Business Abuser may inappropriately shift cost between contracts to make
their unit appear better managed than it really is; or will bypass required quality
control steps to ensure more timely or early deliverables. The Business Abuser is
found in organizations with unrealistic operational demands perceived by the
workforce, or when product delivery is emphasized above everything. The employee
rationalizes their inappropriate actions as entitlement because it is linked to
mission success. This individual places a great deal of difficulty for prosecution as
the fraud investigator has to demonstrate with sufficient evidence that the fraud
was done knowingly, and to receive monetary compensation in the future.




                                                                                   DODIG-2014-094 │ 139
Appendixes


                 Multi-Interest Abuser
                 The Multi-Interest Abuser is the person that manipulates the procurement process
                 to advance their own interests and the interests of another person. This is not
                 done to obtain any financial advantage, but instead to help a friend secure a contract,
                 or to ensure that an award goes to a desired contractor, or to help family members.
                 The Multi-Interest Abuser is the person who drafted contract specifications for
                 a specific contractor; or who embellished the need for a sole source justification
                 to avoid the competitive process; or who slanted technical specifications to a
                 specific bidder. The Multi-Interest Abuser is not motivated by any direct financial
                 compensation, but raises significant risk to an organization in contract protests or in
                 potential payment of higher costs because the competitive process is circumvented.
                 Clearly, if the inappropriate actions of this person were motivated for personal
                 financial gain, this person would be categorized as a Procurement Fraudster and not
                 an abuser.

                 The next two personality risk profiles are rarely talked about during fraud courses,
                 but present a risk to the organization that is harder to identify than the Fraudster
                 or Abuser. These last two risk profiles fall into the category of the Procurement
                 Noncompliance Employees.

                 Well-Intentioned Noncompliance Employee
                 The Well-Intentioned Noncompliance Employee believes that their deviation from
                 the procurement process does not harm the organization. As a matter of fact,
                 they sometimes believe they are helping the organization in obtaining greater
                 efficiency   or   obtaining   better   services.   The   self-described   well-intentioned
                 non-compliance employee is normally an employee who has been with the
                 organization for several years and has a good working knowledge of procurement
                 processes or requirements and therefore knows how to advance their idea of
                 efficiency. This is the employee who will not identify to the procurement division
                 the true scope of a requirement to ensure the contract remains under a particular
                 dollar threshold thereby allowing the award to be expedited (split purchase).
                 This is also the employee who knows what key descriptions in an organizational
                 purchasing document to use, or not to use, to avoid any additional procurement
                 steps. This Well-Intentioned Noncompliance employee is found in organizations
                 that allow low-dollar purchases without approval from an independent department
                 or the purchasing department, or, organizations with limited checking on
                 compliance with their procurement processes. This person’s actions, similar to the
                 Multi-Interest Abuser, raises the risk of contract protests, or in potentially paying




140 │ DODIG-2014-094
                                                                                                     Appendixes


higher than needed cost for items due to the absence of a fair and open
competitive process.

Disengaged Noncompliance Employee
The Disengaged Noncompliance Employee is the one who puts little or minimal
effort into a specific procurement step. This person will not verify a contractor’s
bond, or not examine a contractor’s past performance record, or not confirm a
contractor’s deliverable prior to approving payment. The actions, or lack of actions,
by the disengaged person is the byproduct of a disgruntled or dissatisfied employee.

Case study examples of a DoD Multi-Interest Abuser and Situational Fraudster are
discussed in Figures I-1 and I-2.

Figure I-1. Contracting Scheme


                            The DoD Multi-Interest Abuser
                        Service Member Contracting Scheme

   Case Facts – A service member misused their position as Chief Contracting
   Officer at an overseas location. The individual steered military contracts to a
   company owned by their family. In one scheme, the family business received
   over $30,000 in a prearranged contract to purchase military equipment.
   Over time, the family’s profits exceeded 3 million dollars.

   A plea agreement revealed that the service member exploited a partnership
   with a contractor by guiding work to their company. As part of the arrangement,
   the contracting company steered significant portions of certain contracts to
   the family operated business. Because of their position, the service member
   was the only family member that was knowledgeable about government
   contracting processes, which government contracts were likely to be awarded to a
   competitor, and which government contracts were previously awarded to
   competing businesses.

   Outcome – The service member was charged with conflict of interest and
   sentenced to 30 months in prison for public bribery. In exchange for his guilty plea, the
   family members were not prosecuted.




                                                                                               DODIG-2014-094 │ 141
Appendixes


                 Figure I-2. Civilian Bribery Scheme


                                                 The DoD Situational Fraudster
                                           Former DoD Civilian Sentenced for Bribery

                       Case Facts – A DoD civilian was responsible for placing orders with local
                       vendors for industrial supplies and cleaning agents. They initially accepted
                       gifts   such   as    college    basketball   tickets   and   video   game   systems   in
                       exchange for placing orders through a local vendor. Within six months, the
                       employee increased orders of cleaning supplies by approximately $30,000.
                       The unnecessary increases were made so the local vendor would contribute
                       to their son’s baseball team.

                       Next, the employee and the vendor agreed to formalize their arrangement.
                       The pair agreed that the employee would receive a cash payment equal to
                       2.25% of the total amount of any order placed with the vendor. During a
                       two week period, eight separate orders were placed totaling over $280,000.
                       In exchange for placing these orders, the vendor paid the employee $6,800.
                       However, the employee was greedy and complained that they were owed
                       over $7,000 based upon the agreed rate of 2.25%.

                       This arrangement continued for over a year.            Over time, the employee inflated
                       numerous orders and, in exchange, was paid over $34,000 in gifts and cash
                       from the local vendor.

                       Outcome – The employee was sentenced to 30 months in prison for public bribery.




142 │ DODIG-2014-094
                                                                                                                                        Appendixes


Appendix J
Organization Tool for Evaluating Fraud
Control Program
Organizations are encouraged to use the checklist38 below as a tool for evaluating
the effectiveness of their fraud control program. The checklist is intended for
illustrative purposes only. DoD organizations are encouraged to modify the checklist
to suit their mission, size, complexity, and maturity of their fraud control program.

Fraud Control Governance Arrangements
            1.	     Does the entity have an effective and articulated fraud control framework
                    in place?

            2.	     Does the entity have a central point of contact for fraud control within
                    the entity?

            3.	     Does the Audit Committee have a role in overseeing the development
                    and implementation of the fraud risk assessment and fraud control plan?

            4.	     Is information on the entity’s values and code of conduct easily accessible
                    to employees and included as part of its induction processes?

            5.	     Does the entity have a conflict of interest policy and is this easily
                    accessible and understood by employees?

Fraud Prevention
            6.	     Has the entity undertaken a comprehensive fraud risk assessment in
                    the previous two years, or following any significant change to the entity
                    if earlier?

            7.	     In identifying the fraud risks, does the entity consider: the entity’s
                    role, size and function; any change in structure or function; external
                    and internal fraud; new and emerging fraud risks; and the broader
                    organizational risks?

            8.	     Has a fraud control plan been developed to minimize the impact and
                    likelihood of identified risks?



	 38	
        Australian National Audit Office, “Fraud Control in Australian Government Entities,” Better Practice Guide, March 2011.




                                                                                                                                  DODIG-2014-094 │ 143
Appendixes


                       9.	   Has a fraud policy been issued by the Chief Executive Officer outlining
                             the entity’s position on fraud?

                       10.	 Do agreements with non-government service providers consider the
                             applicable elements of the organization’s Code of Conduct?

                       11.	 Does the entity ensure that adequate employment screening procedures
                             are implemented?

                       12.	 Does the entity take steps to ensure the bona fides of new suppliers
                             and customers and periodically confirm these?

                       13.	 Does the entity ensure that adequate fraud awareness activities and
                             training are conducted within the organization? This should also include
                             external parties such as suppliers and customers.

                       14.	 Does the entity have a formal process in place for communicating the
                             outcomes of completed fraud investigations? Internal audit department to
                             tailor and target fraud awareness activity and information.

                 Fraud Detection
                       15.	 Does the entity have a range of internal and external reporting
                             mechanisms in place for parties to report suspected unethical behavior
                             (including fraud)?

                       16.	 Are the entity’s reporting mechanisms easily accessible by internal and
                             external parties?

                       17.	 Does the entity use internal audit to actively review its detective
                             control environment?

                       18.	 Does the entity provide sufficient information to enable employees to
                             recognize the possible ‘red flags’ or early warning signs of fraud activity?

                       19.	 Does the entity require active fraud detection measures such as data
                             mining or ‘hot spot analysis’??

                 Monitoring, Evaluating and Reporting
                       20.	 Are there effective reporting channels (internal and external) in place to
                             ensure all reported instances of fraud are adequately monitored?

                       21.	 Do the monitoring systems ensure appropriate accountability for
                             fraud control?




144 │ DODIG-2014-094
                                                                                  Appendixes


22.	 Is there a quality assurance review system in place to help identify
     problems in all aspects of fraud control and its operations?

23.	 Following an instance of fraud, does the entity review the work processes
     subject to the fraud to determine whether changes were required to
     existing processes, including processes relating to fraud risk assessment
     and fraud prevention?




                                                                            DODIG-2014-094 │ 145
Appendixes


                 Appendix K
                 Suggested Reading
                 •	 AICPA, “Management Override of Internal Controls”, January 2005
                       http://www.aicpa.org/_catalogs/masterpage/Search.
                       aspx?S=management+override+of+internal+controls

                 •	 Australian National Audit Office, “Fraud Control in Australian Government
                       Entities, Better Practice Guide”, March 2011
                       http://www.anao.gov.au/Publications/Better-Practice-Guides/2010-2011/Fraud-
                       Control-in-Australian-Government-Entities

                 •	 American Accounting Association, “Auditors’ Use of Brainstorming in the
                       Consideration of Fraud: Reports from the Field,” Joseph F. Brazel, North Carolina
                       State University, Tina D. Carpenter, University of Georgia, J Gregory Jenkins,
                       Virginia Polytechnic Institute and State University, 2010
                       http://papers.ssrn.com/sol3/papers.cfm?abstract_id=965453

                 •	 Chartered Institute of Management Accountants,’ “Fraud risk management, A guide
                       to good practice,” January 2009
                       http://www.cimaglobal.com/Thought-leadership/Research-topics/Governance/Fraud-
                       risk-management-a-guide-to-good-practice-/

                 •	 Department of the Navy, Bureau of Medicine and Surgery, “Navy Medicine
                       Anti-Fraud Program, Instruction 5370.4,” April 1, 2010
                       http://www.med.navy.mil/directives/Pages/BUMEDInstructions.aspx

                 •	 Grant Thornton, “Managing fraud risk: The audit committee perspective,” not dated.
                       http://www.grantthornton.com/issues/library/articles/audit/2012/Audit-2013-06-
                       Managing-fraud-risk-2012.aspx

                 •	 IIA, AICPA, ACFE, “Managing the Business Risk of Fraud: A Practical Guide,” not dated.
                       http://www.acfe.com/resource-library.aspx

                 •	 Independent Commission Against Corruption’s publication titled “Fighting Fraud,
                       Guidelines for State and Local Governments,” November 2002




146 │ DODIG-2014-094
                                                                                           Appendixes


   http://www.cmc.qld.gov.au/topics/misconduct/misconduct-prevention/major-risk-
   areas/fraud-and-corruption

•	 KPMG Forensic Practice, “Fraud Risk Management, Developing Strategies for
   Prevention, Detection, and Response,” 2006
   http://www.informationweek.com/whitepaper/Business_Intelligence/
   wp902902?articleID=902902

•	 Pricewaterhouse Coopers, “How principles-based risk assessment enables
   organizations to take the right risks,” 2008
   http://www.pwc.com/us/en/issues/enterprise-risk-management/publications/guide-
   to-risk-assessment-risk-management-from-pwc.jhtml

•	 United Kingdom, Department of Finance and Personnel, “Anti-Fraud Policy
   Response Plan,” April 2011
   http://www.dfpni.gov.uk/search.lsim?sb=0&qt=drug&sr=80&ha=dfp-cms&cs=iso-8859-
   1&mt=1&nh=10&sc=&sm=0

•	 DoD OIG, Fraud Investigative Resources
   www.dodig.mil/resources/fraud/index.html
   This online tool contains the following information: fraud scenarios and indicators,
   GAGAS requirements for auditors, fraud knowledge tests, and links to additional
   fraud resources.




                                                                                     DODIG-2014-094 │ 147
Acronyms and Abbreviations


                 Acronyms and Abbreviations
                                     AAA    Army Audit Agency
                                   AAFES Army and Air Force Exchange Service, Audit Division
                                   AAMC Association of American Medical Colleges
                                    ACFE Association of Certified Fraud Examiners
                                   AICPA American Institute of Certified Public Accountants
                   C-FRAM NAVSEA OIG Contract Fraud Risk Assessment and Mitigation Branch, Naval Sea Systems
                                     Command, Office of the Inspector General
                                    CIGIE Council of the Inspectors General on Integrity and Efficiency,
                                          Training Institute
                                    CMD Command
                                     COR Contracting Officer Representative
                                     CSA Control Self-Assessment
                                  DoD EA DoD Education Activity
                                     DTS Defense Travel System
                                      FA Family Assistance
                                  GAGAS generally accepted government auditing standards
                       Grant Thornton, LLP Grant Thornton
                                       IA Internal Audit
                                      IIA Institute of Internal Auditors
                                     OIG Office of Inspector General
                                MCNAFAS Marine Corps Nonappropriated Funds Audit Service
                                 NAVSEA Naval Sea Systems Command
                                NEXCOM Navy Exchange Service Command
                               Texas Tech Texas Tech University System
                                    USDA US Department of Agriculture




148 │ DODIG-2014-094
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D epartment of D efense │ I nspector G eneral
               4800 Mark Center Drive
             Alexandria, VA 22350-1500
                   www.dodig.mil
           Defense Hotline 1.800.424.9098
